<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Leahy, Tim Johnson, Tester, 
Landrieu, Murkowski, Alexander, Cochran, Collins, and Hoeven.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. KEN SALAZAR, SECRETARY
ACCOMPANIED BY:
        DAVID J. HAYES, DEPUTY SECRETARY
        PAMELA K. HAZE, DEPUTY ASSISTANT SECRETARY FOR BUDGET, FINANCE, 
            PERFORMANCE, AND ACQUISITION


                 OPENING STATEMENT OF SENATOR JACK REED


    Senator Reed. Let me call the hearing to order and on 
behalf of the members of the subcommittee I'd like to welcome 
the Secretary of the Interior. Mr. Secretary, thank you very 
much for taking time to be with us this morning and to talk 
about the fiscal year 2013 budget for the Department of the 
Interior.
    I would also like to take a moment to thank you for all the 
time that you spent in our States during the past year visiting 
our shared priorities. I very much appreciated your trip to 
Rhode Island last summer and your support to create the John H. 
Chafee Blackstone River Valley National Historic Park.
    I am also grateful for your participation, you and your 
staff, along with Senator Murkowski, for our very interesting 
and informative trip to Alaska. And I would also like to thank 
Senator Murkowski not only for her gracious hospitality in 
Alaska, but for her extraordinary efforts last year on a 
bipartisan basis to bring forward an Interior bill which I 
think was a good one. Thank you very much, Senator Murkowski, 
for your great work and for the work of your staff.
    Mr. Secretary, I also want to thank you for your intense 
interest in all these issues and for your accessibility and 
collaboration with us throughout the process last year, and we 
look forward to the same collaboration going forward this year.
    Turning to the budget, it appears that the administration 
is seeking $10.4 billion for Interior programs under the 
jurisdiction of this subcommittee. That is an increase of $139 
million, or about 1 percent more than the equivalent fiscal 
year 2012 enacted level.
    Within that amount, funding for the operations of our 
national parks, refuges, and other public lands is essentially 
flat at $4.56 billion. Tribal programs are also flat-funded at 
approximately $2.53 billion.
    The budget request does include a few new investments, 
including a $115 million increase for the Interior Department's 
Land and Water Conservation (LWCF) programs, for a total of 
$332 million. That amount is a 53-percent increase more than 
the fiscal year 2012 level and includes a new emphasis on 
landscape-scale projects in Montana, Wyoming, and Florida.
    I look forward to discussing how this proposal fits in with 
other land acquisition priorities particularly since I notice 
that there are no projects in some of our States, Rhode Island 
included, with respect to land acquisition. And it is very 
important, I think you recognize this, for urban parks and 
refuges and also for the whole country that we have an active 
acquisition process going forward.
    The budget request also includes $222 million for the 
Bureau of Safety and Environmental Enforcement (BSEE), a 13-
percent increase for inspections and enforcement. I understand 
the Department intends this funding increase to continue the 
transformation of its offshore energy program.
    The request also proposes substantial increases in science, 
including a 3-percent increase in the U.S. Geological Survey's 
(USGS) budget for a total of $1.102 billion. Within that amount 
is $18.5 million for hydraulic fracturing research to support a 
multi-agency research effort to address environmental questions 
related to energy development.
    Of course, as is often the case during these fiscally 
difficult times, the administration's budget request also 
contains reductions to other important programs, including a 
19-percent cut to land management agency construction programs 
and an additional 14-percent cut to the construction of tribal 
schools. And finally, it requires yet another round of belt-
tightening by the Department's Bureaus to produce $80 million 
in administrative savings.
    As we discuss the details of this request, it is very 
important to note that, for decades, resources provided to the 
Department through the Interior, Environment, and Related 
Agencies appropriations bill have created jobs by enabling oil 
and gas development, supporting outdoor recreation, and 
building facilities, roads, and trails on our public lands.
    The Department now has the opportunity to spur economic 
growth through new sectors like renewable energy, and that fact 
makes it even more important that the right resources and 
policies are in place to permit these projects to proceed 
quickly and responsibly.
    In particular, I would like to have a conversation about 
the role of the Bureau of Ocean Energy Management (BOEM) in 
permitting new offshore wind projects, which have the ability 
to create hundreds of new assembly and manufacturing jobs all 
across our coastal areas, but in particular at Quonset Point, 
Rhode Island. I think some of my colleagues also have some 
interest in those projects.
    We have worked in Rhode Island and in adjacent States, but 
particularly Rhode Island, to develop an ocean special area 
management plan (SAMP), first in the Nation effort to 
streamline the planning process for the siting of these 
facilities. And despite all this work, I am concerned that 
BOEM's environmental assessment and planning process for Rhode 
Island is falling behind schedule, that we are not keeping pace 
with other areas of development.
    And finally, I would also expect to discuss how the 
Department's budget request will support and expand other types 
of energy development. The subcommittee has been very involved 
in the reorganization of offshore oil and gas programs, and I 
am anxious to hear a progress report from the Secretary 
regarding how the Department's three new Bureaus are addressing 
their management challenges.
    I anticipate that we will also discuss the changes the 
Department is proposing to its onshore energy development 
budget, including a proposal for a new inspection fee for oil 
and gas development on Bureau of Land Management (BLM) lands, 
and I look forward to a good conversation on all of these 
important issues.
    And now, Mr. Secretary and colleagues, I would like to turn 
to the ranking member for any of her comments.
    Senator Murkowski.


                  STATEMENT OF SENATOR LISA MURKOWSKI


    Senator Murkowski. Thank you, Mr. Chairman, and welcome to 
the panel.
    We had the opportunity yesterday to have Secretary Salazar, 
Assistant Secretary Hayes, and Ms. Haze before the Energy 
Committee. So I had a chance to do some warm-up questions then, 
but it is good to welcome you back to this subcommittee.
    And Mr. Chairman, you mentioned the trip that we took to 
Alaska this summer. I, too, want to thank the Secretary and 
thank you and your staff. Peter Kiefhaber, who is no longer 
with the subcommittee, but did a great job with us as we worked 
that Interior package last year. So thank you not only for the 
time that you took to look at some issues that are very 
important to my State and to the country, but also for the good 
work of your staff as we built that bill last year.
    This morning, Mr. Chairman, I think we recognize that this 
is just the first of several of our subcommittee hearings that 
we will engage in an oversight role we exercise during these 
hearings. It is especially critical in this challenging fiscal 
climate where we are forced to make some very difficult 
decisions, difficult choices between many worthy programs that 
are funded by this bill and by others.
    It is imperative that we work with the executive branch to 
improve the efficiency and the quality of the programs that are 
administered by all of the agencies that are under our 
jurisdiction. I think we all recognize that in this time we are 
all having to figure out how we do more with less.
    As you have indicated, Mr. Chairman, the Department's 
budget request is essentially flat at $10.4 billion. But before 
I describe some of the concerns that I might have, I want to 
applaud you, Mr. Secretary, for including the full amount of 
contract support costs for the Bureau of Indian Affairs (BIA) 
request.
    These funds are absolutely, absolutely critical for the 
delivery of so many programs to Native Alaskans. As you know, 
this is a top priority for me, and I hope that we can encourage 
Indian Health Services to adopt your approach in future 
requests. So I thank you for that.
    There are a number of concerns that I have with the 
Department's budget proposal for fiscal year 2013. Similar to 
last year, it does propose to increase by 39 percent the amount 
for LWCF programs while at the same time we are cutting the 
construction accounts for all of the land management agencies 
and BIA.
    I think it is somewhat shortsighted to continue 
underfunding essential construction and maintenance programs 
while at the same time we are increasing the operational 
demands on the Department by expanding the amount of land under 
its jurisdiction. That was something that I had noted 
yesterday.
    I do find it curious that at the same time that the budget 
proposes to dramatically expand Federal land acquisition that 
it eliminates the National Wildlife Refuge Fund, which 
compensates States and localities for the loss of tax revenue 
due to Federal ownership.
    And while the budget proposes to extend mandatory Payments 
in Lieu of Taxes (PILT) that expire this fiscal year by just 1 
additional year, it doesn't provide for offsets. I think that 
before we commit funds to additional land acquisitions that we 
should make sure that we have got a definitive way to honor our 
existing commitments to States and counties that already have a 
large Federal land base which is not subject to property taxes.
    I was in Ketchikan on Friday. It is the southernmost 
community in southeastern Alaska, sits in the middle of the 
Tongass National Forest. I was reminded that in Ketchikan, only 
1/30th of 1 percent of the Ketchikan borough is taxable, is 
subject to any taxation, 1/30th of 1 percent.
    So when we cut back on PILT, when we cut back on Secure 
Rural Schools program funding, there is no way to expand their 
tax base. They are sitting in the middle of a national forest. 
So it was a good reminder to me of the importance of some of 
these mandatory payments.
    Also, a number of troubling proposals in the request for 
new fees that would raise the cost of domestic energy 
production, mining, and livestock grazing. I am concerned with 
what I would describe as a budget gimmick, and this relates to 
the Coastal Impact Assistance Program (CIAP).
    There is an offset of current discretionary programs by 
rescinding the $200 million within CIAP. This was established 
by the Energy Policy Act of 2005 in recognition of the direct 
impacts that are caused by Federal offshore Outer Continental 
Shelf (OCS) development on our OCS-producing States.
    Alaska, for instance, would lose $16 million of the 
remaining $45 million that it is entitled to under the program 
for environmental mitigation and infrastructure improvements. 
This is an unacceptable situation in my opinion, particularly 
in light of the fact that we have yet to enact legislation that 
would provide for State revenue sharing for OCS-producing 
States so that the projects that are currently supported by 
CIAP would continue to have a funding source.
    On a positive note, and as I said yesterday, you can't have 
conversations like this without--and being critical in areas 
without recognizing where we truly have made significant gains, 
and I thanked you for the contract support. But I would also 
like to thank you, Mr. Secretary, and the Department for the 
approval of Shell's Arctic spill prevention plan on the 17th of 
this month. I am very, very hopeful that after a number of 
false starts on this exploration of both the Beaufort and the 
Chukchi Seas that we can actually begin this summer.
    And again, Mr. Hayes, I thank you for your very personal 
efforts. You have been engaged at a level at the Secretary's 
request that I think has helped to facilitate this process.
    I am also very optimistic that language that was included 
in last year's Interior, Environment, and Related Agencies 
appropriation bill that transfers the authority over air 
quality issues in Arctic OCS from the Environmental Protection 
Agency to the Department of the Interior will finally provide 
some much-needed regulatory certainty for the environmentally 
safe and timely development of our resource.
    So I thank you for your assistance in many of these areas. 
Look forward to furthering our conversation today.
    And I thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski.
    Mr. Secretary, while we anticipate your testimony, I would 
like to give my colleagues present here an opportunity to make 
a brief statement before you begin.
    Senator Collins.


                   STATEMENT OF SENATOR SUSAN COLLINS


    Senator Collins. Thank you, Mr. Chairman.
    First, Mr. Chairman, let me say how much I look forward to 
working with you and the ranking member this year in crafting 
this important appropriations bill. And of course, it is always 
a pleasure to welcome back to the subcommittee our former 
colleague Secretary Salazar. I told Secretary Salazar this 
morning that he was my favorite Cabinet member, to which my 
colleague Senator Alexander quickly replied that I tell all the 
Cabinet members that.
    Senator Collins. But truly, we do have a special 
relationship from having served together. I also want to thank 
the Secretary for traveling to Maine last August to see the 
exciting new deepwater offshore wind technology that is being 
developed there.
    While I have looked forward to learning more about the 
broad range of activities included in the Department's budget 
request, I am particularly interested in discussing the BOEM's 
efforts with regard to leasing and permitting deepwater 
offshore wind, an issue that I know is of great interest to the 
chairman of this subcommittee as well. Specifically, I look 
forward to discussing BOEM's efforts in Maine, including the 
Renewable Energy Task Force and Statoil's unsolicited lease 
application.
    I know that you share my interest in streamlining the 
development of our offshore wind resources permitting so that 
we do not lose the global race in the development of this 
abundant, renewable energy source.
    In addition to advancing our goal to responsibly develop 
our energy resources, partnerships are paramount for striking 
the right balance in meeting our shared conservation goals. On 
that foundation, our open spaces, recreation, and working lands 
can continue to coexist for the benefit of future generations.
    One of the most important Federal programs to assist in the 
preservation of recreational and environmental resources is the 
LWCF. Secretary Salazar, you have been such a leader in this 
area, and I know you well recall how hard we worked together in 
this area to increase funding during your time in the Senate. I 
appreciate the administration's continued commitment to LWCF, 
which has funded the acquisition of key parcels within Maine's 
treasured Acadia National Park and strategic forest legacy 
projects.
    In addition, I am pleased to see partnerships highlighted 
in the America's Great Outdoors Initiative, including two 
community-led signature projects in Maine, the Keeping Maine's 
Forests and the Penobscot River Restoration Project. The 
Penobscot River Restoration Project is the largest river 
restoration project ever undertaken in the eastern part of the 
United States. It has been a true private-public partnership.
    I look forward to working together, particularly 
considering the challenging budget constraints, to ensure that 
the Department continues to provide technical assistance and 
seed money to help match the considerable private funding that 
has been raised to complete these flagship projects.
    These are just some of the issues I hope to touch on today, 
and I thank you, Mr. Chairman, for the opportunity to give an 
opening statement.
    Senator Reed. Thank you, Senator Collins.
    Are there any other colleagues that wish to give an opening 
statement? Senator Tester.


                    STATEMENT OF SENATOR JON TESTER


    Senator Tester. I will be brief. I want to thank you, 
Chairman Reed and Ranking Member Murkowski, for holding this 
hearing.
    And I want to thank Secretary Salazar, flanked by the two 
``Hay-zes'' here today. I appreciate the work you have done.
    I just want to look back. I think we had an incredibly 
successful year last year with wolf delisting, with the Cobell  
settlement, with the Crow water settlement. And I think that 
the ground-up strategy that you folks have used for land 
management, I think, is critically, critically important, and I 
applaud you on that.
    As we flesh out this budget, I think we need to continue to 
work to make things as good as we can for your Department and 
for the Federal lands around the country.
    So thank you very, very much.
    Senator Reed. Thank you very much, Senator Tester.
    And I am going to try to abide by the early bird rule with 
one exception. Senator Leahy has asked that he be recognized in 
the proper democratic order when he arrives, and I will do that 
and wanted to let my democratic colleagues know that.
    And with no----
    Senator Alexander. Wait. Could I make a brief statement?
    Senator Reed. Absolutely. Senator Alexander, please.


                  STATEMENT OF SENATOR LAMAR ALEXANDER


    Senator Alexander. Mr. Chairman, I want to join in the 
welcome of Secretary Salazar, who is well known and well loved 
here in our--in the Senate and thank him for his travels, 
including to the Great Smoky Mountain National Park, where he 
appeared with, among others, Dolly Parton, rendering everybody 
else who was present unimportant.
    But, one, I want to remind the Secretary and this 
subcommittee of the disparity in funding of our great national 
parks. The Great Smokies is the only park, only big park, that 
was actually given to the United States. It wasn't carved out 
of Federal land. And as a result of that, we don't collect a 
fee on people who come into the Great Smoky Mountain Park. So 
we have about one-half as much money to spend and two or three 
times as many visitors as even the big western parks in the 
Great Smokies.
    Last year, $35 million for Yellowstone National Park, $29 
million for Yosemite National Park, 19 million Federal dollars 
for the Smokies. And the people in the area have worked hard 
to--and of course, at Yellowstone National Park and Yosemite 
National Park, you have the fees on top of that. And at 
Smokies, you don't.
    Now we make up for that with a lot of volunteer work on the 
trails and efficient management. But I would hope, Mr. 
Secretary, you would look for ways to recognize the Smokies 
doing so much for itself, and you and I have talked about the 
joint curatorial collection facility there that would benefit 
five national park properties, which is competing for 
construction funds, which I know are diminishing, but a place 
to put important papers from the area, including President 
Andrew Johnson's papers.
    And we hope it has a priority and maybe a little equity 
since the park is not as well funded as others, even though it 
has two or three times as many visitors as other parks.
    The second thing I will be asking you about are fish 
hatcheries, which supply--one of which supplies the whole 
country. And I learned a long time ago that there are probably 
more people with hunting and fishing licenses in Tennessee than 
who vote. And so, this is serious business for us, and I will 
be asking you if you will give me some assurance you will not 
close the two fish hatcheries in Tennessee until we find a 
funding solution.
    We are working with the Corps of Engineers (COE), the 
Tennessee Valley Authority (TVA), to try to find a solution to 
this. We understand you will have to reduce some Federal 
funding. But if they close before we find a solution, that will 
be very, very disappointing.
    So I welcome you, and I look forward to my opportunity to 
ask questions at a later time.
    Senator Reed. Thank you very much, Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Reed. Mr. Secretary before you begin, I want to 
again recognize Deputy Secretary Hayes and Deputy Assistant 
Secretary Haze.


                    SUMMARY STATEMENT OF KEN SALAZAR


    Secretary Salazar. Thank you very much, Chairman Reed, and 
thank you for the recognition of my colleagues, members of the 
subcommittee, Deputy Secretary David J. Hayes and Pamela K. 
Haze, Deputy Assistant Secretary for Budget, Finance, 
Performance, and Acquisition.
    Ranking Member Murkowski, Senator Susan Collins, Senator 
Alexander, Senator Johnson, and Senator Tester, as I appear 
before you this morning--and I hope I am your favorite 
Secretary, Senator Collins--I can only tell you that when I 
look at the five of you, six of you, you are some of my 
favorite Senators.
    Secretary Salazar. I think if the rest of the U.S. Senate 
were like the six of you who are here today, I think we could 
solve every problem in the world. So I just wish there were 
more of you, both Democrats and Republicans.
    Let me also just acknowledge the great work of your staff. 
Rachael, congratulations on your appointment. We will miss 
Peter, but we know you will carry on and do a great job, and 
the great bipartisan relationship that you also have on the 
subcommittee reflects back on the staff. It has been great 
working with you as well and the staff on both sides.
    Let me say in this position as Secretary, I am very, very 
honored to be able to be the custodian of America's natural 
resources and the custodian of America's heritage. From the 
Crown of the Continent in Montana to the Great Smoky Mountains, 
to Mount Rushmore and the Dakota Grasslands to Acadia and the 
Penobscot River, to Mount Denali and the North Slope down to 
the Blackstone National Heritage Area, you reflect much of my 
job in the work you all do on behalf of your States. I very 
much have enjoyed visits to your States and spending time with 
you, working on solving problems because I think all of you and 
I are committed to doing that.


                        FISCAL YEAR 2013 BUDGET


    Let me just spend a few minutes talking about the budget 
proposed for fiscal year 2013. It is a squeeze budget. It is a 
tough choices and painful cuts budget. Senator Reed made the 
statement that it is a basically a flat budget, but there are 
also some very significant cuts to make the budget balance.
    It is a budget that cuts Government and asks us to do more 
with less. That is what the President has directed us, and as 
we all deal with these tough fiscal times, that is just a 
reality we have to face. It is a budget that supports huge job 
creation in energy, both in conventional energy, oil and gas, 
as well as renewable energy, where we have all made some major 
strides.
    It is a budget that supports conservation and tourism and 
the major dollars that are brought into each of your States 
from the conservation and outdoor recreation program, including 
all those hunters and anglers, bikers and hikers, and wildlife 
watchers. It is a budget that also does as much as we possibly 
can to honor the principle of our responsibility on the trust 
relationship with Native Americans.
    Now look at this budget in context. It is 3-percent less 
than where we were in fiscal year 2011. That is 3-percent less 
than. As Senator Reed remarked, it is about flat with where we 
were in fiscal year 2012. I want to spend a few minutes on some 
of the key points of this budget.


                         CUTS AND EFFICIENCIES


    The first are cuts and efficiencies in Government. This 
budget, as it has been presented, will result in a reduction of 
the Federal workforce at Interior by 591 full-time equivalents 
(FTE). We continue to look at how we do the job assigned to us 
by this Congress over the years and to do it in the right way 
with, frankly, fewer people. We are asking a lot of our people.
    We also move forward with some program terminations and 
downsizing. Some of these cuts are painful cuts and they end up 
reflecting a $517 million cut.
    In administrative efficiencies, we have taken a hard look 
at how we are doing information technology, procurement, and 
other functions of the Department, and there is a total of $207 
million of administrative efficiencies that are also set forth 
in this budget. Cuts and efficiency in Government, we are going 
to be doing more. We are going to be doing it with less.


                         OIL AND GAS PRODUCTION


    On jobs, with respect to energy, it is one of the hottest 
issues here in the Capitol these days. We continue to move 
forward with onshore oil and gas production, as well as 
offshore oil and gas production. The President has directed us 
and we are implementing the program to move forward with the 
program that produces America's domestic energy.


                                 ENERGY


    The budget reflects $662 million for conventional energy 
resources. We are moving forward with a number of initiatives 
in the Gulf of Mexico. As Senator Murkowski said, we may be 
moving forward with some programs also in the Beaufort and the 
Chukchi Seas in Alaska and onshore in Alaska in places like the 
National Petroleum Reserve-Alaska, which had basically not been 
developed, and we are moving forward there as well. We have an 
aggressive program for oil and gas development, both onshore as 
well as offshore.


                            RENEWABLE ENERGY


    The renewable energy effort contemplates $86 million, which 
is really only about 1/10th of what we are putting in the 
conventional energy area, but still there. Our high priorities 
are to move forward with both offshore wind energy, as well as 
onshore solar, geothermal, and wind energy. By the end of this 
year, we expect to be at more than 10,000 megawatts permitted 
onshore in the United States of America. The 2005 energy bill 
that I worked with you all on had a goal of less than that, and 
we actually will be surpassing the goals that were set forth in 
the act.


                                TOURISM


    Let me finally just say outdoor recreation and tourism, it 
is important for all of you to note that wherever I have gone 
around the country, including with Senator Collins as we stood 
there at L.L. Bean, we spoke about the importance of tourism 
and conservation and job creation. Independent studies have 
indicated tourism and conservation, outdoor recreation, and 
historic preservation bring in about 8 million jobs to this 
country every year.
    A report from McKinsey International indicates we can grow 
the economy from where it is today with an additional 2.1 to 
3.3 million jobs over the next 10 years by investments in 
conservation and outdoor recreation. Hence, the request we have 
for LWCF and other investments in conservation.


                             INDIAN COUNTRY


    Let me finally just say on tribal homelands, I am proud of 
the work we have done there. I think Assistant Secretary Larry 
Echo Hawk and his team have led the effort to make some of the 
most dramatic changes. Senator Tester spoke about some of the 
achievements just in the State of Montana. That has swept the 
country, and the Deputy Secretary, David Hayes, has been 
involved in many of those initiatives.
    It is a new beginning in our relationship with Indian 
country. The 566 tribes of the United States recognize that. We 
recognize we have a lot more work to do. But when you look at 
programs like the beginning of the Navajo water supply pipeline 
that will bring for the first time potable water to the 70,000 
Navajos on the reservation, we are making significant progress 
there. I am very proud of the work that we have done there.


                           PREPARED STATEMENT


    In conclusion, Mr. Chairman, and distinguished friends and 
members of this subcommittee, this is a tight budget. It is a 
squeeze budget. There are painful cuts included.
    I don't like many of them, frankly. I would rather be doing 
a lot more if we had that luxury. But it is a budget that is 
balanced, and it invests in job creation through energy, 
conservation--not just in this subcommittee, but also in other 
committees on the water side. We are doing a lot with water, 
tribal homelands, and I appreciate all the great work that all 
of you did in getting a fiscal year 2012 budget that allowed us 
to move forward with the plans for 2012.
    So thank you all very much.
    [The statement follows:]

                   Prepared Statement of Ken Salazar

    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today to present the details of the fiscal year 2013 budget 
request for the Department of the Interior. I want to thank the members 
of this subcommittee for your efforts to enact a fiscal year 2012 
appropriation. The fiscal year 2012 appropriations process was 
challenging for the Congress and the agencies--it required a coming 
together of diverse philosophies and views. We appreciate the support 
of this subcommittee for our priorities including the America's Great 
Outdoors Initiative, which enhances our efforts to be responsible 
stewards of the Nation's lands and resources, expanded responsible 
development of domestic energy sources with reforms in the oil and gas 
programs, high levels of youth hiring and education in all of our 
programs, and support for improved living and economic conditions for 
American Indians and Alaska Natives. Last, I appreciate the ongoing 
support of this subcommittee and your strong interest in our programs. 
Although we may not always share the same views, we have been able to 
accomplish a lot in these last 3 years.
    The fiscal year 2013 budget builds on this strong foundation with 
$11.5 billion requested in the President's budget for the Department of 
the Interior. This includes $10.5 billion for programs under the 
jurisdiction of the Interior, Environment, and Related Agencies 
Subcommittee and included in the Interior bill. The budget for current 
appropriations is $140.3 million or 1 percent more than the fiscal year 
2012 level. The request includes reductions and savings of $516.8 
million. We made difficult choices in this budget, sacrificing in many 
areas, deferring projects, and programming savings for efficiencies in 
order to maintain funding for key priorities and investments that will 
contribute to strengthening the economic vitality and well-being of the 
Nation.
    As the President has detailed in his ``Blueprint for an America 
Built to Last'', the budget proposes investments in an economy that 
works for everyone. Our budget request supports responsible domestic 
energy development, advances an America's Great Outdoors Initiative to 
maintain our legacy and stimulate new opportunities, applies science to 
address the most formidable natural resource challenges, and invests in 
self-determination and economic development to strengthen tribal 
nations. This subcommittee has been an active partner in advancing 
these priorities. I look forward to our continued collaboration during 
the fiscal year 2013 appropriations process.

                              INTRODUCTION

    The mission of the Department of the Interior is to protect and 
manage the responsible use of America's natural resources, support our 
cultural heritage, and honor the Nation's trust responsibilities to 
American Indians and Alaska Natives.
    Interior's people and programs impact all Americans. According to a 
Department study, in 2010, Interior programs and activities supported 
more than 2 million jobs and approximately $363 billion in economic 
activity. The Department is the steward of 20 percent of the Nation's 
lands. Interior manages the resources of the national parks, national 
wildlife refuges, and public lands and assists States, tribes, and 
others in the management of natural and cultural resources.
    Interior manages many of the Nation's natural resources, including 
those that are essential for America's industry--oil and gas, coal, and 
minerals such as gold and uranium. On public lands and the Outer 
Continental Shelf (OCS), Interior provides access for renewable and 
conventional energy development and manages the protection and 
restoration of surface mined lands. The Department of the Interior 
oversees the responsible development of 24 percent of America's 
domestic oil and gas supplies, while striving to ensure safety and 
environmental protection and the effective collection of revenue from 
this development. We estimate that energy and minerals development on 
Federal lands supported 1.3 million jobs and $246 billion in economic 
activity in 2010.
    The Department is also the largest supplier and manager of water in 
the 17 Western States, promotes and assists others to conserve water 
and extend water supplies, and provides hydropower resources used to 
power much of the Country. The Department estimates that the use of 
water, timber, and other resources produced from Federal lands 
supported about 370,000 jobs and $48 billion in economic activity.
    Interior works to ensure that America's spectacular landscapes, 
unique natural life, and cultural resources and icons endure for future 
generations, tells and preserves the American story, and maintains the 
special places that enable the shared American experience. In 2012, 
visitors made 476 million visits to Interior-managed lands and 
supported an estimated $47 billion in economic activity.
    Interior manages and delivers water, arbitrates long-standing 
conflicts in water allocation and use, and actively promotes water 
conservation. As one of the Nation's primary natural and cultural 
resource stewards, the Department makes decisions regarding potential 
development on the public lands and offshore coastal areas that can 
greatly impact the Nation's energy future and economic strength. 
Factored into this balance is the Department's unique responsibility to 
American Indians and Alaska Natives. The Department supports cutting-
edge research in the earth sciences--geology, hydrology, and biology--
to inform resource management decisions at Interior and organizations 
across the world and in earthquake, volcano, and other hazards to 
protect communities across the Nation. Maintaining and building the 
capacity to carry out these responsibilities on behalf of the American 
people is Interior's primary focus.

                       POWERING AMERICA'S ECONOMY

    Stewardship of America's lands and natural resources is at the 
heart of the national spirit and the economy--from the responsible 
management and development of natural resources and increasingly, the 
economic power of outdoor recreation.
    In 2011, the Department of the Interior generated a total of $13.2 
billion in receipts benefiting the U.S. Treasury--from a combination of 
fees, royalties, rents and bonuses from mineral, timber, and other 
natural resource development. The Department estimates that 
conventional and renewable energy produced on Interior lands and waters 
results in about $230 billion in economic benefits each year. In 2011, 
of the total receipts generated by the Interior, $11.3 billion was 
collected from energy production on public lands, tribal lands, and 
Federal offshore areas--a $2 billion increase more than the previous 
year--with receipts disbursed and revenues shared among Federal, State, 
and tribal governments.
    Since 2008, oil production from the Federal OCS has increased by 30 
percent, from 450 million barrels to more than 589 million barrels in 
2010. Balancing the need for safety and environmental enforcement, 
Interior currently manages 35 million acres of the OCS under active 
lease. A recently proposed 5-year oil and gas leasing program would 
make more than 75 percent of undiscovered technically recoverable oil 
and gas estimated on the OCS available for development.
    Onshore, the Bureau of Land Management (BLM) held 32 onshore oil 
and gas lease sales in 2011. BLM offered 1,755 parcels of land covering 
nearly 4.4 million acres. Nearly three-quarters or 1,296 of those 
parcels of land offered were leased, generating about $256 million in 
revenue for American taxpayers. This was a 20-percent increase in lease 
sale revenue more than 2010, following a strong year in which leasing 
reform helped to lower protests and increase revenue from onshore oil 
and gas lease sales on public lands. BLM recently has seen a 50-percent 
jump in industry proposals to lease for oil and gas exploration. Oil 
and gas companies nominated nearly 4.5 million acres of public minerals 
for leasing in 2011, up from just under 3 million acres the year 
before. Industry nominations are the first step in the BLM leasing 
process. After evaluating the parcels, BLM may offer them at auction. 
Successful bidders can then apply to drill for oil and gas.
    Interior is moving aggressively to put the President's energy 
strategy, ``Blueprint for a Secure Energy Future'', into action and 
expand secure energy supplies for the Nation--a strategy that includes 
the responsible development of renewable energy sources on the public 
lands. At the start of this administration, there were no solar energy 
facilities sited on the public lands, and wind energy development was 
relatively limited compared to development on private lands. Since 
March 2009, 29 onshore projects that increased approved capacity for 
production and transmission of power have been approved including the 
first ever utility-scale solar project, five wind projects, and eight 
geothermal projects. The Cape Wind Energy Project, approved for 
construction and operation, is the first ever offshore commercial wind 
operation. The 2013 budget reflects an expansion of these 
accomplishments with the goal of permitting 11,000 megawatts by the end 
of 2013.
    The President's ``Blueprint for a Secure Energy Future'' recognizes 
the economic potential of renewable energy development. The economic 
benefits could be particularly significant in America's remote and 
rural places near public lands. The Department's 2010 estimates 
identified nearly $5.5 billion in economic impacts associated with 
renewable energy activities, a growing economic sector that supports 
high-paying jobs.

                      GROWING THE ECONOMY OUTDOORS

    Interior is at the forefront of the administration's comprehensive 
effort to spur job creation by making the United States the world's top 
travel and tourism destination. In a recent statement, President Obama 
cited Department of Commerce figures showing that in 2010, 
international travel resulted in $134 billion in U.S. exports. 
International travel to the United States is the Nation's largest 
service export industry, with 7 percent of total exports and 24 percent 
of service exports. The Bureau of Economic Analysis (BEA) estimates 
that every additional 65 international visitors to the United States 
can generate enough exports to support an additional travel and 
tourism-related job. According to the travel industry and BEA, 
international travel is particularly important as overseas or ``long-
haul'' travelers spend on average $4,000 on each visit.
    President Obama has asked me to co-chair an interagency task force 
with Commerce Secretary John Bryson to develop a National Travel and 
Tourism Strategy to expand job creation by promoting domestic and 
international travel opportunities throughout the United States. A 
particular focus of the task force will be on strategies for increasing 
tourism and recreation jobs by promoting visits to the Nation's 
national treasures. The Department of the Interior manages iconic 
destinations in the national parks, wildlife refuges, cultural and 
historic sites, monuments, and other public lands that attract 
travelers from around the country and the globe. According to a 
Departmental study, in 2010, 437 million visits were made by American 
and international travelers to these lands, contributing $47.9 billion 
in economic activity and 388,000 jobs. Eco-tourism and outdoor 
recreation also have an impact on rural economies, particularly in 
Arizona, California, Colorado, Florida, Nevada, North Carolina, Oregon, 
Utah, and Wyoming.
    Interior is working to maximize the benefit of the outdoors for the 
millions of Americans at home. Hunting, fishing, and outdoor recreation 
contribute an estimated $730 billion to the U.S. economy each year. 
More than 12 million Americans hunt; more than 30 million Americans 
fish; and 3 out of 4 Americans engage in some kind of healthy outdoor 
activity. One in 20 U.S. jobs is in the recreation economy.
    Through the America's Great Outdoors Initiative, the administration 
continues to expand opportunities for recreation--through partnerships 
with States and others and the promotion of America's parks, refuges, 
and public lands. The fiscal year 2013 budget requests $5.1 billion in 
support of this initiative, a $145.6 million increase compared to 
fiscal year 2012. Funding is focused on programs supported through the 
Land and Water Conservation Fund (LWCF) land management operations, and 
other grant and technical assistance programs that promote conservation 
and improve recreational access.
    By encouraging innovative partnerships in communities across the 
Nation, the administration is expanding access to rivers and trails, 
creating wildlife corridors, and promoting conservation while working 
to protect historic uses of the land including ranching, farming, and 
forestry. As part of the America's Great Outdoors Initiative, Interior 
is supporting 101 signature projects in all States across the Country 
to make parks accessible for children, create great urban parks and 
community green spaces, restore rivers, and create recreational 
blueways to power economic revitalization. Projects were selected in 
concert with Governors, tribal leaders, private landowners, and other 
stakeholders, and were evaluated based on the level of local support, 
the ability of States and communities to leverage resources, and the 
potential to conserve important lands and promote recreation.
    An example of a multi-State partnership project is the Blackstone 
River Valley Greenway. This project, completed in partnership with 
Rhode Island and Massachusetts, will create a 50-mile blueway and 
greenway trail along the Blackstone River and the historic Blackstone 
Canal, connecting Providence, Rhode Island and Worcester, 
Massachusetts, and 12 cities and towns in between. Visitors and 
residents will experience the history of the American industrial 
revolution, enjoy nature and take advantage of numerous outdoor 
recreation options, including bicycling, walking, and canoeing. The 
project will celebrate and preserve what makes the Blackstone River 
Valley National Heritage Corridor a special place to live, work, and 
visit.
    A key component of nearly all of the 101 projects is to increase 
access to the outdoors for the public. In Alaska, the Kachemak Bay 
Water Trail is proposed as a 125-mile designated water route, a key 
component of which is to maintain access to the bay. For the 
communities near Kachemak Bay, the water trail is envisioned as a new 
and sustainable economic driver. The trail would provide a logical 
route for boaters to explore the bay, promoting outdoor recreation, 
connecting people along the Bay, and expanding a culture of marine 
stewardship.
    The America's Great Outdoors Initiative is being implemented in 
partnership with communities and stakeholders across the Country. In 
January of this year, I accepted the first donation of land in south-
central Florida to officially establish the Everglades Headwaters 
National Wildlife Refuge and Conservation Area--conserving one of the 
last remaining grassland and longleaf pine savannah landscapes in 
Eastern North America. The new refuge and conservation area--the 556th 
unit of the National Wildlife Refuge System--was established with the 
support of local ranchers, farmers, and landowners who are working 
cooperatively with Interior and the Fish and Wildlife Service (FWS) to 
conserve the wildlife values on their lands while retaining their right 
to raise livestock or crops, an approach championed by the Obama 
administration.
    The Everglades Headwaters National Wildlife Refuge and Conservation 
Area is one example of the new parks and refuges Interior has recently 
established to protect key natural and cultural resources for future 
generations. In addition to 650 miles of new national trails, 
designation of several national natural and historic landmarks, 
Interior welcomes the Martin Luther King, Jr. Memorial in Washington, 
DC; the Paterson Great Falls National Historical Park in New Jersey; 
the Fort Monroe National Monument in Virginia; the Dakota Grassland 
Conservation Area in North and South Dakota; New Mexico's first urban 
national wildlife refuge, the Middle Rio Grande National Wildlife 
Refuge in Albuquerque; and a signature America's Great Outdoors project 
in the Crown of the Continent Conservation Area in Montana. Interior 
launched significant efforts to protect America's enduring icons 
including upgrading the Statue of Liberty, initiating repairs to 
earthquake damage at the Washington Monument, and withdrawal of more 
than 1 million acres in the vicinity of the Grand Canyon from 
additional uranium and hardrock mining, to protect and preserve the 
natural beauty of the Grand Canyon.
    Interior's fiscal year 2013 budget request for appropriations from 
the LWCF includes a total of $450 million for Interior and United 
States Forest Service (USFS) program. The budget requests $212 million 
for Federal land acquisition within national parks, national wildlife 
refuges, and BLM public land boundaries, including $83.6 million for a 
collaborative program to support landscape-scale conservation projects 
developed in a collaborative process conducted by the USFS and Interior 
land management bureaus. Investments in ecologically important 
landscapes will be coordinated with State and local efforts to maximize 
ecosystem benefits, support at-risk species, and create wildlife 
corridors. The request includes $128.4 million for acquisition to 
facilitate protection of parks, refuges, and BLM designated areas based 
on bureau mission-specific priorities.
    The 2013 Federal land acquisition budget for BLM includes funding 
to will improve access for hunters and anglers to the public lands. 
Often these sportsmen and women are frustrated by complicated 
``checkerboard'' land ownership and are unable to access BLM lands that 
provide recreation opportunities. The budget includes $2.5 million that 
will be used to purchase easements to alleviate these challenges and 
provide improved access for public recreation.
    An additional $120 million is proposed for key grant programs 
supported by the LWCF, including $60 million each for the Cooperative 
Endangered Species Conservation Fund program and State LWCF grants.

             SPURRING GROWTH AND INNOVATION THROUGH SCIENCE

    Investments in research and development promote economic growth and 
innovation, ensure American competitiveness in a global market, and are 
critical to achieving the mission of the Department of the Interior. 
Investments in Interior's research and development will improve 
management of U.S. strategic energy and mineral supplies, water use and 
availability, and natural hazard preparedness. Sustainable stewardship 
of natural resources requires strong investments in research and 
development in the natural sciences.
    Research and development funding is increased by nearly $60 million 
in the fiscal year 2013 budget, with research and development funding 
increases among all of the Interior bureaus, and particularly the 
United States Geological Survey, FWS, Bureau of Safety and 
Environmental Enforcement (BSEE), BLM, and Bureau of Reclamation (BOR). 
With these investments, Interior will support research that addresses 
critical challenges in energy production and the management of 
ecosystems, invasive species, public lands, and water.
    Recent technology and operational improvements have led to 
increased use of hydraulic fracturing in developing natural gas 
resources. To ensure the prudent and sustainable development of this 
important source of domestic energy, economic development, and job 
creation, the fiscal year 2013 budget invests in research and 
development that proactively addresses concerns about the potential 
impacts of hydraulic fracturing on air, water, ecosystems, and 
earthquakes. The fiscal year 2013 budget supports a $45 million 
interagency research and development initiative by the USGS, the 
Department of Energy, and the Environmental Protection Agency (EPA) 
aimed at understanding and minimizing potential environmental, health, 
and safety impacts of shale gas development and production through 
hydraulic fracturing.
    The Bureau of Ocean Energy Management (BOEM) is working with the 
University of Texas and a team of arctic researchers on a 5-year 
comprehensive study of the Hanna Shoal ecosystem in the Chukchi Sea off 
Alaska's northwest coast. Past studies have identified this area as an 
important biological ecosystem, which supports a high concentration of 
marine life. Valuable data on physical and biological processes in the 
area obtained from this research effort will be combined with the 
results of previously conducted studies. The resulting information will 
be used by industry, as well as by BOEM in decisions regarding energy 
development in this region, and will be included in future National 
Environmental Policy Act analyses.
    In 2011, USGS used cutting-edge technology to complete the genome 
sequencing of the fungus that causes the skin infection that is a 
hallmark of the white-nose syndrome, which is decimating bat 
populations across the country. This sequencing will support further 
research that is necessary to develop management strategies to mitigate 
the spread of the syndrome among bats. Recognizing the impact of this 
is not limited to wildlife health, USGS and university partners 
produced a study which determined that bats contribute $3.7 billion to 
the agricultural economy by eating pests that are harmful to 
agricultural and forest commodities. The fiscal year 2013 budget 
provides $1.8 million for USGS to conduct further research and 
development to address this critical issue.
    In fiscal year 2013, the budget requests a $2 million increase in 
the BLM wild horse and burro program to fund research on contraception/
population control. Research may include topics such as studies on herd 
genetics, animal behavior, and overall rangeland use as it relates to 
sterilization and other population growth suppression techniques. The 
goal of the research will be to develop additional methods to minimize 
wild horse population growth and maintain herd health.

              DELIVERING SUSTAINABLE GROWTH THROUGH WATER

    Although BOR is within the jurisdiction of the Energy and Water 
Development Subcommittee, it plays a critical role in addressing the 
Nation's water challenges which are of interest to the subcommittee. 
BOR maintains 476 dams and 348 reservoirs with the capacity to store 
245 million acre-feet of water. BOR manages water for agricultural, 
municipal and industrial use, and provides flood control and recreation 
for millions of people. BOR's activities, including recreation, 
generate estimated economic benefits of more than $55 billion and 
support nearly 416,000 jobs.
    These facilities deliver water to 1 in every 5 western farmers to 
irrigate about 10 million acres of land, and provide water to more than 
31 million people for municipal and industrial uses and other 
nonagricultural uses. The water managed by Interior irrigates an 
estimated 60 percent of the Nation's vegetables each year. BOR 
facilities also reduce flood damages in communities where they are 
located and thereby create an economic benefit by sparing these 
communities the cost of rebuilding or replacing property damaged or 
destroyed by flood events.
    WaterSMART, established in 2010, has assisted communities in 
improving conservation, increasing water availability, restoring 
watersheds, resolving long-standing water conflicts, addressing the 
challenges of climate change, and implementing water rights 
settlements. The program has provided more than $85 million in funding 
to non-Federal partners, including tribes, water districts, and 
universities, including $33 million in 2011 for 82 WaterSMART grant 
projects. In December, Interior released a report on the effectiveness 
of the WaterSMART program, which demonstrates the importance of this 
work to the sustainability of resources in the Colorado River Basin.
    Another example of Interior's efforts to stretch water resources is 
the Yuma Desalting Plant in Arizona. BOR recently completed a year-long 
pilot operation of the plant in collaboration with California, Arizona, 
and Nevada water agencies. The pilot demonstrated the capability of the 
plant to augment Lower Colorado River supplies and produced sufficient 
water for use by about 116,000 people in a year. BOR and the regional 
water agencies are reviewing the results of this effort to evaluate the 
potential for long-term and sustained operation of the desalting plant.

 ENCOURAGING ECONOMIC DEVELOPMENT IN INDIAN COUNTRY AND HONORING TRUST 
                            RESPONSIBILITIES

    The Department has a unique responsibility to American Indians and 
Alaska Natives, which is upheld by Interior's support for a robust 
Government-to-government relationship as demonstrated by a new 
comprehensive and transparent consultation policy that ensures there is 
a strong, meaningful role for tribal governments. The Department and 
the President hosted the third White House Tribal Nations Conference in 
December 2011, bringing together tribal leaders from across the United 
States and enabling tribal leaders to interact directly with 
administration representatives and identify priority actions for 
American Indians and Alaska Natives.
    In 2011, Interior began planning to implement the landmark $3.4 
billion settlement of the Cobell v. Salazar lawsuit, and appointed a 
Secretarial Commission on Trust Administration and Reform to oversee 
implementation of the settlement agreement. The commission is 
undertaking a forward looking, comprehensive evaluation of Interior's 
management of nearly $4 billion in American Indian and tribal trust 
funds--with the goal of making trust administration more transparent, 
responsive, customer focused, and accountable.
    The Department held regional consultations across the Country to 
set the framework for the Cobell land consolidation program. The 
settlement establishes a $1.9 billion fund for the voluntary buy-back 
and consolidation of fractionated land interests to provide individual 
American Indians with an opportunity to obtain cash payments for 
divided land interests and consolidate holdings for economic and other 
uses, a significant benefit for tribal communities. Almost 4 million 
individually owned interests involving nearly 9 million acres have been 
identified as part of this effort.
    To further encourage and speed up economic development in Indian 
country, the Department took a significant step forward announcing the 
sweeping reform of antiquated, ``one-size-fits-all'' Federal leasing 
regulations for the 56 million surface acres the Federal Government 
holds in trust for tribes and individual Indians. The proposed rule 
identifies specific processes--with enforceable timelines--through 
which the Bureau of Indian Affairs (BIA) must review leases. The 
regulation establishes separate, simplified processes for residential, 
business, and renewable energy development, so that, for example, a 
lease for a single family home is distinguished from a large solar 
energy project. The proposed regulation incorporates many changes 
requested by tribal leaders during extensive consultations this past 
year to better meet the goals of facilitating and expediting the 
leasing process for trust lands. During the initial consultation period 
more than 2,300 comments were received from more than 70 tribes as well 
as several Federal agencies, including the Departments of Housing and 
Urban Development, and Agriculture, and the Internal Revenue Service. 
The BIA regulatory drafting workgroup is expected to review the 
comments and publish the final rule in 2012.
    The Claims Resolution Act of 2010 settled the Cobell lawsuit and 
four settlements that will provide permanent water supplies and 
economic security for the five New Mexico Pueblos of Taos, the Crow 
Tribe of Montana, and the White Mountain Apache Tribe of Arizona. The 
agreements will enable construction and improvement of reservation 
water systems, irrigation projects, a regional multi-pueblo water 
system, and codify water-sharing arrangements between Indian and 
neighboring communities. The primary responsibility for constructing 
water systems associated with the settlements was given to the BOR and 
BIA is responsible for the majority of the trust funds.
    BOR is requesting $21.5 million in fiscal year 2013 for the 
continued implementation of these four settlements and $25 million for 
the Navajo-Gallup Water Supply project. In total, the BIA budget 
includes $36.3 million for ongoing Indian land and water settlements, 
which includes $9.5 million for the seventh and final payment for the 
Nez Perce/Snake River Water Rights Settlement.
    A key responsibility for BIA is ensuring and improving the safety 
of Indian communities. Some Indian reservations experience violent 
crime rates that are twice the national average. The high crime rates 
are a key issue for tribal leaders as they degrade the quality of life 
for residents, attract organized crime, and are a real disincentive for 
businesses to consider these communities for economic development. 
Fiscal year 2011 was the second year of a 2-year pilot at four 
reservations to conduct expanded community policing, equip and train 
the law enforcement cadre, partner with the communities to organize 
youth groups and after school programs, and closely monitor results. 
The results exceeded expectations with a 35-percent overall decrease in 
violent crime in the four communities. Information about the four 
reservations is being analyzed and the program will be expanded in 2013 
to an additional two communities. The fiscal year 2013 budget includes 
$353.9 million for public safety and justice programs, a program 
increase of $8.5 million to support this expansion and other public 
safety activities.

                      INTERIOR'S BUDGET IN CONTEXT

    President Obama has challenged agencies to encourage American 
innovation, employ and educate young people, rebuild America, and 
promote economic development. Interior's fiscal year 2013 budget 
invests in areas that are responsive to these challenges and more. This 
budget continues funding for important programs that will protect the 
Nation's significant natural resources and cultural heritage, makes 
strategic investments in energy development, advances partnerships to 
leverage resources, and seeks improved outcomes for Indian communities. 
At the same time, this budget recognizes the need for fiscal 
responsibility. The priority programs that are level funded with fiscal 
year 2012 and limited strategic investments proposed in fiscal year 
2013 are balanced by reductions in lower-priority programs, deferrals, 
and planning efficiencies.
    Taking Fiscal Responsibility.--Interior made its fiscal year 2013 
budget decisions in the context of the challenging fiscal environment. 
The fiscal year 2013 budget of $11.5 billion, including BOR, eliminates 
and reduces lower-priority programs, defers project start-ups, reduces 
duplication, streamlines operations, and captures savings. The fiscal 
year 2013 request is $97.9 million, essentially level with fiscal year 
2012 enacted and $280.4 million less than 2011.
    The fiscal year 2013 budget contains $516.8 million in program 
terminations, reductions, and savings from administrative efficiencies. 
Staffing reductions of 591 full-time equivalents (FTEs) are planned for 
fiscal year 2013, a reduction of 741 FTEs from fiscal year 2011 levels. 
These personnel reductions are focused on areas where there are funding 
reductions. Staffing reductions will be achieved through attrition and 
buy-outs in order to minimize the need to conduct reductions in force 
to the greatest extent possible.
    This budget is responsible, with strategic investments in a few, 
targeted areas, and maintains the core functions that are vital to 
uphold stewardship responsibilities and sustain key initiatives. The 
budget also continues efforts to shift program costs to industry where 
appropriate. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress results in 
an additional $6 billion, for $17.5 billion in total budget authority 
for Interior in fiscal year 2013.
    Administrative Savings.--As part of the administration's Campaign 
to Cut Waste, the Department will achieve additional administrative 
efficiencies that result in cumulative savings of $207 million from 
fiscal year 2010 to 2013. These reductions are being implemented 
throughout Interior and result from changes in how the Department 
manages travel, employee relocation, acquisition of supplies and 
printing services, and the use of advisory services. The proposed 
savings in administrative functions will not have an impact on 
programmatic performance, and to the greatest extent possible savings 
will be redirected into priority programmatic areas.
    The Department's 2013 budget reflects a freeze on Federal salaries 
for fiscal year 2012 and a 0.5 percent pay increase in 2013. The budget 
fully funds fixed costs for the civilian pay increase, anticipated 
changes in the Federal contributions to health benefits, rent 
increases, changes in workers and unemployment compensation costs, 
programs financed through the Working Capital Fund, and specific 
contract requirements for Public Law 93-638 agreements with tribes.
    Cost Recovery.--Significant portions of Interior's budget are 
funded by cost recovery, offsetting collections, and discrete fees 
linked to uses of lands and resources. The budget proposes to increase 
cost recovery to offset the cost of some resource development 
activities that provide clear benefits to customers. The proposed fees 
on oil and gas inspections are consistent with the recommendations of 
the National Commission on the BP Deepwater Horizon Oil Spill and 
Offshore Drilling. The Commission's report stated the oil and gas 
industry should be ``required to pay for its regulators'' so that the 
costs of regulation ``would no longer be funded by taxpayers but 
instead by the industry that is permitted to have access to a publicly 
owned resource.''
    The budget includes $48 million from new inspection fees to be paid 
by onshore oil and gas producers. Instituting these fees will allow for 
a $10 million program increase to be used to strengthen the BLM 
inspection program, along with a $38 million decrease in current 
appropriations for BLM as a whole. Similar fees were proposed in fiscal 
year 2012, but not adopted due to concerns about impacts on the 
producers. The fees would be on average, 0.2 percent of the annual 
income collected by the producers. In addition to the proposed onshore 
inspection fees, estimated fee collections from the offshore oil and 
gas inspections instituted in fiscal year 2012 are slightly increased 
in fiscal year 2013 to $65 million. This fee-based funding is critical 
to maintaining the administration's aggressive implementation of a 
robust offshore safety program.
    The fiscal year 2013 budget proposes a new grazing administrative 
fee of $1 per animal unit month (AUM) on a 3-year pilot basis. The fee 
is estimated to generate $6.5 million in 2013 and will be used to 
assist BLM in processing grazing permits. During the period of the 
pilot, BLM would work through the process of promulgating regulations 
for the continuation of the grazing fee as a cost-recovery fee after 
the pilot expires.
    The fiscal year 2013 budget continues an offsetting collection 
initiated in 2012, allowing the Office of Surface Mining (OSM) to 
retain coal mine permit application and renewal fees for the work 
performed as a service to the coal industry. An estimated $3.4 million 
will be collected in 2013.

             MAJOR CHANGES IN THE FISCAL YEAR 2013 REQUEST

    The Department's fiscal year 2013 budget request totals $11.5 
billion in current authority including $10.5 billion for programs 
funded by the Department of the Interior, Environment, and Related 
Agencies Appropriations Act, 2012. This is $140.3 million, or 1.4 
percent more than the fiscal year 2012 level. The fiscal year 2013 
request for BOR including the Central Utah Project Completion Act, 
funded in the Energy and Water Development Appropriations Act, 2012, is 
$1 billion in current appropriations, $42.4 million or 3.9 percent less 
than the fiscal year 2012 level.
    Interior continues to generate more revenue for the U.S. Treasury 
than its annual appropriation. In fiscal year 2013, Interior will 
generate receipts of approximately $13.9 billion and propose mandatory 
legislation with a total net savings of roughly $2.5 billion over 10 
years.
    Bureau of Land Management.--The fiscal year 2013 request is $1.1 
billion, essentially level with the fiscal year 2012 enacted budget. 
This includes a decrease of $8.2 million for BLM's two operating 
accounts, an increase of $11.2 million for land acquisition, and a 
reduction of $3.6 million that eliminates the construction account.
    To advance the America's Great Outdoors Initiative, the request 
includes $6.3 million in programmatic increases for recreation, 
cultural resources, and the National Landscape Conservation System for 
BLM to expand and improve opportunities for recreation, education, and 
scientific activities while enhancing the conservation and protection 
of BLM-managed lands and resources.
    BLM will continue to promote and facilitate the development of 
renewable energy on public lands, as part of the New Energy Frontier 
Initiative. The fiscal year 2013 budget includes a program increase of 
$7 million for renewable energy to support wind, solar, and geothermal 
energy. An additional $13 million in program increases are requested to 
maintain and strengthen management of the oil and gas program, along 
with a requested $10 million increase in mandatory funding specifically 
focused on strengthening BLM's oil and gas inspection program. These 
increases would be more than offset by $48 million in proposed 
inspection fees to shift the cost of the oil and gas inspection and 
enforcement activity from taxpayers to the oil and gas industry.
    The other major program increase is $15 million to implement sage 
grouse conservation and restoration measures to help prevent the future 
listing of the species for protection under the Endangered Species Act. 
BLM will use $10 million of the requested increase to incorporate the 
necessary protections into BLM's land use plans to address conservation 
of the sage grouse. These plans will guide energy development, 
transportation, and other uses and ensure conservation of sage grouse 
habitat. The remaining $5 million funds on-the-ground projects to 
restore and improve sage grouse habitat and additional inventory, 
monitoring, and mapping efforts to delineate areas of highest-priority 
habitat in the range of the sage grouse. Other program increases in the 
BLM budget include $1.5 million for the Secretary's Western Oregon 
Strategy, $2 million for research and development on population control 
in the Wild Horse and Burro Management program, and $4.4 million in the 
Resource Management Planning program to support high-priority planning 
efforts.
    A $15.8 million program decrease is proposed in the Rangeland 
Management program, however, the impact of this funding decrease will 
be mitigated by a new grazing administrative processing fee of $1 per 
AUM that BLM proposes to implement on a pilot basis through 
appropriations language, estimated to raise $6.5 million in 2013. The 
fiscal year 2013 budget reduces programmatic funding for the Alaska 
Conveyance program by $12.4 million from the fiscal year 2012 level. 
Interior will explore opportunities to further streamline the program. 
A $3.5 million program reduction is proposed in the Public Domain 
Forest Management program.
    Bureau of Ocean Energy Management.--The fiscal year 2013 operating 
request is $164.1 million, including $62.7 million in current 
appropriations and $101.4 million in offsetting collections. This is an 
increase of $3.3 million more than the fiscal year 2012 enacted level.
    The fiscal year 2013 budget includes program increases of $2 
million from the fiscal year 2012 enacted level for activities to 
promote offshore conventional and renewable energy development that is 
safe and environmentally responsible. Increased funding will be used to 
develop baseline characterization and monitoring capabilities in the 
Gulf of Mexico that are required as a result of the Deepwater Horizon 
incident, as well as to support renewable energy lease auctions.
    Bureau of Safety and Environmental Enforcement.--The fiscal year 
2013 operating request is $222.2 million, including $96.3 million in 
current appropriations and $125.9 million in offsetting collections. 
This is an increase of $24.8 million more than the fiscal year 2012 
enacted level. The $4.8 million increase for offsetting collections 
includes an estimated $3 million increase in inspection fee 
collections.
    The fiscal year 2013 budget includes funds to increase operational 
safety capabilities, develop the National Offshore Training and 
Learning Center for inspectors, and conduct research and development 
activities on critical safety systems associated with offshore oil and 
gas development.
    Office of Surface Mining.--The fiscal year 2013 budget request is 
$140.7 million, a decrease of $9.5 million from the fiscal year 2012 
enacted level. The reduction reflects decreases in grants to States and 
tribes to encourage regulatory programs to recover costs from fees 
charged to the coal industry and finalize the transition of abandoned 
mine land reclamation from discretionary to mandatory funding.
    I signed a Secretarial Order on October 26, 2011, to review certain 
functions of OSM and BLM for potential consolidation. As part of this 
effort, I asked the Directors of OSM and BLM and other Interior 
officials to report by February 15, 2012 , on the results of 
discussions with the BLM's employees, congressional committees, and 
interested parties, such as tribes, State regulatory officials, 
industry representatives, and representatives of communities affected 
by coal mining. Our efforts in consolidation will respect existing law 
and identify actions that will strengthen these two bureaus.
    United States Geological Survey.--The USGS budget request is $1.1 
billion, $34.5 million more than the fiscal year 2012 enacted level. 
The President's budget supports science, monitoring, and assessment 
activities that are critical to understanding and managing the 
ecological, mineral, and energy resources that underlie the prosperity 
and well-being of the Nation. The fiscal year 2013 budget includes a 
program increase of $51 million to fund research and development 
priorities in disaster response, hydraulic fracturing, coastal and 
ocean stewardship, and ecosystem restoration. The budget also supports 
the Secretary's initiatives in responsible energy development and 
further resolution of water challenges with funding more than the 
fiscal year 2012 enacted level.
    The USGS budget also includes investments in important science 
programs to help meet societal needs. A program increase of $13 million 
more than fiscal year 2012 for the WaterSMART Program will be used to 
conduct research on predictive models on regional water availability, 
explore methods of integrating and disseminating data through science 
platforms, and establish a National Groundwater Monitoring Network.
    A program increase of $8.6 million is requested to improve rapid 
disaster response to natural disasters. Funding will be used to improve 
capacity to provide timely and effective science and information 
products to decisionmakers, in order to minimize the risks hazards pose 
to human and natural systems. Funding will be invested in capability 
improvements to the USGS monitoring networks for rapid response to 
earthquakes, volcanoes, volcanic ash, debris flow, tsunamis, floods, 
hurricanes, and other potential threats to populations and 
infrastructure.
    The budget includes a program increase of $13 million to support 
the hydraulic fracturing research and development effort with the 
Department of Energy and EPA to understand and minimize potential 
adverse environmental, health, and safety impacts of shale gas 
development through hydraulic fracturing. New work will build on 
existing efforts and address issues such as water quality and quantity, 
ecosystem impacts, and induced seismicity.
    With a program increase of $16.2 million, USGS will conduct science 
in support of ecosystem management for priority ecosystems such as the 
Chesapeake Bay, California Bay-Delta, Columbia River, Everglades, Puget 
Sound, Great Lakes, Upper Mississippi River, and the Klamath Basin. 
With an increase of $2 million, the USGS will address overarching 
ecosystem issues related to the invasive brown tree snake, white-nose 
syndrome in bats, and coral reef health. These increases will provide 
information management and synthesis and land change science support 
for these ecosystem activities. Included in the total above is $500,000 
identified for research efforts through the Department of the Interior 
Climate Science Centers to enhance work with tribes to understand the 
impacts of climate change on tribal lands. Funding increases will also 
support priorities in sustaining our national environmental capital, 
including development of the first coordinated multi-departmental 
effort of its kind to develop a standardized ecosystem services 
framework.
    The fiscal year 2013 budget also provides a program increase of 
$6.8 million to sustain and enhance existing activities and for a new 
initiative on Science for Coastal and Ocean Stewardship that supports 
priority objectives of the National Ocean Policy in the areas of marine 
and coastal science, resource and vulnerability assessments, ecosystem-
based management, and providing science based tools to inform policy 
and management. The USGS will work with partners to provide access to 
comprehensive maps and assessments of seabed and coastal conditions and 
vulnerability. The increase will improve the integrated science needed 
to inform development of resources while conserving the Nation's 
coastal and marine ecosystems.
    Fish and Wildlife Service.--The fiscal year 2013 budget includes 
$1.5 billion, an increase of $72 million more than the fiscal year 2012 
enacted level. In addition, the budget includes a $200 million 
cancellation of prior year unobligated balances in the Coastal Impact 
Assistance program. The budget includes America's Great Outdoors 
Initiative increases of $20.9 million in the Resource Management 
account and $52.3 million for land acquisition. There is a $3.9 million 
increase in the North American Wetlands grants program, a component of 
the America's Great Outdoors Initiative. State and Tribal Grants are 
funded at $61.3 million, level with fiscal year 2012. Funding for the 
construction account is reduced by $3.9 million.
    The budget proposes a program increase of $4 million for activities 
associated with energy development. This enables FWS to participate 
fully in priority landscape level planning and assist industry and 
State fish and wildlife agencies as they plan for renewable energy 
projects and transmission corridor infrastructure. The fiscal year 2013 
budget continues the commitment to ecosystem restoration by including 
$13.5 million for the Everglades, an increase of $3 million; $4.9 
million for California's Bay-Delta, level with fiscal year 2012; $10.2 
million for the gulf coast, level with fiscal year 2012; $10.3 million 
for the Chesapeake Bay, a program increase of $145,000; and $47.8 
million for the Great Lakes, a program increase of $2.9 million. 
Funding for the Cooperative Landscape Conservation and Adaptive Science 
activity is $33.1 million, an increase of $856,000. This funding 
supports the operation of 14 Landscape Conservation Cooperatives.
    The budget includes $994.7 million available under permanent 
appropriations, most of which will be provided in grants to States for 
fish and wildlife restoration and conservation.
    The fiscal year 2013 budget proposes a reduction of $14 million to 
eliminate the discretionary contribution to the National Wildlife 
Refuge Fund payments to counties to offset local tax loss due to 
Federal land ownership. An estimated $8 million in mandatory receipts 
collected and allocated under the program would remain. Payments 
collected by counties can be used for nonconservation purposes and as 
such, this Fund does not provide the high-priority conservation 
benefits delivered by other FWS programs. The budget also proposes the 
cancellation of $200 million in prior year balances within the Coastal 
Impact Assistance Program.
    National Park Service.--The fiscal year 2013 budget includes $2.6 
billion, $1 million less than the fiscal year 2012 enacted level. 
Within the total available for National Park Service in 2013, $2.4 
billion is for programs that support the goals of the America's Great 
Outdoors Initiative. The budget proposes strategic increases to advance 
the goals of the initiative, including increases of $13.5 million for 
park operations and $17.5 million for land acquisition and State 
assistance. The budget proposes reductions of $7.8 million in the 
national recreation and preservation account from the National Heritage 
Areas program, and $24.2 million from construction. The request for the 
Historic Preservation Fund is level with fiscal year 2012--grants to 
States and tribes are continued at the fiscal year 2012 level of $55.9 
million.
    Select programmatic increases in the park operations account 
include $5 million for Climate Change Adaptive Management tools, $2 
million for U.S. Park Police operations including $1.4 million in 
support of the Presidential Inauguration, $1.2 million for National 
Capital Area parks in support of the Presidential Inauguration, and 
$610,000 for the Challenge Cost Share program. These increases are 
offset with strategic reductions of $24.8 million to park operations 
and service-wide programs.
    Funding for land acquisition and State assistance totals $119.4 
million and includes a programmatic increase of $2.5 million for 
Federal land acquisition. The land acquisition proposal includes $9 
million for matching grants to States and local entities to preserve 
and protect Civil War battlefield sites outside the National Park 
System. The budget also requests a programmatic increase of $15.1 
million for the State Assistance Grant program. The $60 million request 
for State Grants includes $20 million for competitive grants that 
support urban parks and green spaces, blueways, and landscape-level 
conservation projects in communities that need them the most.
    Funding for construction includes a programmatic reduction of $25.3 
million for line-item construction projects, however, the budget 
proposes funding for the most critical health and safety projects in 
the National Park System. It also includes programmatic reductions of 
$1.5 million from construction program management and planning, 
$760,000 from the housing improvement program, $443,000 from 
construction planning, $450,000 from management planning, and $228,000 
from equipment replacement.
    Bureau of Indian Affairs.--The fiscal year 2013 budget includes 
$2.5 billion for BIA programs, a decrease of $4.6 million from the 
fiscal year 2012 enacted level. This includes an increase of $11.7 
million for Operation of Indian Programs and a decrease of $17.7 
million in the construction account. The budget includes an increase of 
$3.5 million in Indian Land and Water Claim Settlements and a decrease 
of $2.1 million in the Indian Guaranteed Loan program.
    In fiscal year 2013, the largest increase, $8.8 million, is in 
Contract Support Costs and the Indian Self-Determination Fund, both 
high priorities for tribes. Public safety and justice activities 
receive a program increase of $8.5 million to support additional police 
officers and detention corrections staff.
    The budget proposes program increases of $7.8 million for the Trust 
Natural Resources programs and $7 million for Trust Real Estate 
Services programs. Funding increases for Trust Land Management programs 
are proposed to assist tribes in the management, development, and 
protection of Indian trust land and natural resources. The budget 
proposes a $2.5 million program increase to support increasing 
enrollment at tribal colleges.
    The fiscal year 2013 request reflects a reduction of $19.7 million 
as the Bureau will undergo a consolidation in 2013 to streamline and 
improve oversight operations. The BIA will engage in extensive 
consultation with tribes to identify strategies that will ensure tribal 
needs and priorities are addressed. Following consultation, BIA will 
construct an implementation plan for a streamlined, cost-effective 
organization. The budget also includes $13.9 million in administrative 
savings from reductions to fleet, travel, contractors, and awards.
    Departmental Offices and Departmentwide Programs.--The fiscal year 
2013 request for the Office of the Secretary is $261.6 million, a 
reduction of $266,000 from the fiscal year 2012 enacted level. Of this, 
$119.6 million is for Office of Natural Resources Revenue including a 
program increase of $1.2 million to complete termination of the 
Royalty-in-Kind program and a program decrease of $2.3 million for 
completed information management system upgrades. The budget for the 
Office of the Secretary includes a program increase of $1.6 million for 
minerals receipts modeling development to improve revenue estimation 
and reporting capabilities and a program increase of $2 million for 
facilities rent necessitated by the delay in the Main Interior Building 
modernization project. Other changes include a general program 
reduction of $3.7 million and the transfer of the Indian Arts and 
Crafts Board from the Office of the Secretary to BIA resulting in a 
reduction of $1.3 million.
    The Department's fiscal year 2013 request for the Working Capital 
Fund appropriation is $70.6 million, an increase of $8.7 million from 
the fiscal year 2012 enacted level. Within this request is $62.1 
million to continue deployment of the Financial and Business Management 
System including implementation of the acquisition and financial 
assistance functionality as recommended by an independent assessment of 
the program. The budget proposes an increase of $3.5 million to improve 
Interior's stewardship of its cultural and scientific collections and 
an increase of $2.5 million to expand collaboration similar to the 
Service First to improve delivery and operating costs. Proposed 
reductions include $5 million to reflect the shift of the Department's 
Information Technology Transformation initiative from appropriated 
funds to the Departmental Working Capital fund and $2.5 million for 
completion of the Department's Acquisition Improvement Initiative.
    Major changes in other Departmental programs include an increase of 
$243 million in the Wildland Fire Management program. The net increase 
is comprised of a program increase of $195.8 million that fully funds 
the 10-year suppression average and a program reduction of $39 million 
in the Hazardous Fuels Reduction program reflecting a refocusing of the 
program toward treatments in the wildland-urban interface.
    The budget request for the Office of Insular Affairs is $88 
million, a decrease of $16.4 million from the fiscal year 2012 enacted 
level. The budget includes $5 million to mitigate the impacts and costs 
of Compact migration and $3 million to implement energy projects 
identified by the territories' sustainable energy strategies. Funding 
of $13.1 million for the Palau Compact is not requested for 2013 as it 
is expected the Compact will be authorized in 2012.
    The Office of the Special Trustee request is $146 million, $6.1 
million less than the 2012 enacted level. The fiscal year 2013 request 
includes a program increase of $3 million for the Office of Trust 
Review and Audit to conduct compliance audit reviews for Interior 
bureaus. The budget includes program decreases of $9.9 million for 
streamlining, administrative savings, and the completion of certain 
trust reform activities.

                          MANDATORY PROPOSALS

    In fiscal year 2013, Interior will collect $13.9 billion in 
receipts and distribute $6 billion in permanent funding without further 
appropriation for a variety of purposes, under current law. The budget 
includes 13 legislative proposals that will be submitted to the 
Congress to collect a fair return to the American taxpayer for the sale 
of Federal resources, to reduce unnecessary spending, and to extend 
beneficial authorities of law. Together these proposals will save a net 
total of approximately $2.5 billion over the next decade.
    Reform Coal Abandoned Mine Land Reclamation.--The administration 
proposes to reform the coal Abandoned Mine Lands program to reduce 
unnecessary spending and ensure the Nation's highest-priority sites are 
reclaimed. First, the budget proposes to terminate the unrestricted 
payments to States and tribes that have been certified for completing 
their coal reclamation work because these payments do not contribute to 
abandoned coal mine lands reclamation. Second, the budget proposes to 
reform the distribution process for the remaining funding to 
competitively allocate available resources to the highest-priority coal 
abandoned mine lands sites. Through a competitive grant program, a new 
Abandoned Mine Lands Advisory Council will review and rank the 
abandoned coal mine lands sites, so OSM can distribute grants to 
reclaim the highest-priority coal sites each year. These reforms will 
focus available coal fees to better address the Nation's most dangerous 
abandoned coal mines while saving taxpayers $1.1 billion over the next 
10 years.
    Create a Hardrock Abandoned Mine Reclamation Fund.--To address the 
legacy of abandoned hardrock mines across the United States, the 
administration will propose legislation to create a parallel Abandoned 
Mine Lands program for abandoned hardrock sites. Hardrock reclamation 
would be financed by a new abandoned mine lands fee on the production 
of hardrock minerals on both public and private lands. BLM would 
distribute the funds through a competitive grant program to reclaim the 
highest-priority hardrock abandoned sites on Federal, State, tribal, 
and private lands. This proposal will hold hardrock mining companies 
accountable for cleaning up the hazards left by their predecessors 
while generating $500 million in savings over 10 years.
    Reform Hardrock Mining on Federal Lands.--The administration will 
submit a legislative proposal to provide a fair return to the taxpayer 
from hardrock production on Federal lands. The legislative proposal 
would institute a leasing program under the Mineral Leasing Act of 1920 
for certain hardrock minerals including gold, silver, lead, zinc, 
copper, uranium, and molybdenum, currently covered by the General 
Mining Law of 1872. After enactment, mining for these metals on Federal 
lands would be governed by the new leasing process and subject to 
annual rental payments and a royalty of not less than 5 percent of 
gross proceeds. One-half of the receipts would be distributed to the 
States in which the leases are located and the remaining half would be 
deposited in the Treasury. Existing mining claims would be exempt from 
the change to a leasing system but would be subject to increases in the 
annual maintenance fees under the General Mining Law of 1872. Holders 
of existing mining claims for these minerals could, however, 
voluntarily convert claims to leases. ONRR will collect, account for, 
and disburse the hardrock royalty receipts. The proposal is projected 
to generate revenues to the U.S. Treasury of $80 million over 10 years.
    Fee on Nonproducing Oil and Gas Leases.--The administration will 
submit a legislative proposal to encourage energy production on lands 
and waters leased for development. A $4 per-acre fee on nonproducing 
Federal leases on lands and waters would provide a financial incentive 
for oil and gas companies to either get their leases into production or 
relinquish them so the tracts can be leased to and developed by new 
parties. The proposed $4 per-acre fee would apply to all new leases and 
would be indexed annually. In October 2008, the Government 
Accountability Office issued a report critical of past efforts by 
Interior to ensure companies diligently develop their Federal leases. 
Although the report focused on administrative actions the Department 
could undertake, this proposal requires legislative action. This 
proposal is similar to other nonproducing fee proposals considered by 
the Congress in the last several years. The fee is projected to 
generate revenues to the U.S. Treasury of $13 million in fiscal year 
2013 and $783 million over 10 years.
    Net Receipts Sharing for Energy Minerals.--The administration 
proposes to make permanent the current arrangement for sharing the cost 
to administer energy and minerals receipts, beginning in 2014. Under 
current law, States receiving significant payments from mineral revenue 
development on Federal lands also share in the costs of administering 
the Federal mineral leases from which the revenue is generated. In 
fiscal year 2013, this net receipts sharing deduction from mineral 
revenue payments to States would be implemented as an offset to the 
Department of the Interior, Environment, and Related Agencies 
Appropriations Act, 2012, consistent with identical provisions included 
in the act since 2008. Permanent implementation of net receipts sharing 
is expected to result in savings of $44 million in 2014 and $449 
million over 10 years.
    Repeal Oil and Gas Fee Prohibition and Mandatory Permit Funds.--The 
administration proposes to repeal portions of section 365 of the Energy 
Policy Act, beginning in 2014. Section 365 diverted mineral leasing 
receipts from the U.S. Treasury to a BLM Permit Processing Improvement 
Fund and also prohibited BLM from establishing cost recovery fees for 
processing applications for oil and gas permits to drill. The Congress 
has implemented permit fees through appropriations language for the 
last several years and the fiscal year 2013 budget proposes to continue 
this practice. Upon elimination of the fee prohibition, BLM will 
promulgate regulations to establish fees for applications for permits 
to drill administratively, with fees starting in 2014. In combination 
with normal discretionary appropriations, these cost recovery fees will 
then replace the applications for permits to drill fees currently set 
annually through appropriations language and the mandatory permit fund, 
which would also be repealed starting in 2014. Savings from terminating 
this mandatory funding are estimated at $18 million in 2014 and $36 
million over 2 years.
    Geothermal Energy Receipts.--The administration proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. Prior to passage of 
this legislation, geothermal revenues were split between the Federal 
Government and States with 50 percent directed to States, and 50 
percent to the Treasury. The Energy Policy Act of 2005 changed this 
distribution beginning in 2006 to direct 50 percent to States, 25 
percent to counties, and for a period of 5 years, 25 percent to a new 
BLM Geothermal Steam Act Implementation Fund. The allocations to the 
new BLM geothermal fund were discontinued a year early through a 
provision in the Interior, Environment, and Related Agencies 
Appropriations Act, 2010. The repeal of section 224(b) will permanently 
discontinue payments to counties and restore the disposition of Federal 
geothermal leasing revenues to the historical formula of 50 percent to 
the States and 50 percent to the Treasury. This results in savings of 
$4 million in 2013 and $50 million over 10 years.
    Deep Gas and Deepwater Incentives.--The administration proposes to 
repeal section 344 of the Energy Policy Act of 2005. Section 344 
mandated royalty incentives for certain ``deep gas'' production on the 
OCS. This change will help ensure Americans receive fair value for 
federally owned mineral resources. Based on current oil and gas price 
projections, the budget does not assume savings from this change; 
however, the proposal could generate savings to the Treasury if future 
natural gas prices drop below current projections.
    Repeal of Authorities To Accept Royalty Payments in Kind.--The 
administration proposes to solidify a recent Departmental reform 
terminating the Royalty-in-Kind program by repealing all Interior 
authorities to accept future royalties through this program. This 
change will help increase confidence that royalty payments will be 
properly accounted for in the future. The budget does not assume 
savings from this change because the administration does not anticipate 
restarting the program; however, if enacted, this proposal would 
provide additional certainty that a new Royalty-in-Kind program could 
not be initiated at some point in the future.
    Federal Land Transaction Facilitation Act.--The administration 
proposes to reauthorize this act that expired July 25, 2011, and allow 
lands identified as suitable for disposal in recent land use plans to 
be sold using the act's authority. The sales revenues would continue to 
be used to fund the acquisition of environmentally sensitive lands and 
to cover the administrative costs associated with conducting sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991, 
while the cost of land and water has increased significantly. The 
administration proposes to increase these fees to $25 per stamp per 
year, beginning in 2013. Increasing the cost of Duck Stamps will bring 
the estimate for the migratory bird conservation account to 
approximately $58 million. With these increased receipts, the 
Department anticipates additional acquisition of approximately 7,000 
acres in fee and approximately 10,000 acres in conservation easement in 
2013. Total acres acquired for 2013 would then be approximately 28,000 
acres in fee title and 47,000 acres in perpetual conservation 
easements.
    Compact of Free Association.--On September 3, 2010, the United 
States and the Republic of Palau successfully concluded the review of 
the Compact of Free Association and signed a 15-year agreement that 
includes a package of assistance through 2024. Under the agreement, 
Palau committed to undertake economic, legislative, financial, and 
management reforms. The conclusion of the agreement reaffirms the close 
partnership between the United States and the Republic of Palau. 
Permanent and indefinite funding for the Compact expired at the end of 
2009. The fiscal year 2013 budget seeks to authorize permanent funding 
for the Compact as it strengthens the foundations for economic 
development by developing public infrastructure and improving 
healthcare and education. Compact funding will also support one or more 
infrastructure projects designed to support Palau's economic 
development efforts. The Republic of Palau has a strong track record of 
supporting the United States and its location is strategically linked 
to Guam and United States operations in Kwajalein Atoll. The cost for 
this proposal for 2013-2022 is $184 million.
    Extension of Payments in Lieu of Taxes.--Payments in Lieu of Taxes 
(PILT) payments are currently authorized only through fiscal year 2012. 
The budget proposes a 1-year extension of mandatory PILT payments at 
the current authorization levels in fiscal year 2013. These payments 
support local government services in counties that have significant 
Federal lands within their boundaries. The administration looks forward 
to working with the Congress to develop a longer-term strategy for 
providing sustainable levels of funding for PILT payments, in light of 
overall constrained budgets and the need for appropriate offsets for 
new mandatory spending. This extension utilizes the current PILT 
payment formula that is prescribed by law and based on population, 
certain receipt sharing payments, and the amount of Federal land within 
an affected county. The cost for this proposal in fiscal year 2013 is 
estimated at $398 million.

                    OFFSETTING COLLECTIONS AND FEES

    The budget includes several proposals to increase cost recovery 
fees, so that industries share some of the cost of regulation.
    Fee Increase for Offshore Oil and Gas Inspections.--Through 
appropriations language, the administration proposes to continue the 
current offshore inspection fee levels authorized by the Congress in 
fiscal year 2012. These fees are estimated to generate $65 million in 
fiscal year 2013, up from $62 million in fiscal year 2012, from 
operators with offshore oil and gas drilling facilities that are 
subject to inspection by BSEE. The increased fees will fund an expanded 
inspection program, and as enacted for fiscal year 2012, operators will 
now be charged for the inspection of drilling rigs in addition to 
production platforms. These inspections are intended to increase 
production accountability, human safety, and environmental protection.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the administration proposes to implement an 
inspection fee in fiscal year 2013 for onshore oil and gas drilling 
activities that are subject to inspection by BLM. The proposed 
inspection fee is expected to generate an estimated $48 million in 
fiscal year 2013, $10 million more than the corresponding $38 million 
reduction in requested BLM appropriations, thereby expanding the 
capacity of BLM's oil and gas inspection program. The fee would support 
Federal efforts to increase production accountability, human safety, 
and environmental protection.
    Onshore Oil and Gas Drilling Permit Fee.--The fiscal year 2013 
budget proposes to continue a fee for processing drilling permits 
through appropriations language, an approach taken by the Congress in 
the Interior, Environment, and Related Agencies Appropriations Acts. A 
fee of $6,500 per drilling permit was authorized in fiscal year 2010, 
and if continued, would generate an estimated $32.5 million in 
offsetting collections in fiscal year 2013.
    Grazing Administrative Fee.--The fiscal year 2013 budget includes a 
new grazing administrative fee of $1 per AUM. BLM proposes to implement 
the fee through appropriations language on a 3-year pilot basis. The 
budget estimates the fee will generate $6.5 million in funds that will 
assist the BLM in processing grazing permits. During the period of the 
pilot, BLM would work through the process of promulgating regulations 
for the continuation of the grazing fee as a cost-recovery fee after 
the pilot expires.
    Surface Mining and Reclamation Permit Fee.--The fiscal year 2013 
budget continues an offsetting collection initiated in fiscal year 
2012, allowing OSM to retain coal mine permit application and renewal 
fees for the work performed as a service to the coal industry. The fee 
will help ensure the efficient processing, review, and enforcement of 
the permits issued, while recovering some of the regulatory operations 
costs from the industry that benefits from this service. The fee, 
authorized by section 507 of Surface Mining Control and Reclamation 
Act, would apply to mining permits on lands where regulatory 
jurisdiction has not been delegated to the States. The permit fee will 
generate an estimated $3.4 million in offsetting collections in fiscal 
year 2013.

                               CONCLUSION

    Thank you for the opportunity to testify on the President's fiscal 
year 2013 budget request for the Department of the Interior. We have a 
tremendous opportunity to invest in America's energy independence and 
economic growth. This budget balances forward looking investments with 
fiscal restraint. For America to be at its best, we need lands that are 
healthy, waters that are clean, and an expanded range of energy options 
to power our economy. I thank you again for your continued support of 
the Department's mission. I look forward to working with you to 
implement this budget. This concludes my written statement. I am happy 
to answer any questions that you may have.

    Senator Reed. Thank you very much, Mr. Secretary.
    We will take 6-minute rounds, and I fully anticipate at 
least two rounds. But I am prepared to stay as long as my 
colleagues are here asking questions.

                             OFFSHORE WIND

    Let me begin with a topic that both Senator Collins and I 
touched upon. That is development of offshore wind power. Mr. 
Secretary, you started with your Smart from the Start 
Initiative, a very aggressive approach to thoughtfully and 
carefully beginning the process of leasing these sites so that 
we can develop power offshore and create jobs onshore.
    My concern is that in Rhode Island we are really falling 
behind in the timing of the environmental assessment while the 
Mid-Atlantic region seems to be going forward rapidly. And that 
is troubling to me in one particular aspect. It seems as if we 
have done so much preliminary work over the last 5-7 years in 
terms of the ocean SAMP, where we have, I believe, a much 
better scientific basis with respect to tidal conditions, 
fishing practices, and the whole geographic and geological 
areas, we seem to be not at the front of the line. We seem to 
be in the back of the line.
    So I would ask you, could you commit to help us expedite 
this timeframe, get the environmental assessment done in the 
same sort of period that Mid-Atlantic States are, and then move 
forward to leasing? Can you help us with that?
    Secretary Salazar. Absolutely, Senator Reed. Because I know 
many of you, you and Senator Collins in particular, are very 
interested in Atlantic wind, if I may take just a few minutes 
to speak about the effort in general?
    Senator Reed. Of course.
    Secretary Salazar. I have, from day one as Secretary of the 
Interior, thought that Atlantic wind was one of the most 
promising renewable energy programs for the United States of 
America for the ease of transmission because of the high 
quality of the wind, because of the topography off the 
Atlantic.
    Our Smart from the Start Initiative is intended to stand up 
offshore wind in the Atlantic. The President has been very 
supportive and has been leading the effort in making sure we do 
everything we can. We have set up task forces in each of the 
States, and they are moving with us to make sure we are 
deconflicting the uses of the ocean that we can stand up 
offshore wind in a real way.
    With respect to Rhode Island, just last week I think the 
Deputy Secretary and BOEM's Director and others announced what 
we have done in terms of marking those areas, more than 200,000 
acres, which are ready offshore to be developed. We are moving 
forward with the environmental assessment, and we hope to be 
able to publish that this summer in the State of Rhode Island, 
and we will do everything we can to get it done.
    The State of Maine, the disappointing news from Statoil was 
that they were perhaps planning on not moving forward with 
their deepwater application. I have asked my staff to have a 
meeting with me and Statoil to see whether we can keep up their 
interest in the deepwater because I think what Maine has done 
at its center with Senator Collins's leadership has been 
extraordinary, and I think the future for that project is very 
bright. I would be delighted to work with Senator Collins on 
that effort.
    Senator Reed. Thank you very much, Mr. Secretary.
    An ancillary question. As you know, we have two major 
projects, one in Federal waters and one in State waters off of 
Block Island. The Department of the Interior and COE and others 
have to give us approval for a transmission line from the State 
project, Block Island essentially to the mainland. Would you 
also commit to helping us expedite from Interior and BOEM's 
position those approvals?
    Secretary Salazar. The answer is absolutely yes. I would 
like David Hayes to speak a little bit to the Rhode Island 
issue because he has been working very closely with BOEM to 
make sure we are moving as fast as we can and we are cutting 
down the permitting time on what we are doing, both in Rhode 
Island as well as in other States.
    Senator Reed. Thank you. And I want to thank Deputy 
Secretary Hayes for his great work in this effort. Thank you.
    Mr. Hayes. Thank you, Senator.
    I think the Secretary really said it all. We are very eager 
to move forward with Rhode Island and also with the deepwater 
work in Maine. With regard to Rhode Island, I will just comment 
that the SAMP work the State has done and you have encouraged, 
will absolutely pay dividends in terms of the schedule for 
getting steel in the water off Rhode Island.
    We expect the environmental assessment process to move 
forward much more quickly because of the groundwork that has 
been done, the good science done by the State. Certainly, once 
we get an application in, every applicant is going to be able 
to do an environmental impact statement more quickly and more 
solidly because of that terrific work the State has done with 
your leadership and support.
    Senator Reed. Thank you very much.

                        BLACKSTONE RIVER VALLEY

    Very quickly, Mr. Secretary, turning to the Blackstone 
Valley Park, as you know, last year the National Park System 
put out a tentative approval, and we are waiting for the final 
version. And can we get some indication of when the final study 
from NPS will be released? Because without that, it is 
difficult for us to seek the kind of authorization that is 
necessary.
    Secretary Salazar. Senator Reed, I will do everything to 
get the study sprung. It is essentially completed, and there is 
a process underway. There is no doubt the center that founded 
the Industrial Revolution of America and all the history you 
have in the Blackstone area, the support of your Governor, both 
Senators, the support of Massachusetts as well, all that is in 
our calculus. I think it would be a great addition to our 
National Park System.
    Senator Reed. Thank you very much, Mr. Secretary.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                         CONTRACT SUPPORT COSTS

    Mr. Secretary, I mentioned in my comments my appreciation 
for the funding in the budget for contract support costs within 
BIA's budget. You are--it is estimated at full funding to cover 
the costs, and again, I thank you for that.
    But the same account for IHS, which provides for the 
administrative cost to healthcare, is severely underfunded. So 
we are looking at this and saying, okay, we are making good 
headway on Department of the Interior's side through BIA, but 
through IHS we are not seeing things sync up.
    Can you tell me whether or not there is any coordination 
between BIA--your Department and on IHS to deal with this as we 
seek to conduct the tribal consultation? And if there is not, 
if there is some way that we could look at this to see if we 
might be able to line some things up better?
    Secretary Salazar. We would be happy to do so, and you and 
the President have attended some of these conferences. Every 
year we brought Nations from the country together. On law 
enforcement, Attorney General Eric Holder and I have an ongoing 
conversation about what we are doing on law enforcement issues 
in Indian country, on health issues as well with Secretary 
Kathleen Sebelius.
    Now the specifics in terms of our budget on the BIA and 
health services at HHS maybe Pam will be able to answer those 
questions, or I will get some additional information to you. 
But at the end of the day, our approach, Senator Murkowski, has 
been to bring the whole of Government to deal with some of the 
most significant issues facing Indian country.
    Certainly, the healthcare issue that is faced almost in 
every Indian reservation is one of the biggest challenges we 
face. It is important we have the whole Government behind it.
    Senator Murkowski. Well, and as we talk about tribal 
consultation, it makes sense to have that consultation with all 
of the affected agencies. So if we could just try to better 
understand how this coordinates because on paper it doesn't 
look like it is working as efficiently as we should.

                              477 PROGRAM

    On another issue as it relates to tribal funding, last year 
in the Interior bill, we had placed language that would require 
the existing program within the 477 program. You will recall 
that this is the program for Indian employment for training and 
related services. There was a new requirement for auditing that 
really lacked a level of flexibility, lacked any effort with 
consultation with the tribes.
    So, in last year's appropriations bill, we included 
language that stated that consultation with the tribes must 
occur before any changes to the 477 program moved forward. Do 
you have any updates in terms of how that consultation is 
coming along, whether or not we can expect some kind of 
agreement with the tribes through this process that will help 
with the program accountability?
    Secretary Salazar. According to my Budget Director and my 
Deputy Secretary, we have workgroups meeting every week on this 
issue, and we hope to get to some good resolution.
    Senator Murkowski. Okay. So we will await an update from 
you or from your staff. I thank you for that.

                          HYDRAULIC FRACTURING

    Let us move over to the energy side here. In the Interior 
budget, you are seeking a $13 million increase to USGS to 
support hydraulic fracturing research. But in looking through 
the rest of the President's budget, we see that within the 
Department of Energy's Office of Fossil Fuel, they are also 
proposing an increase in that very limited fossil fuel budget 
to study hydraulic fracking on the impacts of water quality. 
And apparently, also within the EPA budget, there are 
additional monies devoted to fracking research.
    And I guess the question is, as we are looking to eliminate 
redundancies within the budget, can you explain the need for at 
least three different agencies now to be devoting extra money 
in a very tight budget year to seemingly be doing the same 
research?
    If it is not the same research, I would be curious to know 
where we are going with it. But can you fill me in on that?
    Secretary Salazar. We have a very good working relationship 
in the cross-cutting budget that OMB approved for DOE, as well 
as EPA and Interior, relating to hydraulic fracking. All the 
efforts on research from all of the agencies--the USGS, DOE, 
and EPA--will be coordinated so we have a comprehensive look at 
the issues of hydraulic fracking.
    Senator Murkowski, I have often said in places around the 
country and in my meetings with the oil and gas industry and 
other stakeholders, that the President has been very strong on 
supporting the future of natural gas. It is an abundant 
domestic resource. We have a 100-year supply.
    As you will recall, even in 2009, we were very strong in 
supporting the trans-Alaska natural gas pipeline. We are still 
working on it, and hopefully, some of that will happen.
    But as we look at the bright future of natural gas, it is 
my view as Secretary, where through the BLM we oversee about 
700 million acres of the mineral estate of the country, that 
unless we are able to bring about the confidence of the 
American people in hydraulic fracking, it could be the Achilles 
heel for the promising energy resource we see. The rules we are 
in the process of putting together in their final stages will 
require three things.
    First, it will require disclosure so everybody knows what 
is being injected into the Earth. So we don't have the kind of 
reaction that essentially has a potential for stopping natural 
gas development as we have seen happening in some of the 
States.
    Second, well bore integrity. Each member of this 
subcommittee I have had conversations with at different times 
about the Deepwater Horizon and the Macondo oil spill. Well, 
the well integrity issues were part of what was going on there. 
We need to ensure well integrity with respect to hydraulic 
fracking so we don't have contamination of water supplies. It 
seems to me is common sense.
    Third, every time you frack a well, you inject the fluids 
into the well, and you have flowback water and materials come 
back from the well. Our proposed rule will actually address the 
monitoring of what happens with flowback water so it is not 
contaminating our streams.
    When I have spoken to members of the industry, including 
the leading oil and gas companies, when I speak to them one-on-
one, they are supportive of those kinds of common sense rules. 
If you look at what has happened in the State of Wyoming and in 
the State of Colorado now, in the State of Texas, there are 
rules on the books in those States that will allow that to move 
forward.
    So hydraulic fracking I know will be an issue here in this 
Senate in the days ahead. Our intention is to move forward with 
the kind of a program at the Department of the Interior, 
knowing that, at the end of the day, the North Star guiding us 
and I know guiding you, Senator Murkowski, is that we need to 
make sure we are fully using the great promise we see in 
natural gas here in the United States.
    Senator Murkowski. Well, I thank you for that, and I would 
just, again, urge that we ensure that we don't have duplication 
of efforts across the agencies at a time when we have got tough 
budgets. I would concur with you. We need to get this right. We 
need to make sure that it is right, and your agencies are 
charged with that.
    But just from a budget perspective, let us look carefully 
at whether we have got overlap. But I am sure you are looking 
at that.
    Thank you.
    Secretary Salazar. Absolutely.
    Senator Reed. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    And thank you to my good friend Secretary Salazar for being 
here today. And welcome Deputy Secretary Hayes and Ms. Haze.

                    LAND AND WATER CONSERVATION FUND

    Though I have some concerns about parts of the budget 
request, I do appreciate the administration's recognition of 
the value of conservation, tourism, hunting, and fishing to our 
Nation's economy. I especially appreciate the boost in funding 
for the LWCF and also note that the LWCF from the Department of 
the Interior is responsible for Wind Cave National Park being 
able to complete acquisition of the 5,500-acre Casey Ranch that 
will provide access to a historic buffalo jump and preserve a 
valuable natural resource.

                  AMERICA'S GREAT OUTDOORS INITIATIVE

    I also note that you, Secretary Salazar, have also 
identified the Blood Run site in South Dakota and the Dakota 
Grasslands Conservation Area as priority projects in the 
America's Great Outdoors Initiative.
    As you well know, we have been long making the piece for 
better investment in infrastructure projects like rural water 
systems. While the budget request for rural water is much 
better this year than last, we are still losing ground to 
inflation in projects like Lewis and Clark.

                              RURAL WATER

    In the 2006 Rural Water Supply Act, the Congress directed 
Interior and the Bureau of Reclamation to develop a report 
assessing the status of authorized rural water supply projects 
like Lewis and Clark and the plan for completion. When can we 
expect to see this report, and what can you tell us about the 
long-term plans to complete these vital projects?
    Secretary Salazar. Senator Johnson, first, thank you for 
your Herculean efforts on behalf of the people of South Dakota, 
and thank you for your support of the LWCF. I think the 
projects you speak about are very huge economic generators for 
the State of South Dakota from the Wind Caves National Park to 
Blood Run to the Dakota Grasslands.
    As I travel around the country and I speak to both the 
business community and the conservation community, I often use 
those projects as great examples of how job creation and 
conservation go hand-in-hand. And certainly, the Dakota 
Grasslands are the duck factory of the United States of 
America. Fifty percent of the migratory birds go through that 
area, and it would be, frankly, 50 years from now a major 
setback for conservation in our world if we are not able to 
join you and your leadership in your efforts in protecting the 
Dakota Grasslands.
    On rural water, it is a hugely important issue for us. I 
wish we could do more on the Lewis and Clark project. We have 
put in, I think, $4.5 million, more or less, into next year.
    Obviously, we could put a lot more in if we had the money. 
But again, Senator Johnson, this is one of those tough choices 
and painful budgets, and I believe in the rural water supply 
arena alone we could use probably 100 times the amount of money 
made available. We are having to make some really, really tough 
choices where we put the money.
    South Dakota, Lewis and Clark, a multi-State project is a 
great example where we should have the money because the 
States' local water users have already put up their share of 
the money for the project. But we don't have the money on the 
Federal side to be able to complete it. We are trying to do as 
much as we can to move the project forward.

                   INDIAN SCHOOL EQUALIZATION PROGRAM

    Senator Johnson. I would also like to touch on the Indian 
School Equalization Program (ISEP). According to the last 
census, Indians younger than the age of 18 had a spike in 
population in my home State of South Dakota. How do you explain 
that from fiscal year 2012 to fiscal year 2013 more than 60 
percent of the BIE's schools in South Dakota received a 
decrease in their ISEP funds? Does the ISEP formula need 
review?
    Secretary Salazar. First, let me say the President, 
Secretary Duncan--and Keith Moore--the Director of the Bureau 
of Indian Education, have been working very hard with the 
tribes to make sure we are moving forward with reforms that, 
hopefully, will address the very painful and difficult 
circumstance we face in Indian schools around the country. We 
hope to be able to have some reform efforts that will help us 
get there.
    In terms of the money itself, my understanding is that the 
formula that funds the equalization is driven by enrollment, 
and I think in those schools that you mention, there has been a 
significant decline in enrollment. But I would be happy to look 
into this issue further and to supplement my answer to you and 
your staff.
    Senator Johnson. Please do.
    Senator Johnson. I yield back.
    Senator Reed. Thank you very much, Senator Johnson.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                             OFFSHORE WIND

    First, Mr. Secretary, I know that you were very impressed 
when you came to the University of Maine and saw the cutting-
edge lab that has been developed to test composite wind 
turbines that can withstand the heavier, more persistent 
offshore winds and all the work that is being done with the 
consortium that is supported by private companies, the State, 
the university system, other States as well, and the Federal 
Government.
    And I think that is the kind of partnership that we need to 
ensure that the United States wins the race to develop offshore 
deepwater wind energy. And I would point out that race also 
includes thousands of manufacturing jobs to make the new 
composite wind turbines that are going to be necessary. So it 
is very important not only from an energy perspective, but an 
American manufacturing jobs perspective as well.
    I look at what other countries are doing to foster the 
development of offshore wind, and I can't help but ask whether 
we should be doing more. For example, the United Kingdom, 
Germany, and Portugal have all established test sites for ocean 
energy. They have funded the environmental permitting studies 
and provided electrical infrastructure, including underseas 
cabling and grid interconnection for these test sites.
    Then private industry in those countries, working with the 
research institutions, have then access to these sites that are 
all ready for them to build and test advanced offshore wind 
turbines and other ocean-energy-harvesting devices. And that is 
for still further commercial development.
    So my question is, what potential role do you see for the 
Interior Department to develop plans similar to those that are 
being pursued in other countries, in our competitor countries, 
to work with States to actually establish the national offshore 
wind test sites? Do you, for example, envision a role for the 
Department in helping to provide the critical funding necessary 
to construct the grid interconnection for these national test 
sites?
    Secretary Salazar. Senator Collins, we are doing everything 
we can on Atlantic offshore wind and are actually now 
processing an application on transmission for the Mid-Atlantic 
States called the Atlantic Connection. We will do everything we 
can because it is highest priority for the President of the 
United States and for me to move forward.
    We control, obviously, the land base and have a partnership 
arrangement, memorandum of understanding, with DOE as well in 
terms of some of the research efforts that are going on. If 
there is anything we can do that we are not doing within the 
resources we currently have, I would be delighted to have those 
conversations with you and members of the subcommittee because 
we are doing everything we can.
    I would note your eloquence in your statement. It seems to 
me that if the United Kingdom, Portugal, and Denmark could move 
forward with these kinds of efforts, there is no reason why we 
in the United States should not. This is part of the race we 
cannot cede to the rest of the world.
    I think, especially when you look at the Atlantic, when you 
look at Maine, and you look at the attributes you have there, 
it is an opportunity we ought not to let pass from us.
    Senator Collins. Thank you. I couldn't agree with you more.

                   NORTH WOODS NATIONAL PARK PROPOSAL

    I also want to take this opportunity to give you an update 
on a very controversial issue in Maine with which you are very 
familiar, and that is a proposal to establish a North Woods 
National Park.
    Since your visit to Maine in August, the proponents have 
been trying hard to gain support for the completion of a 
feasibility or reconnaissance study. But I will tell you that 
the harder they have pushed, the stronger the resistance has 
become. Statewide, the Maine legislature passed a joint 
resolution opposing the creation of a national park in Maine's 
North Woods. Locally, the Millinocket town council approve a 
resolution in opposition.
    East Millinocket actually had a vote, and the voters 
overwhelmingly opposed a feasibility study for this proposed 
national park. And the proposal is now opposed by the Maine 
Forest Products Council, the Maine Snowmobile Association, the 
Sportsmen's Alliance of Maine, Great Northern Paper Company, 
the United Steelworkers Local 137, and many of the smaller 
communities, as well as the two principal, three principal 
communities in the area.
    So I would also point out that the National Park Regional 
Citizen Evaluation Committee, which had supported the park, has 
recently become inactive, reflecting the dwindling support for 
this plan.
    What we have found in Maine works best is working with 
private owners to ensure public access, and we have been very 
fortunate over the centuries in Maine--Maine is the most 
heavily forested State in the Nation--to have that kind of 
public-private partnership without having Federal control and 
Federal ownership.
    So I wanted to give you that update since your visit that 
the support that may have existed, which was always a minority 
level of support, has declined significantly. And I am hoping 
that you will assure me that NPS, which has so many demands on 
its funds, will not be looking into funding a reconnaissance 
study for this region.
    Secretary Salazar. Senator Collins, first, let me say we 
have no plans to move forward on a reconnaissance study on the 
proposal from Ms. Quimby on the national park. There is no 
effort underway to do any of that.
    When we look at the two projects that are part of the 
America's Great Outdoors Initiative, which I have identified as 
2 per State and 1 for the District of Columbia--101 projects--
the 2 in Maine reflect the approach you have been advocating to 
me for a number of years, and that is grounds-up.
    If you look at the Penobscot River, as you so eloquently 
stated, it is one of the most significant river restoration 
projects in the world, and we are getting close to getting that 
done. You look at the State project which is moving forward in 
part through your support and our advocacy on Keeping Maine's 
Forests, that is also a grounds-up kind of approach there.
    I hope to visit those America's Great Outdoors Initiative 
projects with you soon. But on your point with respect to the 
Roxanne Quimby proposal, we are not moving forward with a 
reconnaissance study of any kind.
    Senator Collins. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Reed. Senator Collins, thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    And I will be as quick as I can getting to it. Welcome, 
Secretary Salazar.

                          SCHOOL CONSTRUCTION

    The funding for the BIE's construction program was at $140 
million in fiscal year 2011, down to $71 million in fiscal year 
2012, and now $52 million in fiscal year 2013. The schools, at 
least in Montana, are in dire need of repair. Dilapidated might 
be a word that comes to mind.
    I know you have put forth a budget that is--has a lot of 
cuts in it, and as you said in your opening remarks, painful 
cuts in many, many cases. I want to bring that to your 
attention, and I want to get your response very quickly on it 
if I could.
    Secretary Salazar. I wish we had the money to work on all 
these schools. We put significant amount of money from the 
American Recovery and Reinvestment Act into the construction 
projects. We have made significant progress from where we were 
in 2009, and more than 60 percent of the BIE schools are now 
rated in good condition. Well, that is not enough because that 
means 40 percent are in poor condition.
    Senator Tester. That is right. Yes.
    Secretary Salazar. It is just a matter, Senator Tester, of, 
frankly, not having the money to be able to move forward.
    Senator Tester. Okay. We will look for opportunities as it 
goes forward together on this.

          AUTOMATED STANDARD APPLICATION FOR PAYMENTS PROGRAM

    The Automated Standard Application for Payments program, 
which I think you are familiar with. I hope I am calling it the 
right thing, A-S-A-P. It is an online reimbursement program 
designed for Government payments to go to corporations, 
nonprofits, universities--a paperless reimbursement.
    The program was not designed for private land owners. It is 
kind of a one-size-fits-all policy, which treats family farms 
and ranches the same as large corporations when it comes to 
reimbursement. You, being an agricultural guy yourself, 
understand that, well, I mean, in most cases, we do have access 
to the Internet. But a lot of times, we are a little bit 
suspicious when it comes to transferring money online, and so, 
it is a deterrent.
    Is there any ability to put some flexibility in that? 
Because from my perspective, the land owners' buy-in is the 
most important part of this equation.
    Secretary Salazar. Senator Tester, I absolutely agree with 
you, and I have asked Director Ashe from the Fish and Wildlife 
Service (FWS) to work with Pam Haze to see whether we can come 
up with some kind of a resolution. There are now 29 States with 
ranching organizations for conservation, much like you have in 
the Crown of the Continent, and I believe we need to do 
everything to encourage that kind of ``working lands 
conservation'' approach to conservation.
    Senator Tester. Okay. Good.

                          HYDRAULIC FRACTURING

    I want to just touch on the fracking thing just to 
reinforce what you already know. And we have got a big play 
with the Bakken in eastern Montana. It is creating jobs. It is 
creating energy security. It is doing a lot of good things.
    But hydraulic fracking is something I hear about when I 
come home all the time, and folks want to know if we have 
adequate inspectors to determine whether that case, the 
cementing that is going on in the casing is actually going to 
keep what is going on 2 or 3 miles down out of our groundwater.
    Can you say with any kind of certainty that we have 
adequate inspections to make sure that that cement is done in a 
proper way to assure that we are not going to be polluting our 
drinking water?
    Secretary Salazar. Our rule will so require, and I am going 
to have David, the Deputy Secretary, speak to the inspector 
issue.
    Mr. Hayes. Senator, certainly on our public lands, we are 
prioritizing inspections to deal with potential high-risk 
issues, and that includes ensuring well construction is done 
with the appropriate integrity. The proposed rule the Secretary 
is referring to will require an additional certification by the 
operators to ensure they are using the proper cementing and, as 
you say, walling off the well from lower aquifers.
    Senator Tester. And we have got adequate people on the 
ground to make sure that happens, or is it a self-inspection 
reporting?
    Mr. Hayes. It is both. We are giving a lot of attention to 
the inspector issue. We could use more inspectors, but BLM does 
do an enormous number of inspections a year. We want to 
supplement it with the certification by the operator.

                       HUNTING AND FISHING ACCESS

    Senator Tester. Okay. When I return to Montana, I also hear 
from sportsmen and women about access. It is the number-one 
issue amongst our sportsmen out there--access to go fishing, 
access to go hunting. Because of that input, I adopt--drafted a 
bill that sets aside 1.5 percent of land and water conservation 
funding to secure access for existing public lands.
    Not to put you on the spot, but I will. Would you support 
this effort?
    Secretary Salazar. We have money. It is $2.5 million with 
BLM to try to provide public access. I think the concept makes 
tremendous sense and would be happy to work with you on it.
    Senator Tester. Okay. I appreciate that very much.

                          OFFSHORE DEVELOPMENT

    With that, I would just like to say when I talked to you, I 
guess it has been a bit ago, about the offshore spill and what 
all transpired on there, I know you were under a lot of 
pressure. Probably lost a few follicles of hair that you 
couldn't afford to lose.
    But the bottom line is, is that as we talk about opening up 
offshore production again, which we all want to be energy 
independent and we all want to make sure that this--that we 
develop the resources appropriately here at home, are you 
confident that what happened with the spill in the gulf won't 
happen again?
    Secretary Salazar. Senator Tester, first, let me say from 
those days, I think I did lose follicles of hair for that 
reason and probably many other reasons as well. I am proud of 
the fact we have weathered that storm. Now, there are 60 
permits issued in the Gulf of Mexico just in the last 12 
months; the rigs are up and working, and we have led the 
greatest overhaul in the Nation's history in terms of offshore 
oil and gas production in America's oceans.
    We are doing more to make sure prevention is prioritized so 
we don't see a Macondo well oil spill again. It means we have 
worked with industry and several corporations that have been 
set up, the Helix Corporation and Marine Well Containment 
Company, to make sure if something like that were to happen, 
there would be a quick response. Third, we have overhauled the 
efforts in terms of dealing with oil spill response as well.
    Now to your question, because I think that is an important 
question to all the members of this subcommittee, including 
Senator Landrieu, who sees so much of the energy production of 
the United States coming from the Gulf of Mexico. Can we be 
100-percent safe that something is not going to happen? No.
    We can do as much as we can to minimize the risk, and we 
certainly have done that, I believe, in the Gulf of Mexico.
    It is important, if I may, Senator Reed, and I know I 
probably am taking a little more time than I should here. It is 
important when you look at the map of the Gulf of Mexico to 
also recognize that between the United States and Mexico, we 
probably have about 98 percent of the land mass. We can control 
what happens in United States waters, but we can't, frankly, 
control what happens on the Mexican side of the border.
    So, when you think about the huge potential for oil and gas 
resources, and Mexico is moving very aggressively into the 
deepwater, it is important we have the kind of relationship 
with them where they also learn the lessons and have the kind 
of system we have here in the United States.
    Secretary Clinton and I signed an agreement with our 
counterparts in Mexico last Monday that will usher in this era 
of cooperation and resolve longstanding issues in the Gulf of 
Mexico. We are making significant progress, and I know probably 
Senator Murkowski, who is on top of these things in the Arctic, 
is also very cautious in terms of how we are moving forward 
with the most cautious program that has ever been put together 
in terms of any exploration.
    Senator Tester. Well, I want to thank you once again, Mr. 
Secretary.
    Thank you, Mr. Chairman.
    Senator Reed. Thanks, Senator Tester.
    Senator Alexander, please.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Secretary, welcome.

                  JOINT CURATORIAL COLLECTION FACILITY

    I mentioned earlier and we have talked before that these 
great national parks, Yellowstone National Park gets $35 
million, Yosemite National Park $29 million, the Great Smoky 
Mountain National Park $19 million, counting all funding, 
including fees. Yet the Great Smoky Mountain National Park has 
three times as many visitors. I say that in a way of suggesting 
that a point in favor of the joint curatorial collection 
facility, which would benefit the Great Smoky Mountain National 
Park and four other national parks by holding hundreds of 
thousands of artifacts and archival records, that could be a 
point in its favor.
    I don't expect an answer from you on that right now, but I 
simply want to raise the importance of it. I appreciate your 
considering, the Department's considering it, and it is a sound 
project.

                            FISH HATCHERIES

    I have two areas of question. One has to do with fish 
hatcheries. And I mentioned a little earlier that at one point 
I noticed that the number of Tennesseans who have hunting and 
fishing licenses exceeded the number who voted in the last 
election. So this is serious business for us.
    The Erwin National Fish Hatchery provides eggs for 
hatcheries all over the country, and Dale Hollow produces 60 
percent of the trout stocked in Tennessee. In your tight 
budget, you are having to cut from $3.2 million from mitigation 
hatcheries, which would, if left alone, would close those 
hatcheries with very serious consequences for Americans.
    My question is, well, we are working with TVA and with COE 
to help share in the funding of those hatcheries so that you 
will be able to keep them open. So my question is, can you 
assure me the hatcheries won't close until we have an 
opportunity to try to secure joint funding for them?
    Secretary Salazar. Absolutely, Senator Alexander. I look 
forward to working with you and TVA and COE to see how we can 
keep these hatcheries open. They are, as you say, very 
important to the anglers of Tennessee and beyond Tennessee. I 
am happy to work with you on that.

                  JOINT CURATORIAL COLLECTION FACILITY

    Just a quick note on the curatorial effort, I have asked 
NPS to see what we can do, and I do know, as we have 
communicated, the plan is done. I think nearly $1 million of 
the $4 million is already in the bank, and we will turn over 
every stone to see how we can figure out a way of making the 
difference.
    Senator Alexander. I thank you for that. And you are 
exactly right. The five parks have worked together to try to 
squeeze every $1 they can to minimize the money that is 
responded, and $2 million is what is left.

                                 ENERGY

    Now I would like to ask you a question about equal 
treatment for different forms of technology, which the 
administration is moving toward. The President is talking about 
all of the above, and I think increasingly those of us who deal 
with energy and environment are saying we ought to treat all 
our different forms of energy as equally as possible.
    For example, you propose to raise fees on oil and gas 
production in this budget. Do you intend to raise fees on wind 
and solar energy production at the same time and by the same 
amount?
    Or let us take a second area. Let us take birds. In reading 
about Teddy Roosevelt, I was reminded that his whole 
conservation career began with birds and the protection of 
birds. And we have in our law a law that says if you kill 
eagles, you can go to jail. And then we have the Migratory Bird 
Treaty Act, if you kill migratory birds, you can go to jail.
    And in 2009, Exxon Mobil killed 85 birds that had come into 
contact with crude oil in uncovered tanks or wastewater 
facilities, and they paid $600,000 in fines and fees. Well, I 
noticed the other day the Minnesota Public Utilities Commission 
denied plans for a 48-turbine wind farm because of concerns 
about birds, bats, and bald eagles. And we all know that these 
big wind turbines have become sort of Cuisinarts in the sky for 
birds, especially golden eagles in California.
    And I understand that that wind farm has even applied to 
the Department of the Interior, to the FWS for a ``taking 
permit''. So they can take a certain number of birds when the 
turbines start to roll.
    So am I to understand that if you are going to treat forms 
of energy production equally that Exxon Mobil ought to be 
applying for taking permits for the next golden eagles it 
kills? Or if not, why would you not apply to wind turbines and 
other forms of energy the same rules you apply to oil and gas 
production?
    So my question on this is equal treatment for forms of 
energy production. If you are going to raise fees on production 
of oil and gas, will you do the same for wind and solar? And 
will you apply to wind turbines the same laws that exist for 
killing birds that you apply to oil and gas production?
    Secretary Salazar. Senator Alexander, first, on the revenue 
side for renewable energy projects, we have moved forward with 
rules and in our right-of-ways, which is what we grant to 
renewable energy projects onshore as well as in the offshore, 
to make sure the principle of a fair return to the taxpayers is 
adhered to, and that is the same principle we have with respect 
to oil and gas production, both onshore as well as offshore.
    On your second concern relative to wind energy projects and 
birds, we are working on developing a set of guidelines from 
FWS to deconflict the wind projects that are being proposed 
around the country with the avian issues we care so much about 
at the Department of the Interior.
    Many of the projects, which were built 20, 30 years ago, 
including the one you cite in California, were projects that, 
first of all, didn't have the technology we have today. The 
technology being used now for wind blades and wind turbines is 
much better than the ones in place then. In fact, some of the 
projects in California have already turned over into the new 
technology because they recognize the issues, the lethality of 
their projects on avian populations.
    Second, and perhaps more importantly, what we are working 
on with FWS is to try to identify those corridors which we know 
are of high use for avian populations so, in those areas, we 
would not be permitting wind projects. We are in the process of 
trying to come up with a plan to deconflict our mandate for 
conservation, which is a legal one, as you say, under the law, 
and at the same time honoring the priority to develop 
alternative sources of energy.
    Senator Alexander. Thank you, Mr. Secretary.
    If I can prove to you we have lots of birds in the Great 
Smoky Mountains, will you keep the wind turbines out?
    Secretary Salazar. I can guarantee you, Senator Alexander, 
that there will never be a wind farm built in the Great Smoky 
Mountain National Park.
    Senator Alexander. Thanks, Mr. Chairman.
    Senator Reed. Thank you, Senator Alexander.
    I want to recognize Senator Leahy, but I also want to thank 
Senator Landrieu. Because of Senator Leahy's schedule, he asked 
to be recognized when he arrived.
    Senator Leahy, please.
    Senator Leahy. I apologize, and I do thank Senator Landrieu 
also.
    I also want to thank Senator Reed for holding this 
important hearing. I should tell you, Mr. Chairman, that 
Secretary Salazar is a rock star in Vermont. People still talk 
about his visit up there, and I appreciate that.

                    LAND AND WATER CONSERVATION FUND

    But I am hoping that today's hearing doesn't simply focus 
on energy issues related to drilling and permits, and Senator 
Alexander has obviously related one. I would like to see us 
refocus our attention on LWCF, the bipartisan promise we made 
to land conservation in 1965 to allow us to invest in our 
natural areas in historic preservation.
    Some of our country's most treasured places have been 
acquired using the LWCF, including the Grand Canyon National 
Park, Denali National Park, many historic Civil and 
Revolutionary War battlefields, the Appalachia National Scenic 
Trail, which runs through Vermont as well as States of three 
other subcommittee members--from Georgia, through Tennessee and 
Maryland, Vermont, ending in Maine. In fact, our four States 
make up 35 percent of it.

       SILVIO O. CONTE NATIONAL WILDLIFE REFUGE LAND ACQUISITION

    I worry that if we don't use it right, we could lose 
natural resources forever, and I was concerned in hearing about 
the Silvio O. Conte National Fish and Wildlife Refuge that they 
have a number of resources that are ready to be acquired with 
the $6.5 million that was in the President's fiscal year 2012 
request and the $1.5 million in fiscal year 2013.
    Now I know you don't want to draw out too long some of 
these acquisitions. But I challenge the claims that have been 
made the Conte refuge is not able to spend the entire request 
that was made by the President last year.
    They span four States. They encompass the entire 7.2 
million acre Connecticut River watershed. Conservation in this 
area is essential. A Vermont Fish and Wildlife survey yesterday 
detected four or five Canadian lynx in the Nulhegan Basin of 
the Conte refuge. Now this is an endangered species and almost 
never seen, and they are coming back.
    So, Mr. Secretary, can you explain the difference between 
what I am hearing on the ground in Vermont and throughout the 
Conte refuge regarding the number and cost of tracks of land 
available for acquisition with the $6.5 million in your fiscal 
year 2012 request and what I am seeing in your reprogramming 
request?
    I mention that because it is a critical part of the 
America's Great Outdoors Initiative. It crosses four States. It 
is an area under enormous pressure from developers. Is it a 
case where we have the money, and now the money is being taken 
away?
    Secretary Salazar. Senator Leahy, first, let me thank you 
and Marcelle for the wonderful welcome that you always give me, 
including into the great State of Vermont just last summer. I 
hope to be up there again. Vermont is one of the great States 
in terms of hunting and fishing and environmental education.
    Two, I support your efforts and applaud your leadership as 
well on the LWCF. The true needs of it, even though there will 
be debate, I am sure, in this subcommittee, are probably more 
in the neighborhood of $5 billion a year. So, when we look even 
at our request at $450 million in the fiscal year 2013 budget, 
it is not meeting the needs that are out there for conservation 
programs. And every one of our areas around the country from 
the Grand Tetons National Park to Yellowstone National Park to 
Silvio O. Conte National Park have needs.
    What we have done with the Silvio O. Conte National Park 
area, and it is such a great wildlife refuge, and in the 
connectors that we are working on through the America's Great 
Outdoors Initiative, there are $4 million in acquisitions ready 
to go. We will make those acquisitions in the fiscal year 2012 
budget.
    Now the delta between the $4 million and the $6.5 million 
and our reprogramming request before this subcommittee comes as 
a result of the fact there were significant cuts that were made 
to LWCF in the fiscal year 2012 budget. The budget we had put 
forward had a request of $900 million, which was full funding 
for the LWCF.
    When it came out of the fiscal year 2012 process, it was 
down to approximately $300 million, and we have had to make 
some realignments. But recognizing the importance of Silvio O. 
Conte National Park, Senator Leahy, what we have done is we are 
ready to go for the $4.5 million, and we have the other $1.5 
million requested in the fiscal year 2013 budget.
    Senator Leahy. We may have to have further discussions on 
it. I fought like mad to get that money in the budget, and I 
would hate to have it go right back out. So we will have some 
more discussions, I will with the chair, on questions of 
reprogramming.

                              STREAMGAGES

    And I will put for the record, and I really want answers on 
this, to give--our floods we had in Vermont, and we had an 
important Interior Department tool that both we and New York 
used. Those were the gages the USGS had, the river and lake 
gages.
    I think we would have lost a lot more property, a lot more 
lives if we had not had those. So I will have questions. I will 
have questions on that, and I will thank you again on putting 
in money for white-nose syndrome among bats.
    When I first started raising this question, people thought 
I was referring to a movie character that I have some 
familiarity with. But this is decimating, the loss of these 
bats are hurting agriculture throughout many, many, many 
States. And so, it is important that we keep working on this, 
and I applaud you for that.
    Secretary Salazar. Thank you.
    Senator Reed. Thank you.
    I am going to recognize Senator Cochran--we are going back 
and forth--and then Senator Landrieu. Excuse me again, Senator 
Landrieu.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Mr. Secretary, welcome. It is good to see you and to be 
here to congratulate you on your fine job as Secretary of the 
Interior. We have enjoyed having the opportunity to work with 
you on a number of programs for wildlife habitat protection, 
NPS, LWCF programs, all very important in our State.

                   COASTAL IMPACT ASSISTANCE PROGRAM

    One in particular, though, has come in for substantial 
reduction or deletion of funds that we had seen recommended for 
this agency is in the Coastal Impact Assistance Program (CIAP). 
This is particularly important in the Gulf of Mexico. We have 
been through a lot of challenges in that area, as everybody 
knows. And it just seems to me to assume a savings of $200 
million by rescinding unspent balances in the CIAP gave me 
pause when I saw that as kind of the lead description of this 
request.
    Is there any way to reconsider that? How locked in are you 
to reducing the funding for that program at this critical point 
in the gulf's history?
    Secretary Salazar. Senator Cochran, let me say that I 
appreciate your leadership on conservation and your work on the 
Migratory Bird Conservation Commission and our meetings every 
couple of months in that effort.
    On CIAP, you may recall I was one of those supporters for 
CIAP when I was a U.S. Senator working with all of you. It is a 
very important program. It was not functioning well under the 
former Minerals Management Service. I moved it over to the FWS, 
and we are getting the money out in very significant amounts. 
The monies are going to the States.
    In terms of the budget itself, it will take congressional 
action to adopt the proposal in the budget. It is one of those 
times where the whole budget is being combed for places where 
we can find some money to be able to balance the budgets. As I 
said in my opening remarks, Senator Cochran, it is painful to 
think we are having to do some of these things.
    Senator Cochran. Well, you wouldn't urge the President to 
veto the bill if we added some of that money back in the 
budget, would you?
    Secretary Salazar. I think it is a long way from today 
until we get to the point where we have a budget, an 
appropriations bill presented to the President. The Gulf of 
Mexico and coastal impacts and the restoration of the Gulf of 
Mexico, Senator Cochran, are an area where I would say it is 
probably the single most important conservation initiative on 
where I spend my time, at least in the last 3 years.
    Senator Cochran. Well, we appreciate your service, and you 
have been very generous in allocating some of your travel time 
to come to our State and to reassure us of the attention that 
the national leadership of the Department is giving to 
challenges that we face in the Deep South.
    And I want to thank you for mentioning the wildlife 
programs where you and I both have served as Members of 
Congress. It has been a great pleasure working with you over 
the years, and we look forward to a continuation of that good 
relationship.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Cochran.
    Senator Landrieu, and again, thank you for your patience.
    Secretary Salazar. If I may, Senator Reed, Mr. Chairman 
Reed, just one comment to Senator Cochran?
    Senator Reed. Yes.
    Secretary Salazar. One, I very much appreciate your help 
and leadership on the fiscal year 2012 budget, as well as 
members of this subcommittee, because we did make a huge 
difference on that. And number two, Sam Hamilton was a Hercules 
of wildlife and conservation and a great advocate for hunting 
and fishing. We appreciate your leadership in having a national 
wildlife refuge named in his honor, a bill which the President 
has now signed.
    Senator Cochran. Thank you very much for that mention, and 
particularly remembering Sam Hamilton. Thank you.
    Senator Landrieu. Thank you, Mr. Chairman.

                          OIL AND GAS REVENUES

    I wanted to ask, Mr. Secretary, the total amount of your 
budget before us today is about $11 billion. Is that correct?
    Secretary Salazar. That is, approximately.
    Senator Landrieu. What was the amount of money collected 
from oil and gas severances, both onshore and offshore, last 
year? Do you have those numbers, Ms. Haze?
    Secretary Salazar. I think I may. Off the top of my head, 
they were in the $9 billion range.
    Senator Landrieu. So it is fair to say that the production 
of oil and gas in this country and the severances that are 
collected, the severance taxes--not the corporate income tax 
that is paid, not the payroll tax that is paid, not the 
indirect sales tax that is paid--literally funds the entire 
Interior Department of the United States? Is that roughly 
correct?
    Secretary Salazar. It is roughly correct.
    Senator Landrieu. Do you know where 80 percent of the 
offshore funding comes from, off the shores of what three 
States would those be?
    Secretary Salazar. Most of our offshore energy production, 
as you well know, Senator Landrieu, is in the Gulf of Mexico.
    Senator Landrieu. And what States exactly are those 
offshore?
    Secretary Salazar. Well, the five States of the gulf--
Louisiana, Mississippi, Alabama, Florida, and Texas.
    Senator Landrieu. Well, it is not off of Florida, and it is 
Texas and Louisiana and Mississippi. Very little off the 
Alabama coast and none off the Florida coast because it is off 
limits except for the section 181 that we had to struggle to 
open.
    My point being that a large chunk, Mr. Chairman and Ranking 
Member Murkowski, of the money that goes to fund this entire 
budget comes from Senator Cochran's shore and my shore. So you 
can imagine my horror when I pick up the budget and just read 
through the pages, starting here, page F1, this is the LWCF, 
land acquisition. These are all the States that I see--Arizona, 
California, Colorado, Idaho, Montana, Nevada, Oregon, Utah.
    Let us flip the page. Wildlife and fisheries--California, 
Florida, Kansas, Montana, New Mexico, Washington, Dakota, Upper 
Mississippi River. Not a penny for the lower Mississippi River.
    Let us go to land acquisition. Arizona, California, 
Montana, Washington, and Wyoming. I don't know how long this 
subcommittee expects me to be a cooperative member. I really 
don't know how long this administration expects me to continue 
to try to be supportive. I cannot express anymore that we have 
had enough.
    The second point I want to make is that when you said you 
did the greatest overhaul of oil and gas drilling in this 
country, you most certainly did. I guess the incident required 
it. But there was a tremendous amount of pain from Senator 
Cochran's State and my State that was contributed to that 
overhaul. For the record, I want to read it in. A study was 
just released.
    This is not Exxon. This is not Mobil. This is not BP. These 
are the 2,000 independent oil and gas producers in my State 
alone. I am sorry I don't have the numbers for Mississippi, 
Secretary Salazar. And I want to tell you what they reported to 
an independent administration.
    Forty-one percent of these businesses are no longer making 
a profit. Seventy-six percent have lost their cash reserves. 
Forty-six percent have moved away from the gulf coast, and 82 
percent of these business owners have lost personal savings 
trying to live through the overhaul of this Interior 
Department.
    So, on two points--and you are my friend, and I respect you 
personally--I strongly disagree with the policies of this 
administration. One, for underchanging the region of the 
country that contributes most to your entire budget. Where is 
Mississippi listed in this budget? Where is Louisiana listed in 
this budget?
    And following up on what Senator Cochran said, the place we 
are listed, you are taking $200 million away from us. That is 
not going to happen. The CIAP money, which you know because you 
voted for it, was my bill. I fought like a tiger to get the 
money, and we got it.
    The first, the first money that the gulf coast has ever 
gotten to do restoration, and we shared it with Alaska. We 
shared it with California. And we shared it with Florida, even 
though they don't produce one barrel of oil. Mr. Chairman, that 
money cannot leave the gulf coast.
    And I want to say just one more thing. In 1965, the LWCF 
was created using the severance taxes that come out of oil and 
gas drilling offshore, not onshore. The bill was passed by 
Senators Mark and Tom Udall's family that served here.
    They said let us take the oil and gas resources, put them 
together, and create great conservation land for the country. 
We support that. What we cannot support is taking that money 
off the shores of Louisiana, Mississippi, and Texas, saving 
everyone else while we are literally drowning.
    Do you all remember the water, how high it was for Katrina? 
Do I have to explain to anyone on this subcommittee that south 
Louisiana is going underwater? Can I find one dime in this 
budget?
    I have had it. I don't know what I am going to do, but I am 
going to use all the power that I can to stop any funding for 
any programs as long as the money is coming off the coast of 
Louisiana, Mississippi, and Texas. You all can go find the 
money elsewhere.
    Go get it from Wyoming. Go get it from the interior States. 
Wyoming yesterday--I want to correct this, and I am going to 
finish. Wyoming, they have plenty money. They have 500,000 
people. I have 4.5 million, 1 million of them lost their homes 
and went underwater. I don't remember anyone losing their home 
in Wyoming.
    Mr. Chairman, last year they kept from their revenue 
sharing $971 million Wyoming put in their general fund. There 
are no restrictions as to how that money is spent. They can do 
anything with it. The law does not allow them--gives them all 
freedom.
    They can spend it on education. They can reduce taxes. I 
can't get one penny of the $6 billion that we send off the 
coast of Louisiana to fund this entire budget. And when I ask 
for it, it is given reluctantly. It is given with all kinds of 
``Oh, my gosh, we can't keep giving those people down there 
money.''
    My city has gone underwater. My State is underwater. We 
have lost more land than any State in this country, and it has 
got to stop.
    So go get your money, Mr. Secretary, from the West. They 
have plenty of it, and just let us use our money to save 
ourselves.
    Thank you.
    Secretary Salazar. Mr. Chairman.
    Senator Reed. Mr. Secretary.
    Secretary Salazar. May I respond? First, let me say there 
is no doubt everyone here in this subcommittee and everyone in 
the administration recognizes the passion that my good friend 
Senator Mary L. Landrieu has for Louisiana and for the Gulf 
States.

                          GULF STATES FUNDING

    And I can tell you that with respect to the gulf States 
that include all the five States of the gulf, we have put 
significant resources into both our national parks and our 
wildlife refuges. There are more than 40 of them in that part 
of the country. They have some of the most incredible extensive 
wildlife habitat, as Senator Cochran knows from his service on 
the Migratory Bird Conservation Commission. And we will 
continue to make sure those investments, which create jobs in 
New Orleans and other places, are investments we continue to 
make.
    Specific to Louisiana, one of the projects which Senator 
Landrieu has long championed is Lake Pontchartrain and the 
restoration efforts there. We are working very hard to make 
that project a reality. We have prioritized an urban water 
initiative in New Orleans that will connect up the downtown. We 
are working very hard to try to make sure we are taking care of 
the Gulf States.

                              OIL AND GAS

    The other point I would make is I disagree very much with 
my friend Senator Landrieu in terms of the overhaul on the oil 
and gas industry in America's oceans. Without the overhaul that 
we have undertaken, we wouldn't be able to say there are 60 
permits that have been granted just in the last year in the 
Gulf of Mexico.
    Senator Landrieu lived through the horror of the Macondo 
spill. I was with her and Senator Murkowski and Senator 
Bingaman and others as we flew over on C-130s over the Gulf of 
Mexico. That was a national crisis, and our oil and gas 
industry offshore is doing very well today.
    We are producing significant amounts of oil and gas, and it 
is less than 2 years from the date when the Macondo well blew 
up. We have continued to move forward in a cautious way, as 
Senator Murkowski knows, to try to put the resources in place 
for two seas in the Arctic, which she has been an advocate of 
for a long time.
    So I would only say that President Obama and I are very 
serious about moving forward with an ``all-of-the-above'' 
energy strategy, and it does, in fact, include oil and gas, and 
it includes oil and gas in America's oceans. Now I will say 
this to Senator Landrieu's point that I think is an important 
one to note.
    When she argued very hard for the Gulf of Mexico Energy 
Security Act legislation which I helped pass in the Senate, she 
was making the point about the impacts of oil and gas 
production on the Gulf Coast States, and that is a policy 
debate which will go on in this chamber and the U.S. Senate. My 
hope is when we work our way through the issues in front of us, 
including the litigation we now are involved in, in the Gulf of 
Mexico against those responsible for the oil spill, we will see 
the most significant ecosystem restoration project in the Gulf 
of Mexico we have ever seen.
    So your part of the country is near and dear to my heart, 
even though I know that you are mad.
    Senator Reed. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. Welcome.
    Secretary Salazar. Governor.

                        STREAM BUFFER ZONE RULE

    Senator Hoeven. I would like to talk to you about the 
stream buffer zone rule, which the Department of the Interior 
is promulgating and implementing, as I understand it. I believe 
that this is a rule that you are developing and implementing as 
a result of some conditions in the Appalachian region of the 
country. But I am concerned that you are also implementing it 
in our part of the world as well, and obviously, the coal 
mining is different throughout the country.
    And so, I am concerned that the stream buffer zone rule 
will require additional monitoring requirements on the part of 
our companies, tougher reclamation procedures, and also it 
provides a broader definition of streams and damage. So I guess 
my first question is how many existing American jobs does the 
Department of the Interior expect will be eliminated as a 
result of this?
    Well, let me step back. First, why are we kind of using 
this one-size-fits-all? In other words, if you are trying to 
address an issue in one region of the country, in the 
Appalachian region, why are you implementing the same approach 
in North Dakota, for example, where the coal is different and 
the mining procedures are different?
    Secretary Salazar. Senator Hoeven, Governor Hoeven, thank 
you for your service to the country and to North Dakota.
    Let me just say we still do not have a rule. It is still in 
the process of being formulated, and the economic analysis will 
certainly be a part of that rule. The Deputy Secretary has been 
working with Office of Surface Mining (OSM), Joe Pizarchik, the 
Director of the OSM, and I would like him to comment on the 
substance of the rule and the concerns you raised.
    Mr. Hayes. Thank you, Mr. Secretary.
    Senator, I would just like to emphasize we do not have a 
proposal on the street. We are hearing your concerns and the 
concerns of others, and we are still doing the evaluation, both 
economic and environmental. We want to work with you, and 
certainly before a rule comes out, we will want to sit down and 
talk to you about it.
    A new rule is not imminent. A new proposed rule is not 
imminent. When the proposal comes out, there will be an active 
comment period. This process is extremely important to your 
State and to many other States and to the Department. I can 
assure you that we will work with you on it.
    Senator Hoeven. Where are you in the process?
    Mr. Hayes. We are continuing to prepare the environmental 
impact statement associated with the proposed rule. That is 
ongoing right now. We do not have a proposal over to Office of 
Management and Budget (OMB) for review yet. So we are not even 
at the stage where we are engaged with OMB, which is, of 
course, the office we work through before we can put a proposed 
rule on the street.
    Senator Hoeven. What is your intent? What do you intend to 
do?
    Mr. Hayes. We are still internally evaluating the 
environmental impact statement and the proposed rule. We have 
not made a decision as to when we will go to OMB with a 
proposal. If we do go, it typically takes an extended period of 
time of discussion back and forth before a proposed rule hits 
the street.
    Senator Hoeven. Are you willing to have either you, Mr. 
Secretary, or your designee come out to my State and actually 
take a look on the ground at the situation and talk to some of 
our companies before you proceed?
    Secretary Salazar. Senator Hoeven, I am happy to do that 
and, in fact, I spent a good deal of time with your Governor 
just two nights ago, speaking about a number of North Dakota 
issues, including the Bakken formation where we have been very 
pleased to work with you, when you were Governor, and with the 
State in terms of the USGS information that has been provided 
on the Bakken.
    I also noted to the Governor that it is the only place in 
the country where we actually have enhanced oil recovery 
through CO<INF>2</INF> capture.
    Senator Hoeven. Right.
    Secretary Salazar. And so, North Dakota is a very important 
State. A number of issues there to be addressed. I hope to be 
out there, and when I am out there, we can certainly have a 
meeting around the coal issues as well.
    Senator Hoeven. I do want to say that you have been very 
good about coming to our State. Very good both just on these 
types of issues, but also when we have had flooding and some 
emergencies, and you have been out there a number of times. And 
we really appreciate it. So I do want to commend you for that 
and thank you for that.
    On this rule, I am asking, again, that you or your designee 
come out and meet with us and look through this before you 
determine how best to proceed. I mean, again, this is 
information. This is fact finding, and hopefully, it will be 
beneficial both to you and to the companies out in our part of 
the country that do mining.
    We are number one in the country in land reclamation. We 
are number one in terms of how we handle the water. We meet all 
ambient air quality requirements. So we believe in producing 
energy, but we believe in taking care of the environment, too.
    So let us try to work together on this, and this is an 
opportunity to do so. And----
    Secretary Salazar. That is a fair request, and we will be 
happy to do that.
    Senator Hoeven. Thank you.

                          HYDRAULIC FRACTURING

    And then, I am pleased to hear that you were talking with 
Governor Dalrymple. Undoubtedly, he brought up the fracking 
issue to you. Obviously, it is a hot topic around the country. 
It is an important topic.
    We want to do it safely and well. We want good 
transparency. We want people to understand it and be 
comfortable with it. But we are producing an incredible amount 
of oil and gas and more energy not just in North Dakota, but 
around this country. And we can do so much more with good 
environmental stewardship. But we have to understand business 
practices and how they work.
    So for you to bring forward a rule that says that--excuse 
me, Mr. Chairman, I will try to wrap up here. But for you to 
bring forward a rule that says, okay, that the exact 
specifications in every frack job have to be submitted to you 
30 days before that is done, and then they can't make any 
changes whatsoever to that frack fluid mix when they undertake 
fracking, that is the kind of thing that does not work for 
business.
    So, again, full transparency. We have no problem requiring 
that our companies provide what is in that frack fluid so that 
people know and it is fully transparent. You can go on the Web 
and find it. That is the Interstate Oil and Gas Compact 
Commission (OIGCC) model that we developed. But the idea that 
they can't change that once they have submitted the exact 
specifications to you 30 days after when they are out on a well 
site, trying to produce a well, and the conditions change as 
they develop that well--I know you understand this--that has to 
be taken into account.
    So, again, it is about regulation that is understandable, 
straightforward, protects the environment, but that empowers 
businesses and investors and so forth to do the--undertake the 
development, but do it right. And so, this is an example of 
where we are going to have to do more work on your frack 
regulation.
    And again, from the point of understanding, let us make it 
workable. Sure, let us know what is going into the ground, but 
let us make sure it is a workable regulation.
    Secretary Salazar. We very much agree with you, Senator 
Hoeven. It has to be a workable regulation. In fact, much of 
the time over the last year has been spent on gathering 
information, including a meeting I had with oil and gas 
industry and other experts at the Department of the Interior 
over a year ago, hearings that BLM has had, including the one 
in North Dakota, to get input.
    When the rule does come out that will address the issue of 
transparency to disclosure and the other matters I spoke about 
earlier here in this subcommittee, it still will only be a 
proposed rule. It needs to work.
    I think this is one area where I do hope we can transcend 
the hot politics of the time and say we agree that our North 
Star here has to be to use the abundant resource of natural 
gas, which is an American resource, and that in order to do so, 
we need to make sure we are providing confidence to the 
American people that we are doing it right.
    Most of the companies I deal with, Senator, come and talk 
to me about the requirements we are talking about on 
disclosure, well integrity, and flowback water, are in 
agreement that we are moving in the right direction. But we 
will continue to listen to you, as well as to industry, as well 
as to other stakeholders before any rule is finalized.
    Senator Hoeven. Thank you, Mr. Secretary.
    And we can help you with that. Cost-benefit needs to be 
part of it. But we can work together on this and I think get it 
right. And so, we appreciate your willingness to work with us 
on it and look forward to it.
    Secretary Salazar. Thank you, Senator.
    Senator Reed. Thank you, Senator Hoeven.

                        OFFSHORE INSPECTION FEES

    Mr. Secretary, if I may, there has been some discussion of 
offshore production of oil and gas. You have taken significant 
efforts to reform the inspection process, the leasing process, 
et cetera. One of those was the result of last year's budget, 
we increased inspection fees $62 million.
    Will you realize the full $62 million increase this year? 
Is that your expectation?
    Secretary Salazar. Yes. And let me say thank you, thank 
you, thank you to you and Senator Murkowski and the members of 
this subcommittee for making sure we get the additional 
resources to be able to do the job right. We are pushing hard 
on the hiring of the inspectors and moving forward with the 
program that you have enabled us to implement.
    Senator Reed. And as you suggest, Mr. Secretary, 50 percent 
of these new fees are required to be used to improve permit 
reviews and related oversight activity. So there is a direct 
correlation between the increased fees and we hope the 
effectiveness of the inspections and the oversights, which 
after the Macondo spill, clearly, we need a more effective 
system. And your goal is to implement this effort?
    Secretary Salazar. Yes, Senator.
    Senator Reed. And you had indicated also, that your budget 
reflects a cut in personnel to the Department of the Interior, 
but you are actually hiring more inspectors because of the 
increase in fees for the offshore production?
    Secretary Salazar. The offshore oil and gas programs will 
see increases in the number of FTEs. Just a quick reminder, no 
increase from I think 1981, 1982 until what we have done in the 
last several years. It is necessary, and it is such an 
important part of our economy that we need to keep investing in 
that program.

                          OIL AND GAS REVENUES

    Senator Reed. And just a technical point, I believe, that 
all of the proceeds from production--from the gulf, from the 
Chukchi, from Bering, from Beaufort--all of those go to the 
Treasury of the United States. They do not go to the Department 
of the Interior?
    Secretary Salazar. That is correct.
    Senator Reed. And they fund a range of efforts. You do not 
have a restricted receipt account where the Department gets all 
the proceeds?
    Secretary Salazar. I wish we did. It would make it easier.
    Senator Reed. It would make it simpler. It would make it 
much more simple for this subcommittee. This could be a very 
short hearing, Mr. Secretary.

                        ONSHORE INSPECTION FEES

    Turning now from offshore to onshore. One of the proposals 
that we discussed quite seriously in the appropriations process 
last year, was an onshore inspection fee, that the BLM would be 
able to charge, an increase in fees, for that effect. That fee 
would be to increase their ability to inspect, to permit, in 
fact, to provide the kind of certainty and responsiveness that 
the business community really should have.
    That was not successful, but I think, in the context 
particularly of the emphasis on making sure we get these 
fracking regulations done right and not just the regulations 
and the reporting, but the inspections, my feeling is that this 
fee increase would be appropriate and would be used for the 
same purpose. That purpose would be to facilitate both the 
exploration and recovery of these resources, while doing it 
safely so that we don't have contaminated water and don't have 
unexpected consequences. Is that your view also?
    Secretary Salazar. I agree with you, Mr. Chairman.
    Senator Reed. And would you be supportive of the proposal 
in the budget to increase the fees on land-based as well as 
offshore?
    Secretary Salazar. Yes.
    Senator Reed. Thank you very much.

                    LAND AND WATER CONSERVATION FUND

    Let me just turn quickly to the LWCF because it has been 
mentioned before. It seems that the increases are focused in 
several specific areas--Montana, Wyoming, and in Florida. And 
the question really has been raised by a number of my 
colleagues, that this is a national program, and we understand 
that certain projects have particular needs and appeal and 
urgency. But there has to be, I believe, a much more even-
handed or a comprehensive approach to try to fund projects 
across the country.
    I could pick out urban projects in a number of places in 
the country. I could pick out projects that are east coast, 
south coast, et cetera. How can we help you provide a more 
comprehensive approach, based on merit, of course, than what 
seems to be appearing in the first cut of this budget?
    Secretary Salazar. Senator Reed, Chairman Reed, let me say 
the way in which we could move forward with the true 
conservation agenda that fulfills the dreams of many in the 
conservation world would be to have enough money to be able to 
do many more of these landscapes. At the end of the day, this 
is about landscape-level planning.
    When we look at the Crown of the Continent, from 
Yellowstone National Park up to Glacier and all of the work 
going on at three now national conservation areas there, we 
believe that with a collaborative effort, as opposed to 
operating in the silos of the agencies--the United States 
Forest Service, FWS, the BLM, and NPS--we can actually get that 
done.
    The same thing is true with the longleaf pine in Georgia 
and Florida. And the same thing, frankly, would be true in a 
number of other landscapes that we would like to do the same 
thing with.
    When I make the pitch, and it is not so in Senator 
Murkowski's case in Alaska, because Alaska is a world unto 
itself, very different situation than when you look at the 
lower 48. But there are landscapes, including many of those in 
the Northeast, which could benefit from this kind of investment 
and this kind of collaborative planning.
    Criticism from some about investments in the LWCF, I will 
just say he is not on this subcommittee, but Senator Barrasso 
and Senator Enzi from Wyoming are great beneficiaries of the 
LWCF because the Grand Teton National Park alone would swallow 
up several hundred millions of dollars just to be able to buy 
out the in-holdings within Grand Teton National Park.
    The need is tremendous, and the big problem we struggle 
with is how can we be most effective in implementing a 
conservation agenda that protects these landscapes of America 
and do it in a way that is going to be done in a timely manner?
    So the Dakota Grasslands, the Flint Hills of Kansas, the 
Silvio O. Conte Connecticut River areas, all those are 
tremendous areas where there is just a huge need. I would hope, 
with the leadership of this subcommittee, that we can see some 
august, robust support for the LWCF.

                       GRAZING ADMINISTRATIVE FEE

    Senator Reed. Just a final question. The budget includes a 
proposed increase in grazing fees on BLM lands of $1 from $1.35 
per horse to $2.35--or per animal, I should say to be accurate, 
per animal to $2.35. Even with such an increase, my presumption 
from what I have seen, would only cover a fraction of the BLM's 
cost to maintain this facility. I would also assume that 
comparative or relative to leasing private grazing property, 
even with this increase, there would be a very, very small 
charge. Is that a fair estimate, based on your analysis?
    Secretary Salazar. That is very accurate, Chairman Reed. 
The fact of the matter is, and I know ranchers, including in my 
family, who rent lands for probably $10, $11 an Animal Unit 
Month (AUM), $12 in the State of Colorado. So when you think 
about the public lands being leased out at $1.35 an AUM, adding 
the $1 administrative fee at $2.35 still gives a tremendous 
benefit and advantage to part of the heritage of this country, 
which is the ranching heritage of America.
    Senator Reed. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                        OFFSHORE INSPECTION FEE

    I just have a small handful of questions remaining here. 
But I want to follow on the chairman's questions about the 
increased fees that were placed in last year's appropriations 
bill, 50 percent of which to fund the personnel and the 
mission-related costs. You have indicated that you are pushing 
to get additional personnel brought on. We greatly appreciate 
that.
    With that, are you seeing that the amount of time that it 
takes to approve the plans, the approvals, are they moving 
forward as you are able to add more on? Are we seeing any 
noticeable gains yet in that?
    Secretary Salazar. If you look back just at the last year 
from today to February this day a year ago, we have seen a 
number of exploration plans approved. We have seen permits 
issued, including I think more than 130 in the shallow water in 
the gulf and 60 in the deepwater. We are moving forward with 
that effort.
    On the hiring part, we are putting a lot of emphasis on it. 
In fact, we were having a conversation this morning about how 
Admiral Watson and Tommy P. Boudreau will make sure we are 
expediting the hiring of these people, and the flexibility you 
gave us in the budget to be able to pay 25 percent more for 
petroleum geologists and others who have the expertise will 
help us get the job done.
    Senator Murkowski. So you are still working to get there, 
is what you are saying?
    Secretary Salazar. We are on the case, but it is not 
stopping us from moving forward.
    Senator Murkowski. All right. Thank you.

                          ONSHORE ROYALTY RATE

    Yesterday, in the Energy Committee, I asked a couple 
questions about the onshore leases and the increase in the 
royalties, and the chairman has alluded to that in his 
question, et al. You mentioned that yesterday you were looking 
at several studies and mentioned the Government Accountability 
Office (GAO) study, I guess it was. But you said you were going 
to be taking that all into account.
    And I left the hearing thinking, well, wait a minute. If 
you are going to be taking into account these various studies 
that are out there, but yet the budget makes very clear that 
you are going to be raising the rates 50 percent for all 
onshore oil and gas production, it seems like you have already 
made up your mind on doing this.
    So I guess I have a question in terms of why are you going 
back and doing the studies now if you have already made the 
decision that you are going to move forward, or is that still 
in flux, the decision as to whether or not you bump up the fees 
an additional 50 percent?
    Secretary Salazar. Senator Murkowski, it is still in flux 
in the sense there is additional information and study to be 
done. As you know, when you put a budget together, you are 
forecasting what may be happening, and that is what OMB did in 
this particular case.
    At the end of the day, North Dakota just increased its 
royalty rates on State lands I think more than 18 percent. We 
know the numbers out of Texas and Wyoming, and I think the GAO 
was correct in making its finding at the 12.5-percent royalty 
rate, which has been in place since 1920, that the American 
taxpayer was not getting a fair return.
    I believe we need to make sure we honor that principle of 
getting a fair return.
    Senator Murkowski. Well, we all want a fair return. But I 
would again urge you to make sure that we are taking into 
account what we are paid for those initial leases, to make sure 
that is factored in because that, clearly, is a return that 
comes to the taxpayers. And again, to ensure that where we are 
not going to be in a situation where we are not competitive.

                     NATIONAL WILDLIFE REFUGE FUND

    I wanted to ask you about the National Wildlife Refuge 
Fund. I mentioned it in my opening statement. Apparently, the 
mandatory portion of this fund is going to continue to go to 
the local counties, but you are proposing to eliminate the 
discretionary portion of the program.
    And again, I will take you back to my rhetorical question, 
I guess, in my opening, which was what do you do for States 
like Alaska where we really are very limited in terms of our 
options? You have got the PILT payments coming. You are 
suggesting that it is going to be a 1-year continuation. 
Offsets haven't been identified. How do we deal with this, and 
can you tell me why you have chosen to eliminate the 
discretionary side from the National Wildlife Refuge Fund?
    Secretary Salazar. Senator Murkowski, we still will have I 
think it is $8 million set aside for the payments to the 
counties, which are a form of PILT, as you mentioned.
    Senator Murkowski. Right.
    Secretary Salazar. In terms of the other $14 million cut 
for the refuge fund that is in the budget, I will only say 
that, again, as one of those cuts which is a painful cut to 
take, I wish we didn't have to do it. At the end of the day, 
the concerns some of you have with the cuts proposed in this 
budget, they will all sort out relative to how the United 
States, the Congress, the President move forward with respect 
to dealing with some of the debt, deficit, and revenue issues 
needed to fund the Government.
    Senator Murkowski. Well, we will continue to talk about 
that one. We have got to figure out a good path forward. I 
appreciate the budget constraints that you are dealing with.
    I have got a couple questions about wood bison in Alaska 
and Unimak Island that relates to the caribou, but I will give 
you those in written format.

                  GEOLOGICAL SURVEYING OF AFGHANISTAN

    Senator Murkowski. But I do have one. I think this is 
really quite interesting. Apparently, in September of last 
year, USGS issued a press release that described the process 
that had been made in the geological surveying of Afghanistan, 
and they used some hyperspectral imaging and indicated in the 
release that more than 96 percent of Afghanistan is now mapped 
using this advanced technology.
    And I mean, that is all good, and clearly, the work is 
important. But we also have great opportunities with our own 
resources here in this country, certainly in Alaska. And of 
course, we all have to figure out, well, how do you pay for 
this type of mapping?
    In comparison to the 96 percent of Afghanistan that 
according to USGS has been geologically surveyed using these 
technologies, we are told that only 5 percent of the United 
States has been mapped using the same technologies. I don't 
know if this is true. I don't know if you can give me this 
answer today.
    But if it true, if you really do have this very stark 
difference between what we know about mineral-related 
investments that this administration is making in Afghanistan 
versus Alaska, do we know whether in this budget we have 
sufficient funding to start focusing on the United States 
mapping? I don't know if it is in there.
    But this is, again, one of those interesting data points 
that you say, well, gosh, if we can afford to be mapping 
Afghanistan, we would assume that this country is mapped, and I 
know for a fact that it is not. So can you help me out with 
that one?
    Secretary Salazar. On Afghanistan, obviously, because there 
has been huge investment both by the Bush administration and by 
President Obama's administration in Afghanistan, those were all 
reimbursable costs, as I understand, to the USGS.
    I will note, Senator Murkowski, the USGS just developed a 
study that looked at shale gas in Alaska, including the 
important areas of the North Slope, which you care so much 
about. I take your comment seriously, and one of the things I 
will do is I will talk to Dr. McNutt and to Bob Abbey to see 
whether there are some ways in which the technology that has 
been developed with efforts here in the United States, we have 
a good foundation from which to start.
    But maybe even taking the lessons from Afghanistan to be 
able to deal with some of the other mapping and surveying 
issues which you have talked about. Let me take that under 
consideration, see whether there is something we might be able 
to do.
    Senator Murkowski. Okay. I would recommend you start 
alphabetically with the States.

                       GOVERNMENT REORGANIZATION

    Senator Murkowski. We got a lot that we can cover up North. 
And then, Mr. Chairman, with your indulgence, what do you think 
about the proposal to move the National Oceanic and Atmospheric 
Administration (NOAA) from the Department of Commerce to the 
Department of the Interior?
    Secretary Salazar. Well, Senator Murkowski, first, the 
President was very clear in asking for the authority to be able 
to reorganize the Government. That is first and foremost 
because with that authority, there are probably other areas in 
Government that do need to be consolidated. We still have much 
of our Government which was created 100 years ago and really 
hasn't caught up to the 21st century.
    President Ronald Reagan had the authority to do 
reorganizations and consolidations. I think it is a simple 
request from the President.
    On the question of NOAA and the Department of the Interior, 
there are synergies that could be developed if there was such a 
consolidation. But we are not at this point looking at it until 
we get the authority from the Congress to move forward.
    Senator Murkowski. So you really haven't invested any time 
or effort to see how those synergies might come together?
    Secretary Salazar. I have seen studies from outside groups 
that indicate it would be a good idea, but any reorganization 
undertaken is always a difficult one and takes time to do it 
right. I tried to do a little consolidation with OSM and BLM, 
and we know what happened with that.
    Secretary Salazar. A reorganization of the kind that would 
bring NOAA and the Interior together, it would be an effort 
that would take a significant amount of time to do it right. 
Where the President is on this issue and where I am and my 
colleague Secretary Bryson are is we are supportive of giving 
the President the authority.
    It doesn't make sense for us to engage in any kind of study 
on any of these reorganizations until we have that authority.
    Senator Murkowski. Thank you.
    Mr. Chairman, I just might point out that if fisheries were 
under the Secretary's jurisdiction here, we could probably 
ensure better salmon dinners, and we will work with you on 
that.
    Senator Reed. Thank you, Senator Murkowski.
    Mr. Secretary, thank you very much, and your colleagues, 
for your testimony today.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will leave the record open until next Wednesday if there 
are additional statements or questions by any of my colleagues, 
and would ask you, Mr. Secretary, you and your staff to respond 
as quickly as possible.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Jack Reed

                             OFFSHORE WIND

    Question. Rhode Island has been helping lead the way on offshore 
wind in developing its ``pilot-scale'' offshore wind project in the 
State waters off Block Island, which will provide important engineering 
and environmental expertise for these new technologies in the water. 
How will the Department of the Interior (DOI) partner with Rhode Island 
on these efforts?
    Answer. Rhode Island continues to be a valuable partner at the 
forefront of offshore renewable energy development with DOI. Rhode 
Island's work in developing its Special Area Management Plan provided 
essential information to support DOI's decisions. The Bureau of Ocean 
Energy Management (BOEM) Rhode Island OCS Renewable Energy Taskforce 
continues to be an effective means of expanding this partnership at the 
Federal, State, local, and tribal levels. Through its Environmental 
Studies Program, BOEM is addressing issues and concerns identified by 
Rhode Island. For example, BOEM is partnering with the University of 
Rhode Island to develop protocols and modeling tools to support 
offshore wind development. Ongoing and future studies funded by BOEM 
through the Environmental Studies Program will investigate changes to 
recreation and tourism activities that may result from offshore wind 
energy development. BOEM is also conducting a study of best management 
practices to foster compatible development of offshore energy with 
fishing activities. BOEM also engages routinely with the Rhode Island 
Fishery Advisory Board and Habitat Advisory Board. Finally, to ensure 
an efficient and responsible environmental review, BOEM is combining 
its review of the transmission cable system with the U.S. Army Corps of 
Engineer's (COE) review of the pilot project under the National 
Environmental Policy Act (NEPA) and required consultations under 
Federal law.
    Question. Mr. Secretary, I appreciate that the commitment you made 
in the hearing to expedite BOEM's efforts to process right-of-way 
applications for the transmission line between Block Island and the 
Rhode Island mainland. Would you also make a similar commitment to 
expedite the consultation of any agency within DOI, such as the 
National Park Service (NPS), with other Federal agencies including COE 
that would have a role in the siting and approval of the State water 
project?
    Answer. Yes. The President has directed that all Federal agencies, 
including NPS and COE, do everything that can be done to expedite 
consultation and to be supportive in siting and approving projects in 
State waters. In these times of fiscal restraint, partnering between 
Federal agencies ensures that resources are spent more efficiently and 
are directed to those areas of greatest concern. Partnering also 
ensures the maximum use of collaboration between all stakeholders at 
the Federal, State, and local levels. In keeping with our ``Smart from 
the Start'' Initiative, I am committed to accelerating the leasing 
process changes in order to build a robust and environmentally 
responsible offshore renewable energy program that also creates jobs 
here at home.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                                 CADIZ

    Question. Last November the Interior Department's Solicitors office 
issued a memorandum known as the ``M Opinion'' which stated that 
railroad companies lack authority to permit activities along their 
right-of-way unless the projects directly benefit railroad operations. 
The proposed Cadiz water project in the Mojave Desert has proposed 
using the Arizona & California Railroad's Right of Way to construct a 
43-mile long pipeline connecting their project site with the Colorado 
River Aqueduct. The project's Draft Environmental IR suggests that the 
water pipeline would benefit the railroad because it would allow them 
to place fire hydrants along the route for fire suppression. Can you 
tell me are fire hydrants typically placed along the Bureau of Land 
Management (BLM) granted-railroad right-of-ways?
    Answer. We are not aware of any hydrants placed on BLM-granted 
railroad rights-of-way. We would need to review each authorization to 
determine if hydrants are present.
    Question. Do they exist along any railroad right-of-way in the 
desert southwest?
    Answer. We can only speak to those railroad right-of-way grants 
that we approved. We do not know if other railroad grants involve 
hydrants. The Federal Railroad Administration or Surface Transportation 
Board may be able to clarify this.
    Question. What steps has the Department of the Interior to taken to 
assess Cadiz' proposed use of the right-of-way as it relates to the ``M 
Opinion'' or assert its jurisdiction to regulate the use of the Right 
of Way for nonrailroad purposes?
    Answer. BLM is currently in the process of assessing Cadiz' 
proposed use of the right-of-way as it relates to the ``M Opinion.'' As 
part of that assessment, the BLM California State Office has taken the 
following steps:
    On January 10, 2012, the BLM California State Office sent a letter 
to all railroad companies with rights-of-way authorized under the 
authority of the 1875 Railroad Act in California, including the Arizona 
& California Railroad, which has entered into a lease for a pipeline 
for the Cadiz project. The letter requested the companies to disclose 
agreements for third-party easements within 30 days. The Arizona & 
California Railroad (ARZC) responded to this request on February 15, 
2012, requesting additional information about specific ROWs and the 
areas for which BLM is interested.
    On February 13, 2012, BLM's California State Director sent a letter 
commenting on the Draft Environmental Impact Report prepared by the 
Santa Margarita Water District and Cadiz, to comply with the California 
Environmental Quality Act. The comment letter requested copies of the 
plan related to water conveyance along the railroad, the Longitudinal 
Lease Agreement between Cadiz and ARZC and all other supporting 
documentation. BLM received a response letter from the Santa Margarita 
Water District which included copies of the Longitudinal Lease 
Agreement, an amendment to this agreement and correspondence between 
the Railroad and Cadiz.
    On May 4, 2012, BLM sent a letter to ARZC, along with a copy of the 
Longitudinal Lease Agreement between ARZC and Cadiz requesting the 
company provide more information on how the proposed pipeline described 
in the Agreement furthers railroad purposes, and whether these design 
features are consistent with standard railroad industry practices.
    On May 22, 2012, ARZC provided a response letter to BLM's May 4th 
request describing the ``proposed water pipeline as a unique 
opportunity to bring fire suppression resources to ARZC's critical rail 
improvements in an efficient and cost-effective manner, as well as 
providing collateral rail operating benefits.'' It also asserts that 
``with respect to hydrants, fire suppression capability is a chronic 
and historical challenge in the rail industry, most particularly on 
rural lines with trestles and bridges.'' BLM is currently coordinating 
with FRA to understand the feasibility of these water features, and 
whether they meet the objective of furthering railroad purposes.

                        PRIVATE LANDS PERMITTING

    Question. Secretary Salazar, I am concerned that the permitting of 
renewable energy projects on disturbed private lands remains more 
difficult than the process for permitting a similar project on pristine 
public land. The Conference Report accompanying the Department of the 
Interior's fiscal year 2012 appropriations legislation asked you to 
address this, stating:

    ``In order to facilitate better species protection and stewardship 
of public resources, the conferees expect that (the new Renewable 
Energy Permitting Office in the Fish and Wildlife Service) will develop 
permitting policies that make it less difficult and time-consuming to 
permit projects on disturbed private lands than on pristine public 
lands . . . . The conferees . . . support efforts by the Service to 
establish a pilot fee program using the Service's existing 
authorities.''

    Please describe how the Fish and Wildlife Service (FWS) has 
implemented this congressional directive to date, and please describe 
the Interior Department's strategy to address this matter during fiscal 
year 2013.
    Answer. FWS has met this congressional directive by realigning 
support for renewable energy work in the Carlsbad, Ventura, and Nevada 
Fish and Wildlife Offices (FWOs). FWS opened an office in Palm Springs 
in August 2011, which is closer to where many renewable energy projects 
are located. The office covers southwestern San Bernardino County, and 
all of Riverside and Imperial counties. The Palm Springs FWO works on 
renewable energy projects in the desert area, including the Desert 
Renewable Energy Conservation Plan (DRECP). FWS has two offices working 
on renewable energy permitting in Nevada, one in Reno and one in Las 
Vegas. The Secretary of the Interior recently signed an agreement to 
finish the DRECP by 2013. FWS is developing the DRECP to address 
private lands impacts and to serve as the programmatic permitting 
mechanism for renewable energy projects in the desert in California 
while sustaining the conservation of listed species.
    To help us be more responsive to renewable energy projects on 
private lands, the Service recently finalized a package of template 
documents and instructions that can be used by local FWS offices to 
establish reimbursable agreements with non-Federal entities that would 
provide additional funding. The additional funding can then be used to 
hire additional staff so that the Service can provide more timely 
environmental reviews of the projects.

                                 GAMING

    Question. Mr. Secretary, I am deeply disappointed that the 
Department was delinquent in responding to this subcommittee about the 
two controversial casinos that were approved in California last 
September. The Consolidated Appropriations Act, 2012 provided a 60-day 
window to respond; this deadline was missed by more than 2 weeks.
    The Committee report language gave your Department an opportunity 
to verify the claim of strong local support for these projects, despite 
the fact that only 3 of 33 elected officials or public entities 
expressed support for the casinos. I find it hard to believe that three 
support letters constitute ``strong local support'' as your document 
claims, particularly when Yuba County voters expressed opposition to 
one of the casinos in an advisory measure.
    Since Californians continue to be puzzled by the claim of ``strong 
local support'' for these casinos, I would like to follow up on the 
Committee Report.
    Of the 33 elected officials and bodies that you are required to 
consult with, how many have expressed support, in writing, for the 
casino projects?
    Answer. The Department received six express declarations of support 
from local units of government, with respect to the Enterprise 
Rancheria's application for a Secretarial Determination under the 
Indian Gaming Regulatory Act. These statements of support were 
discussed in the Department's September 1, 2011, decision at page 25. 
It is important to note that these supportive comments were submitted 
by the City of Marysville and Yuba County, in which the Enterprise 
Rancheria's proposed gaming facility would be located. These local 
units of government would experience the most significant impact of the 
tribe's proposed gaming facility. The Department previously provided 
the subcommittee with a copy of the September 1, 2011, Secretarial 
Determination for the Enterprise Rancheria on March 8, 2012, as an 
appendix to our response to House Conference Report No. 112-331 
Directive.
    The Department received seven express declarations of support from 
local units of government, with respect to the North Fork Rancheria's 
application for a Secretarial Determination under the Indian Gaming 
Regulatory Act. These statements of support were discussed in the 
Department's September 1, 2011, decision at pages 43-45. It is 
important to note that these supportive comments were submitted by the 
City of Madera and Madera County, in which the North Fork Rancheria's 
proposed gaming facility would be located. These local units of 
government would experience the most significant impact of the tribe's 
proposed gaming facility. The Department provided the subcommittee with 
a copy of the September 1, 2011, Secretarial Determination for the 
North Fork Rancheria on March 8, 2012, as an appendix to our response 
to House Conference Report No. 112-331 Directive.
    Question. How many have expressed opposition?
    Answer. The Department received three express declarations of 
opposition from local units of government, with respect to the 
Enterprise Rancheria's application. These statements of opposition were 
discussed in the September 1, 2011, Secretarial Determination at pages 
26-27.
    The Department received two express declarations of opposition from 
local units of government, with respect to the North Fork Rancheria's 
application. These statements of opposition were discussed in the 
September 1, 2011, Secretarial Determination at page 44.
    It is important to note that the Department provided a meaningful 
opportunity for local units of government to comment on the tribes' 
applications, pursuant to our regulations at 25 CFR part 292. A 
majority of those local units of government declined to submit comments 
to the Department on the tribes' applications.
    Question. How much weight was given to Yuba County Measure G, the 
advisory vote rejecting the proposed casino in Yuba County?
    Answer. The Secretarial Determination issued on September 1, 2011 
for the Enterprise Rancheria contains a discussion of how the 
Department considered Measure G in reviewing the tribe's application at 
page 25.
    Question. What needs to be done to ensure that county voters and 
residents can have their voices heard in this process?
    Answer. On June 13, 2011, the Assistant Secretary--Indian Affairs 
issued a memorandum explaining how the Department would consider tribal 
applications for Secretarial Determinations under the Indian Gaming 
Regulatory Act. In that memorandum, the Assistant Secretary noted ``In 
my view, IGRA and the Department's regulations, at 25 C.F.R. Parts 151 
and 292, adequately account for the legal requirements and policy 
considerations that must be addressed prior to approving fee-to-trust 
applications, including those made pursuant to the ``off-reservation'' 
exception. Specifically, the recently enacted part 292 regulations 
require exacting review of requests for off-reservation gaming.''
    Part 292 regulations were promulgated pursuant to IGRA and other 
statutory authorities. Under the IGRA's ``off-reservation'' exception, 
a tribe may conduct gaming on lands acquired after October 17, 1988 
only if:

    ``The Secretary, after consultation with the [applicant] Tribe and 
appropriate State and local officials, including officials of other 
nearby Indian Tribes, determines that a gaming establishment on newly 
acquired land would be in the best interest of the Indian Tribe and its 
members, and would not be detrimental to the surrounding community.''

    The Department continues to believe that existing law and 
regulations ensure a careful review of tribal applications for 
Secretarial Determinations under IGRA, which will allow for a 
meaningful opportunity for local communities to participate. It is 
important to note that Secretarial Determinations issued pursuant to 
IGRA are subject to the concurrence of the Governor of the State in 
which tribal gaming activities would occur.
    Question. Some of the most vocal opposition to these casinos has 
been from tribes, especially those who believe that new casinos should 
be built on the tribe's aboriginal lands--not in the most profitable 
location. This is consistent with the position of the National Indian 
Gaming Association. To what extent did you engage in consultation with 
these tribes and how did you respond to their concerns?
    Answer. The Assistant Secretary's June 13, 2011 Memorandum on 
processing tribal applications under IGRA's Secretarial Determination 
Exception was issued after thorough consultation with tribal leaders 
throughout the United States over a period of 3 months. Similarly, the 
Department's regulations at 25 CFR part 292 were promulgated in 2008 
after years of tribal consultation, as well as after a period of public 
notice and comment.
    With respect to the applications of the Enterprise Rancheria and 
the North Fork Rancheria, the Department adhered to the requirements 
set forth in governing regulations. In an effort to be transparent and 
inclusive, the Department even considered comments submitted by tribes 
outside the scope of what is required by our regulations. The September 
1, 2011, Secretarial Determination for the Enterprise Rancheria 
contains a discussion of comments submitted by other tribes at page 27. 
The September 1, 2011, Secretarial Determination for the North Fork 
Rancheria contains a discussion of comments submitted by other tribes 
at page 45.
    Question. Are the proposed casino sites on land that is within the 
undisputed aboriginal territory of the appropriate tribe?
    Answer. Neither IGRA nor the Department's regulations, at 25 CFR 
part 292, require a tribe's proposed gaming facility be located within 
its ``aboriginal territory.'' Nevertheless, the Department's 
regulations require us to evaluate the existence and extent of a 
tribe's ``significant historical connection'' to a proposed gaming site 
when making a Secretarial Determination under IGRA. The September 1, 
2011, Secretarial Determinations for both the Enterprise Rancheria and 
the North Fork Rancheria concluded that both tribes established a 
``significant historical connection'' to their respective proposed 
gaming sites.
    The September 1, 2011, Secretarial Determination for the Enterprise 
Rancheria contains a discussion of the tribe's significant historical 
connection to the proposed gaming site at pages 13-14. The September 1, 
2011, Secretarial Determination for the North Fork Rancheria contains a 
discussion of the tribe's significant historical connection to the 
proposed gaming site at pages 11-17.

    BUREAU OF LAND MANAGEMENT SOLAR SUPPLEMENTAL DRAFT PROGRAMMATIC 
                     ENVIRONMENTAL IMPACT STATEMENT

    Question. Last October, BLM issued its Draft Supplemental Solar 
Programmatic Environmental Impact Statement (PEIS), which includes 
large amounts of ``variance'' lands outside the solar zones. It is my 
understanding that while applicants are strongly encouraged to pursue 
projects within the identified solar zones, BLM will also consider 
permitting development in these ``variance'' areas. While some 
flexibility to consider lands beyond the zones may be necessary, I find 
it highly problematic that an estimated 50,000 acres of land that were 
donated or purchased with Land and Water Conservation Fund dollars have 
been included in the variance lands. Given that these lands were 
intended to be preserved in perpetuity, I do not believe they should be 
open for development. Can you tell me what is the process by which the 
BLM will consider and grant permission for solar projects to be 
constructed on ``variance'' lands?
    Answer. The process for considering solar projects on ``variance'' 
lands has been delineated in the Supplemental Draft Solar PEIS in 
detail. However, no final decision has been made. In addition, there 
might be market, technological, or site-specific factors that make a 
project appropriate in a non-solar energy zone area. BLM will consider 
variance applications on a case-by-case basis based on environmental 
considerations; consultation with appropriate Federal, State, and local 
agencies, and tribes; and public outreach. All variance applications 
that the BLM determines to be appropriate for continued processing will 
subsequently be required to comply with National Environmental Policy 
Act (NEPA) and all other applicable laws, regulations, and policies at 
the applicant`s expense. Applicants applying for a variance must assume 
all risk associated with their application and understand that their 
financial commitments in connection with their applications will not be 
a determinative factor in BLM's evaluation process.
    Question. Why have donated and LWCF-acquired lands been included 
among the ``variance'' lands and what steps are being taken to avoid 
their development?
    Answer. Comments received on the Supplement to the Draft Solar PEIS 
have requested that donated and LWCF-acquired lands be identified as 
exclusion areas for utility-scale solar energy development. BLM is 
currently considering this request, but no decision has been made yet. 
We would be available to brief your office directly in more detail at 
your request.

                         CENTRAL VALLEY PROJECT

    Question. Last week the Bureau of Reclamation (BOR) released its 
initial water allocations for Central Valley Project (CVP) water users. 
Given the low precipitation and Sierra snowpack we have experienced in 
California, the 30-percent water allocation for agricultural service 
contractors is disconcerting, but not altogether surprising. 
Significant carry-over storage appears to have helped boost reservoir 
supplies, but it is unclear whether those supplies are sufficient to 
provide all the water necessary to meet the needs of farms and 
communities for the remainder of the year. Can you tell me:
    If there is not significant additional precipitation in the 
remaining weeks of the wet season, how will this affect future water 
allocations for the remainder of the water year?
    Answer. The initial 30-percent allocation to agricultural water 
service contractors in February 2012, was due to very dry hydrologic 
conditions. December, typically one of the wettest months in 
California, ended up being one of the driest on record. The dry pattern 
continued through mid-March. Since mid-March, improved precipitation in 
the Sacramento Valley and improved snowpack in the Northern Sierra 
resulted in increases to the allocation for CVP San Joaquin Exchange 
and Sacramento River Settlement Contractors, wildlife refuges, 
agricultural, and municipal and industrial water service contractors in 
April. As of May, the allocation for north of delta agricultural water 
service contracts was 100 percent, but the allocation south of delta 
agricultural water service contractors remained lower at 40 percent. 
The lower allocation south of the delta is a reflection of constraints 
on exports from the Delta and the loss of pumping windows during the 
winter when conditions were much drier. In the San Joaquin Valley, 
precipitation did not improve as significantly as it did in the 
Sacramento Valley. The initial allocation to Friant Class I contractors 
was 35 percent which increased to 55 percent as of May 24. The Friant 
Class II allocation remains zero.
    Question. What administrative actions can BOR take to help ensure 
adequate water supplies to San Joaquin and Sacramento farmers this 
year?
    Answer. BOR developed a series of actions in the CVP Water Plan 
2012 to help support water management efforts this year. The plan, 
available at http://www.usbr.gov/mp/pa/water, identifies actions 
related to Joint Point of Diversion, Exchange Contractors' transfers, 
and California Aqueduct/Delta-Mendota Canal Intertie operations. BOR 
also worked with the water community to identify opportunities for 
transfers and administrative actions to better manage available 
supplies.

                             YUROK FUNDING

    Question. Secretary Salazar, Yurok Chairman O'Rourke recently wrote 
to your Department seeking assistance with the historic and continued 
under-funding for Yurok tribal government, law enforcement and 
transportation needs. I share his concerns and hope that your staff 
will give his request for additional funding all due consideration.
    To help clarify some outstanding questions raised by Chairman 
O'Rourke, I hope that you can provide me with answers to the following 
questions.
    Has your Department reviewed and analyzed the Yurok Tribe 
Justification and Request for Increased Base Funding, which was 
provided to the Regional Office and conveyed to the Assistant Secretary 
earlier this month?
    Answer. The Department received and reviewed the ``Yurok Tribe 
Justification and Request for Increased Base Funding.'' The Bureau of 
Indian Affairs (BIA) has examined the request, and we hope that our 
explanation of the issues raised by the tribe are addressed in the 
explanation of Tribal Priority Allocations (TPA) which are below.
    Question. Do you agree with the conclusions reached in this 
document, particularly that the tribe is disproportionately 
underfunded?
    Answer. In general, the distribution of TPA funds is sound. Tribes 
with historically larger populations and/or larger reservations receive 
proportionately larger shares of TPA funds. Adjustments reflecting 
treaties, court decisions, executive policy decisions, and 
congressional acts are also factored into the distributions.
    The allocation of resources among the regions and tribes is based 
on a complex set of historical, geographical, demographic, political 
and programmatic factors. Today, ``base funding'' identifies the basic 
contract amount of services on which a tribe can rely from 1 year to 
the next--the base amount from which budget increases or decreases are 
calculated. The base funding amount is the result of years of 
legislation, appropriations, and BIA administrative polices.
    At various times, especially in the past several decades, the 
Federal Government has emphasized the development of certain natural 
resources and provided additional funding for those programs. 
Additional funds were provided only to tribes owning such resources, 
and those funds were made part of the tribe's recurring TPA base 
funding. On the other hand, several programs were removed from tribal 
recurring bases, as well. These programs included the Housing 
Improvement Program and Road Maintenance program; many tribes had 
ranked these programs as top priorities and had allocated a substantial 
amount of their funding for them. When these funds were reduced or 
eliminated from the TPA base, tribes that had these programs listed as 
top priorities lost significant portions of their base funding.
    At various times, the BIA has emphasized certain programs, such as 
Human Services. At those times, the BIA has requested additional 
funding for those programs. Tribes with higher populations received a 
high proportion of these funds, which were then made part of their 
recurring TPA base to meet ongoing needs. However, increased tribal 
enrollment, whether through changes in membership criteria, or natural 
population growth, has not been considered a factor in distributing 
additional funds for TPA programs. Migration to and from reservations, 
particularly as economic opportunities change, has not been accounted 
for in any calculations of TPA funding.
    As a result of treaties, court decisions, executive policy 
decisions, and congressional acts, the legal obligations and funding 
for particular tribes have resulted in unique recurring funding levels 
for those tribes. Additionally, these funds were incorporated into 
various tribes' bases to address the prospect of litigation from these 
tribes against the Federal Government for failure to support certain 
activities required by treaty, statute, or the Government's trust 
responsibility.
    Question. What is the minimum per-capita funding that a rural, 
nongaming tribe should receive?
    Answer. The BIA does not establish a minimum per-capita funding 
level for any tribe, regardless of locality or gaming status. However, 
the Small Tribes Initiative was established to address a funding 
allocation process that consistently failed to take into consideration 
the basic funding needs of small tribes. These tribes have small 
memberships and most have little or no land or natural resources. The 
initiative attempts to ensure that all tribes, regardless of population 
size, land base, or natural resources, will receive a recurring base of 
$160,000 for tribes in the continental United States. The base funding 
amount is considered sufficient to enable small tribes to put in place 
and maintain the management systems necessary to account for funds and 
ensure compliance with applicable laws and regulations. The funding 
also permits tribes to establish and maintain administrative mechanisms 
sufficient to establish viable tribal office operations and service 
delivery systems.
    Question. If a per-capita formula is inappropriate, please explain 
what formula your Department does use any why it is the more 
appropriate funding mechanism.
    Answer. A per capita formula is inappropriate to use. At one time, 
the Government Accountability Office (GAO) developed an analysis of the 
TPA base funding per tribe. Their analysis showed that there is 
considerable variation in per capita funding between regions and 
tribes. For example, in the comparison between regions, GAO found the 
average TPA funding per capita Nationwide was $601; however, in Eastern 
Oklahoma TPA per capita was $121 and in Northwest TPA per capita was 
$1,020. This level of analysis, though, ignores that the Eastern 
Oklahoma Tribes tend to have small land bases while the Northwest 
Region Tribes have both reservations and significant natural resources 
held in trust.
    The only funding formula that the Department uses for the 
distribution of base funding is the TPA process. Many difficulties 
arise in any effort to develop an allocation system that takes into 
account the relative means of the tribes. Determining the type, extent, 
and magnitude of tribal revenues is the first difficulty. In an era 
when the BIA had a continuous presence on the reservation and managed 
an Indian Tribe's affairs, BIA personnel knew about all tribal business 
activities. In the current era of Self-Determination and Self-
Governance, the BIA often does not know the extent of tribal 
businesses. There is no assurance that the financial statements and 
reports even exist for all tribal business. Even if they exist, there 
is no assurance the format and content of the statements and reports 
may be readily compared or that the tribes would give BIA the 
information.
    The current TPA process is the most appropriate due to the efforts 
of the BIA in consulting with tribes and tribal leaders in the early 
development stages of the TPA process.
    Question. As a small and needy tribe, what supplemental funding can 
be identified to address this shortfall?
    Answer. The Catalog of Federal Domestic Assistance is a valuable 
resource because it identifies programs which identify tribal 
governments as eligible applicants. These programs are available and 
the BIA has seen increased outreach efforts by a number of Federal 
agencies, which is an indicator that tribal participation in these 
other programs may show steady increases and a bridged gap in 
shortfalls.

                     SAN LUIS REY WATER SETTLEMENT

    Question. In 1988, the Congress passed the San Luis Rey Indian 
Water Rights Settlement Act which provided a framework for resolving 
the decades old water dispute in Northern San Diego County. Within the 
last 2 years the five Indian Bands and the cities of Escondido and 
Vista have reached an agreement on how to proceed, however the 
Department of the Interior--as the bands' trustee--has yet to approve 
the deal.
    What are the primary unresolved issues which prohibit you from 
approving this settlement?
    Answer. The Department of the Interior believes that the proposed 
settlement agreement drafted by the Bands and the local entities is 
inconsistent with the 1988 San Luis Rey Indian Water Rights Settlement 
Act (``Settlement Act'') and contemplates obligations for the United 
States which exceed the authority and intent of the Act. The 
Department's position on the core issue in dispute, discussed below, 
was conveyed to the Bands as early as 2004, and has been reiterated 
multiple times across at least two administrations.
    The central point of contention concerns the scope and effect of 
the Settlement Act. The Department believes that the Settlement Act 
fully and finally quantified and resolved all of the Bands' Federal 
reserved water rights. The Department believes this position is fully 
supported by both the plain language of the Settlement Act and the 
congressional record behind the enacted legislation. In full settlement 
of the Bands' reserved water rights claims and to satisfy the 
obligations of the United States to the Bands as trustee, the 
Settlement Act established a $30 million trust fund and also required 
the Secretary to acquire and deliver 16,000 acre-feet per year of 
imported water to the Bands. The Bands and local entities disagree with 
this interpretation and rely on language from, and the legislative 
history behind, prior unenacted bills to assert that, in addition to 
the 16,000 acre-feet per year of imported water identified in the 
Settlement Act, the Bands retain claims to reserved water rights in 
waters originating within the San Luis Rey River basin.
    Question. What is the timeline for you to resolve these issues?
    Answer. The Department is committed to the expeditious development 
of a settlement agreement consistent with the Settlement Act, should 
the parties wish to pursue such an agreement. The Department has 
engaged in dozens of settlement discussions with the parties over the 
last several years and has offered multiple approaches to fashioning an 
agreement which would make the benefits of the Settlement Act available 
to the Bands. The Department views the quantity of water together with 
the specific exchange authority provided by the Settlement Act as an 
exceptional asset that holds the potential to provide the Bands with a 
permanent and reliable water supply unobtainable through any other 
means. If the parties are willing to pursue an agreement based upon the 
benefits explicitly set forth in the Settlement Act, the Department is 
hopeful that a final agreement could be developed this year.
    Question. Does the 16,000 acre/feet of water provided by the 
Settlement have federally reserved status?
    Answer. The Congress directed the United States, through the 
Secretary of the Interior, to acquire and deliver 16,000 acre-feet of 
water to the Bands in settlement of the Bands' reserved water rights 
claims. This water cannot be forfeited or abandoned and is federally 
protected water that, in the Department's view, constitutes a trust 
asset.
    Question. Under your interpretation of the Settlement Act, does it 
preclude tribes from using existing ground and surface water on their 
reservations?
    Answer. No. All five Bands have historically used either local 
surface water, ground water through domestic or community wells, or 
some combination of both. These uses have never been challenged. There 
is no reason that these uses could not continue following 
implementation of the Settlement Act.
    Question. Does this water have federally reserved status?
    Answer. The purpose of the Settlement Act is ``to provide for the 
settlement of the reserved water rights claims of the la Jolla, Rincon, 
San Pasqual, Pauma and Pala Bands of Mission Indians'' by providing the 
Bands with 16,000 acre-feet per year of supplemental water and a $30 
million trust fund. Against the backdrop of this congressional intent, 
the United States would not assert Federal reserved water rights on 
behalf of the Bands to local water sources.
    Question. The Settlement Act provides the authority to exchange 
settlement water for water from other sources. Once this exchange 
occurs, is the federally reserved status of the water maintained?
    Answer. The Settlement Act resolved the Federal reserved water 
rights claims of the five Bands by directing the Secretary to acquire 
and deliver 16,000 acre-feet of water imported annually to supplement 
the waters under dispute in the basin. The Department takes the 
position that this water is a trust asset to which the obligations of 
the United States attach. The Congress further authorized specific and 
limited authority for exchanges of the imported water for water from 
other sources for use on the Bands' reservations. If the water provided 
by the United States is exchanged consistent with the authority of the 
statute for water from another source, the Department believes that the 
trust asset character of the water can follow the exchange and be 
applied to this new source and that the Bands' use of water from this 
source could be protected as such.

                 FEE TO TRUST PROCESS AND APPLICATIONS

    Question. One of the most common concerns I hear expressed by 
tribes in California is the length of time it takes the Department to 
make decisions on fee to trust applications.
    In some cases I believe the Department acts responsibly in 
conducting a deliberative process, especially when gaming is involved. 
But in other cases, I believe the Department could and should move more 
quickly. This will require a more open, transparent process, and better 
communication with local interests.
    How many trust applications are pending in California? How many are 
for gaming?
    Answer. California has 134 applications pending, of which 13 are 
for gaming.
    Question. What has been the average length of time it takes to 
process a trust application for a California tribe in the last 10 
years?
    Answer. The time it takes complete an application varies depending 
upon a number of factors, including the stated purpose of the 
acquisition, comments from interested parties, environmental concerns, 
and concerns stemming from the Supreme Court's decision in Carcieri v. 
Salazar. Some applications can be completed in less than 2 years, while 
others have taken up to 5 years.
    Question. On average, how long does it take the Department to 
notify the local interests of a new trust application in their area? 
What steps are you taking to improve notifications?
    Answer. On average, it takes the Department 6 months to notify the 
local interests. Actions that have been taken to improve the 
notification process include the development of a national policy 
identifying timeframes associated with the process, revising the Fee-
to-Trust Handbook, implementing guidance to process mandatory 
acquisitions, replacing the Fee-to-Trust tracking system with an 
improved collaborative system, and developing performance measures for 
senior executives to process applications.
    Question. To what extent do gaming acquisitions slow the process of 
trust land approvals in general?
    Answer. Gaming applications require more work/information/approval 
levels and require preparation of an Environmental Impact Statement 
rather than an Environmental Assessment. The tribe must coordinate 
processing with the State and local governments and applications 
generally receive more scrutiny for compliance with NEPA, IGRA, and 
applicable gaming and land acquisition regulations.
    Question. Do the same staff analyze both gaming and nongaming 
applications? Does this create a situation where nongaming trust 
applications receive less staff time because of the more intensive 
process required for gaming acquisitions?
    Answer. Yes, staff does perform work on both gaming and nongaming 
applications. The nongaming applications do compete for staff time as 
the gaming acquisitions are labor intensive.
    Question. Is it possible for a parcel taken into trust using the 
nongaming procedure to ever be used for gaming activities?
    Answer. Yes, in some circumstances. Section 20 of IGRA provides 
that for lands that are within reservation boundaries or contiguous 
thereto, BIA has the authority to take land into trust that can 
subsequently be used by a tribe for gaming purposes. Requests for 
gaming must still be approved using section 20 of IGRA, whether the 
land is being taken into trust for that purpose or it is in existing 
trust status.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. Secretary Salazar, an important Interior Department tool 
that Vermont and many other States, including New York, used during the 
floods caused by Hurricane Irene were the U.S. Geological Survey (USGS) 
river and lake gauges. These gauges helped our first responders save 
lives and property by providing real-time information as the waters 
rose. In addition, the gauges also provide a long-term value by helping 
track changes in our rivers and lakes for ongoing water quality control 
monitoring and improvements. Nonetheless the USGS has flagged 18 river 
and lake gauges in the Champlain watershed of Vermont and New York to 
be discontinued for lack of funding.
    Do you agree with the assessment that the USGS river and lake 
gauging network in the United States represents one of the greatest 
return-on-investments of any dollar spent by your Department? Can you 
tell me what is needed to avoid any further damage to this critical 
network in Vermont and nationwide?
    Answer. Yes, the USGS streamgaging network provides a great return 
on the American taxpayer's dollar. Information on the flow of water in 
America's rivers and streams is fundamental to national and local 
economic well-being, the protection of life and property, and the 
efficient and effective management of the Nation's water resources. 
According to the National Research Council (2004), ``streamflow 
information has many of the properties of a public good, because 
everyone benefits whether they pay or not, and benefits to additional 
users come at no additional cost.'' There are many uses of streamflow 
information including:
  --water resource appraisal and allocations;
  --managing interstate agreements and court decrees;
  --engineering design of bridges, culverts, and treatment facilities;
  --the operation of reservoirs, powerplants, and locks and dams;
  --evaluating changes in streamflow due to climate and land-use 
        change;
  --flood forecasting (warning) and flood plain mapping (planning);
  --support of water quality evaluations; and
  --assessing in-stream conditions for habitat assessments and 
        recreational safety and enjoyment.
    For many of the uses of streamflow information, it is difficult or 
impossible to assign an economic benefit to the information, though in 
many cases the benefits are evident. The National Weather Service (NWS) 
is one agency that reports an economic benefit on the use of streamflow 
data. NWS reports that over the last 30 years, there has been, on 
average, 94 deaths and $7.8 billion in damages in personal and public 
property per year due to flooding on the Nation's rivers. Without 
streamflow information to calibrate and verify NWS forecast models, NWS 
would be ``flying blind'' in making flood forecasts, implying that the 
number of deaths and magnitude of loses to property would be much 
higher.
    Question. The National Streamflow Information Program (NSIP), as 
authorized in the SECURE Water Act of 2009, was designed to provide 
stability to the national streamgage network by providing a federally 
funded ``backbone'' network of streamgages to meet Federal needs for 
streamflow information. This backbone is supplemented with streamgages 
that are funded through partnerships to more fully meet State, tribal, 
and local needs for streamflow information. The enacted funding level 
for fiscal year 2012 for the NSIP is $29.4 million and the proposed 
funding level for fiscal year 2013 is $32.5 million. This increase 
during a time of fiscal constraints represents a commitment to 
increasing funding for the Nation's streamgages and greater 
implementation of the NSIP as described in the SECURE Water Act.
    Has the Department's Climate Change Response Council, which you 
chair, analyzed the impact of these gauge closures in the face of 
potential climate change impacts which are likely to bring about new 
and greater flood risks?
    Answer. Yes, the Department takes the issue of climate change very 
seriously with respect to water and other natural resources and 
hazards.
    The effects of climate change in any given area are often widely 
debated. It is likely that certain areas of our Nation will be at 
greater risk of floods, while other areas are at greater risk of 
droughts, and some may see no change at all. Some of the first 
scientific work demonstrating the occurrence and consequences of 
climate change was produced through analysis of long-term streamflow 
information. For example, it was demonstrated that in the Northeast, 
river flows were getting higher earlier in the year as a consequence of 
snow pack melting sooner, and late summer flows were getting lower, 
while there was no discernible change in the average or peak flows. In 
other areas, such as the Southwest, it appears that stream flows are 
decreasing. Without an adequate number of streamgages located in 
optimal locations and providing comparable high-quality data, it will 
be increasingly difficult to detect and predict the consequences of 
climate change on water supply and hydrologic extreme hazards.
    Question. With regard to white nose syndrome (WNS), which is still 
spreading across the country at a fast rate and has the potential to 
cost our Nation's farmers and consumers billions of dollars, can you 
tell me how the Department's request to reduce the Endangered Species 
Recovery account by more than $1 million will impact the work being 
done on white nose syndrome and other important endangered species 
recovery work?
    Answer. While our fiscal year 2013 budget request seeks a net 
overall reduction of $1.59 million, the decreases are specifically 
targeted at discontinuing the Wolf Livestock Loss Demonstration Program 
and reducing funding for the State of the Birds activities in fiscal 
year 2013 in order to fund higher-priority conservation activities 
elsewhere in the budget request, such as the Cooperative Recovery 
Initiative. Through the Cooperative Recovery Initiative, the Service is 
requesting $5.35 million to support a cross-programmatic partnership 
approach to complete planning, restoration, and management actions 
addressing current threats to endangered species on and around National 
Wildlife Refuges. In addition, the Service is continuing to place a 
high priority on addressing white nose syndrome (WNS) and bat 
conservation. In fiscal year 2012, the Service will allocate $995,000 
in State and Tribal Wildlife Grants for WNS research and monitoring by 
the States. In addition, $485,000 in Refuge Inventory and Monitoring is 
estimated to be spent on work related to WNS monitoring and control on 
Refuges. The total amount being spent by the Service in fiscal year 
2012 for WNS research and response activities will be at least 
$4,855,000. Additional funding may also come from Cooperative 
Endangered Species Section 6 Grants or Adaptive Science competitive 
grants, if projects addressing WNS are chosen to be funded.
    Question. In August, you announced that the U.S. Fish and Wildlife 
Service (FWS) would take full responsibility for sea lamprey control on 
Lake Champlain. In this context, can you explain when we will see the 
funding required to implement the program become a part of the 
President's budget request so that your Department's commitment can be 
entirely fulfilled?
    Answer. FWS funds a wide array of aquatic invasive species control, 
management, and prevention responsibilities across the country. 
Protecting the health and vitality of Lake Champlain and the 
significant fisheries resources, economic benefits, and jobs it 
provides is a high priority for FWS. The fiscal year 2013 President's 
budget includes $380,000 in base funding for Sea Lamprey in Region 5 
which supports 3.5 FWS base-funded full-time equivalents (FTEs) and 
four temporary/term FTEs based in the Lake Champlain Fish and Wildlife 
Resources Office in Essex Junction, Vermont. Through a reimbursable 
agreement, FWS currently works with the Great Lakes Fishery Commission, 
which receives funding from the State Department, to administer the Sea 
Lamprey control program.
    Question. The White River National Fish Hatchery remains the best 
cold water National Fish Hatchery in New England and the Northeast. 
White River is the lynch-pin to Federal fishery restoration work from 
Lake Ontario all the way to Maine, but it is currently out of 
commission and requires approximately $5 million in repairs as a result 
of damage caused by Hurricane Irene.
    Can you confirm that repairs to the White River Hatchery will be a 
priority? Are sufficient funds requested in your budget proposal, and 
programmed, as needed, for the repairs to this hatchery to proceed 
without delay?
    Answer. The White River National Fish Hatchery sustained 
approximately $5.2 million in damages resulting from Hurricane Irene. 
Repairing the White River National Fish Hatchery will be among the 
highest priorities for the Fisheries Program. Emergency clean-up 
operations have already been completed. Additionally, the Northeast 
Region immediately redirected approximately $620,000 in fiscal year 
2011 deferred maintenance funding to initiate emergency mission-
critical repairs. The President's fiscal year 2013 proposed budget 
includes $1.9 million to reconstruct the water infiltration gallery and 
to demolish and reconstruct the fish-tagging building. Upon completion 
of the aforementioned projects, 100 percent of fish-rearing capacity 
and operational capacity will be restored. An additional $2.6 million 
in damages to critical support infrastructure (e.g. roads, septic 
systems, etc.) will remain, which will need to be addressed through the 
application of annual deferred maintenance funds.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson

    Question. As you know, both the EROS Data Center, located in my 
home State, and the Landsat series of satellites are very important 
resources, not only for South Dakota, but for our entire Nation and the 
international community. Lead time is required for developing these 
satellites, and it's important that we look now at how to proceed 
beyond Landsat 8, which is scheduled for launch next year. The budget 
request excludes funding for Landsat 9 mission development, which is 
very concerning to me. How does the United States Geographical Survey 
(USGS) envision the program to function beyond Landsat 8, and what 
coordination activities are currently underway with the National 
Aeronautics and Space Administration (NASA) and other agencies in 
examining how to continue the Landsat missions program and ensure 
mission continuity?
    Answer. USGS received $2 million in the 2012 omnibus appropriations 
bill to support program development activities for Landsat satellites 9 
and 10. In fiscal year 2012, these funds are being used to consider 
options to obtain, characterize, manage, maintain, and prioritize land 
remote sensing data and to support the evaluation of alternatives for a 
Landsat 9 mission and other means for acquiring data. The fiscal year 
2013 budget request includes $250,000 to continue these efforts.
    USGS is working closely with the Landsat user community, the 
Department of the Interior, the White House Office of Science and 
Technology Policy, and NASA to identify and consider all available 
options for maintaining the continuity of moderate-resolution land 
observation data for the Nation. USGS recently posted a Request for 
Information to solicit information and options for providing a 
dependable, long-term source for Landsat-like data to follow Landsat 8. 
Mission concepts may include revolutionary ``clean-slate'' technical 
approaches, as well as evolutionary upgrade approaches. Approaches may 
involve single- or multiple-satellite acquisitions, commercial data buy 
arrangements, public/private partnerships, hosted payloads, 
international collaboration, small satellites, or architectures 
utilizing combinations of space-based sensors. USGS is also supporting 
a National Research Council study on programmatic and operational 
alternatives for establishing a long-term source of Landsat-like data 
for the Nation. These efforts include a ``Meeting of Experts'' to 
examine the feasibility of new and emerging technology that might be 
applicable for sustaining global land observations.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

    Question. Secretary Salazar, could you provide an update on the 
Platte River Recovery Program?
    As you know, Platte River Recovery Implementation is a basin-wide 
effort undertaken by the Department of the Interior (DOI) in 
partnership with the States of Nebraska, Colorado, and Wyoming to 
provide benefits for endangered and threatened species.
    I know you've included $8 million for implementation in your 
request which I appreciate.
    I was serving as Governor in 1997 when Nebraska entered into the 
Cooperative Agreement for Platte River Recovery Implementation. A 
little more than a decade later we were able to successfully authorize 
implementation as part of the Consolidated Natural Resources Act signed 
into law in 2008.
    I believe the first increment of the program is to last a bit over 
a decade--wrapping up in 2019. What's the Department's assessment so 
far? What progress are we making and are we on the right track?
    Answer. The Platte River Recovery Implementation Program (Program) 
continues to be a highly successful collaborative process, and also 
continues to receive broad support from water users, environmental and 
conservation entities, the States of Nebraska, Colorado, and Wyoming, 
as well as the U.S. Fish and Wildlife Service and the Bureau of 
Reclamation (BOR).
    The Program has made significant and steady progress during the 
first 6 years of the 13-year First Increment. The most recent Program 
success has been the completion of the Pathfinder Modification Project, 
which was declared substantially complete on January 11, 2012. The 
Pathfinder Modification Project raised the spillway at Pathfinder Dam 
(a BOR facility) by approximately 2.4 feet in order to recover storage 
space in Pathfinder Reservoir which had been lost to sedimentation. The 
Pathfinder Modification Project is a contribution to the Program by the 
State of Wyoming, and no Federal appropriations were required to modify 
the spillway at Pathfinder Dam. The Pathfinder Modification Project's 
Environmental Account in Pathfinder Reservoir will provide up to 
approximately 34,000 acre-feet (AF) of water for the benefit of the 
Program's target species.
    The Program will implement the Land Plan in order to protect, and 
where appropriate, restore 10,000 acres of habitat by no later than the 
end of the First Increment. To date, the Program has acquired an 
interest in approximately 9,150 acres of land for habitat purposes, 
leaving approximately 850 acres left to acquire by the end of the First 
Increment.
    The Program will implement water projects under the Water Action 
Plan capable of providing at least an average of 50,000 AF per year of 
shortage reduction to target flows, or for other Program purposes, by 
no later than the end of the First Increment. The Program, through an 
agreement with the State of Wyoming, has acquired 4,800 AF of water per 
year from the Wyoming Account in Pathfinder Reservoir through the 
remainder of the First Increment; however, the Program and the State 
are still in the process of determining the final yield of the 4,800 AF 
for the benefit of the target species at the associated habitat. The 
Program is also currently negotiating a water service agreement with 
the State of Nebraska (Nebraska) and the Central Nebraska Public Power 
& Irrigation District (CNPPID) to acquire water from the proposed J-2 
Project. The J-2 Project, if constructed, could have the ability to 
retime approximately 40,000 AF of excess flows for the benefit of the 
target species. Under the proposed agreement, the 40,000 AF would be 
shared 25 percent (approximately 10,000 AF) for Nebraska and 75 percent 
(approximately 30,000 AF) for the Program. This agreement is a vital 
aspect of achieving the Program's Milestone of providing at least an 
average of 50,000 AF per year of shortage reduction to target flows.
    The Program continues to be successful, and many of the Program's 
Milestones have been achieved. The implementation of the Program and 
the achievement of the Milestones provides measures to help recover the 
four target species, which in turn provides critical Endangered Species 
Act (ESA) compliance for the continued operation of existing water 
projects in the Platte River Basin. The Program also provides ESA 
compliance for the development of certain new water projects within the 
Platte River Basin.
    Due to the amount of land that the Program has acquired an interest 
in, it is very likely that the Program will achieve the Land Milestone 
of 10,000 acres by the end of the First Increment. The one remaining 
major Program Milestone to be achieved by the end of the First 
Increment is developing water projects capable of providing at least an 
average of 50,000 AF per year of annual shortage reduction to target 
flows. Significant funding from DOI will need to be contributed to the 
Program over the remaining years of the First Increment for the 
development of these water projects, including the aforementioned water 
service agreement with Nebraska and CNPPID. Adequate funding in the 
future for this project and other water projects will be critical in 
order to achieve the Program's Water Milestone by the end of the First 
Increment.
    Question. I am regularly reminded by Nebraska constituents that 
additional wind power development will require new investments in the 
transmission system along with more efficient and flexible operation of 
the grid. I would appreciate your thoughts on ways the Federal 
Government may assist in expanding and improving the transmission 
system.
    Answer. Transmission remains one of the largest barriers to the 
development of renewable energy potential in this country. This 
administration is taking steps to improve coordination and streamline 
processing of Federal permits through interagency agreements to 
expedite and simplify permitting on Federal lands. In addition, in 
2009, the Bureau of Land Management (BLM), the United States Forest 
Service (USFS), the Department of Defense, and the Department of Energy 
issued a final Programmatic Environmental Impact Statement that 
evaluated issues associated with the designation of energy corridors on 
Federal lands in 11 Western States. Using this information, the BLM 
designated transmission corridors on BLM lands by amending 92 land-use 
plans in the Western States. Designation of corridors provides 
preferred locations for developers to site major linear facilities 
(such as transmission lines) and specifically identifies lands that are 
available for that purpose.
    BLM will continue to actively coordinate with the Western 
Electricity Coordinating Council to ensure their transmission planning 
and grid reliability initiatives are in harmony with BLM initiatives 
related to land-use planning, designation of utility corridors, policy 
development, and timely review and permitting of high-voltage 
transmission lines.
    BLM's 2009 transmission corridor designations were limited to BLM-
managed lands. BLM manages only 6,354 acres in Nebraska so it was not 
practical to designate any corridors in that State.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. I see that inspection fees for offshore oil and gas 
facilities are being increased from $62 to $65 million. Will this money 
be used to provide more personnel for inspections, in order to relieve 
delays? If it is not being used to alleviate delays, what will this 
increased fee be directed toward?
    Answer. The amount of individual inspection fees has not changed. 
The $3 million increase in inspection fee collections is the result of 
differences in assumptions about the timing of fee collections, not an 
increase in the fees themselves. In fiscal year 2012, inspection fees 
were assessed for the inspection of drilling rigs for the first time. 
The revenue from monthly drilling rig inspections that occur in the 
last quarter of the fiscal year may not be received until the following 
fiscal year. In fiscal year 2013, actual receipts will include fees 
from inspections in the final quarter of fiscal year 2012 and the 
Bureau will therefore receive a full year of inspection fee revenue. It 
is also important to remember that these are estimates and that actual 
fee collections will vary depending on changes in the number of 
applicable Outer Continental Shelf (OCS) operations in a given year. 
All fee revenue will be used to address important mission-related 
priorities. As required by the Consolidated Appropriations Act of 2012, 
not less than 50 percent of the inspection fees collected by the bureau 
will be used to fund personnel and mission-related costs to expand 
capacity and expedite the orderly development, subject to environmental 
safeguards, of the OCS pursuant to the Outer Continental Shelf Lands 
Act, including the review of applications for permits to drill.
    Question. With industry still struggling with slow permitting and 
delays in the permit submission process, and in light of the 
President's stated desire to increase domestic production, what efforts 
are you making to fix the problems with the permit process?
    Answer. Respectfully, the Department does not agree that the 
industry is struggling with slow permitting and delays in the permit 
submission process. As of May 4, 2012, the Bureau of Safety and 
Environmental Enforcement (BSEE) approved 128 new shallow water 
permits, 412 deepwater permits requiring subsea containment, and 66 
deepwater permits not requiring subsea containment.
    BSEE has worked very hard to help industry better understand the 
permitting requirements and improve the efficiency of the application 
process. Among the steps taken to improve the process, BSEE has:
  --Held permit processing workshops for industry, including one in 
        April 2012, which has improved the quality and thoroughness of 
        applications;
  --Published a permit application completeness checklist to make it 
        clear to industry what information is required, and to reduce 
        the frequency with which operators submit incomplete 
        applications;
  --Established priorities for reviewing permit applications--assigning 
        the highest priority to permits for ongoing operations or 
        emergency operations;
  --Begun to balance workloads for its engineers by taking some permit 
        applications and reassigning them to different districts;
  --Allowed authorized users of BSEE's online permit application system 
        to track the status of their applications, which provides 
        operators with greater transparency in the permitting process.
    As a result of these steps and the industry's increasing 
familiarity with the process, permit review times have decreased 
significantly in the past year.
    Question. In light of the fact that production on public lands and 
waters have decreased and with Federal OCS production dropping 441 
million barrels in 2011, down from 588 million in 2010. What is being 
done to increase the speed at which permits are reviewed and approved? 
Would it be wiser to direct more of the money allocated to Bureau of 
Energy Management (BOEM) and BSEE to hire more staff to review permit 
applications?
    Answer. With respect to production from the Federal OCS, the data 
you reference is incomplete. Production data is not required to be 
submitted by operators until 45 days after the end of the month of 
production, so the spreadsheet on BSEE's Web site presenting production 
figures as of January 25, 2012, is missing nearly all the production 
from December 2011. Furthermore, production is not included in that 
spreadsheet until after the reported production volumes are verified, 
which can take several months. The final production numbers for 2011 
will be substantially higher than the values you reference.
    BSEE intends to hire significantly more personnel with the funding 
provided by the Congress in fiscal year 2012, including a significant 
number dedicated to reviewing permits. The hiring and training process 
takes time, and it will be several years before engineers hired this 
year are fully trained to evaluate the breadth of issues required as 
part of the full permitting process. However, BSEE is committed to 
continuously monitoring and improving its permitting process, while 
conducting thorough reviews to ensure that all safety requirements are 
met. In the meantime, as indicated by the permit information available 
on BSEE's Web site, the Bureau is successfully reviewing permit 
applications and doing so in a timely fashion.
    Question. I see that a fee of $4 per acre is being proposed on 
nonproducing, but leased, Federal lands. I am curious why this fee is 
being proposed, when it would appear that the greatest impediment to 
production on these lands is the slow pace of permitting. What was the 
rationale behind this fee?
    Answer. The administration believes this legislative proposal will 
encourage energy production on lands and waters leased for development. 
A $4 per-acre fee on nonproducing Federal leases would provide a 
financial incentive for oil and gas companies to either get their 
leases into production or relinquish them so that the tracts can be 
leased to and developed by new parties. The proposed $4 per-acre fee 
would apply to all new leases and would be adjusted for inflation 
annually. In October 2008, the Government Accountability Office (GAO) 
issued a report critical of past efforts by the Department of the 
Interior to ensure that companies diligently develop their Federal 
leases. This proposal is similar to other nonproducing fee proposals 
considered by the Congress in the last several years and this fee is 
projected to generate revenues to the U.S. Treasury of $13 million in 
2013 and $783 million over 10 years.

                              WILD HORSES

    Question. Mr. Secretary, since passage of the Wild Free- Roaming 
Horse and Burro Act of 1971, more than 20 million acres of wild horse 
habitat has been removed from Herd Management Areas. At least 5 million 
of those acres could be suitable for reintroduction of wild horses. 
When the Bureau of Land Management (BLM) is spending more than $40 
million per year on wild horse and burro holding costs and continues to 
remove almost twice as many animals as it can reasonably adopt each 
year, why hasn't the BLM re-evaluated those 20 million acres and 
seriously considered reintroducing horses and burros to those areas?
    Answer. No specific amount of acreage was set aside for the 
exclusive use of wild horses and burros under the 1971 Wild Free-
Roaming Horses and Burros Act. The Act directed the BLM to determine 
the areas where horses and burros were found roaming, and then to 
consider managing the animals within the boundaries of those areas. Of 
the 22.2 million acres no longer managed for wild horse and burro use, 
6.7 million acres were never under BLM management. There are a number 
of reasons why the BLM has not considered reintroducing wild horses and 
burros to the remaining acres. These reasons include:
  --48.6 percent (7,522,100 acres) are intermingled (``checkerboard'') 
        land ownerships or areas where water was not owned or 
        controlled by the BLM, which made management of wild horses 
        infeasible;
  --13.5 percent (2,091,709 acres) are lands transferred out of the 
        BLM's ownership to other agencies, both Federal and State, 
        through legislation or exchange;
  --10.6 percent (1,645,758 acres) are lands where there were 
        substantial conflicts with other resource values;
  --9.7 percent (1,512,179 acres) are lands removed from wild horse and 
        burro use through court decisions, urban expansion, highway 
        fencing (causing habitat fragmentation), and land withdrawals;
  --9.6 percent (1,485,068 acres) are lands where no BLM animals were 
        present at the time of the passage of the 1971 Act or places 
        where all animals were claimed as private property. (These 
        lands should not have been designated as lands where herds were 
        found roaming and will be removed from the totals in future 
        land use plans.); and
  --8 percent (1,240,894 acres) are lands where a critical habitat 
        component (such as winter range) was missing, making the land 
        unsuitable for wild horse and burro use, or areas that had too 
        few animals to allow for effective management.
    Question. Equine geneticists have concluded that a minimum wild 
horse herd size to sustain genetic viability is 150-200 adult animals. 
Most wild horse herds are less than this minimum level. The BLM budget 
request includes an additional $2 million with your stated goal of 
maintaining herd health. Can you provide more information about how BLM 
intends to address herd health and viability considering herd 
populations are lower than recommended by experts?
    Answer. The proposed number of animals (150-200) in a genetically 
viable wild horse herd is a size that is estimated by some to minimize 
genetic loss. Genetic diversity is lost through time in any isolated 
population of animals, but is slower in larger populations.
    Although some of the herds on BLM lands are smaller than this 
recommended size, there are other factors that make these herds 
genetically viable. Herds that are associated with or border other 
herds experience the exchange of genetic material. Many BLM herds fall 
into this category. A small amount of exchange (through a few 
individuals) can have a large impact on overall genetic diversity. The 
exchange of individuals through management intervention is also 
possible should the need arise.
    During gather operations, the BLM frequently collects hair samples 
from individuals in a herd for genetic testing. The geneticist who does 
the testing provides BLM with a report evaluating the level of genetic 
diversity and recommending actions that BLM should take, if any, 
including when additional genetic monitoring should be conducted. For 
instance, should a herd genetics report indicate low genetic diversity, 
the BLM can adjust the herd composition by removing and relocating some 
of the brothers and/or sisters (genetic redundancy likely to cause 
genetic malformities) to keep them from breeding. Depending on herd 
population size relevant to appropriate management level within the 
herd management area, the BLM may also bring in horses with other 
genetics from similar herds.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

               U.S. FISH AND WILDLIFE SERVICE--BACKGROUND

    Question. The Minnesota Public Utilities Commission recently denied 
plans for a 48 turbine wind farm because of concerns about the impact 
on birds, bats, and bald eagles. According to the American Bird 
Conservancy, this project was the first ever wind farm project to apply 
to the U.S. Fish and Wildlife Service (FWS) for a ``taking'' permit for 
bald eagles. Thankfully, there is growing awareness that wind turbines 
kill not just migratory birds and bats, but also bald eagles.
    If the Department moves forward with plans to allow construction of 
wind farms on public land, how do you plan to address this problem?
    Answer. FWS has promulgated a regulation at 50 CFR 22.26 (the Eagle 
Take Regulation) under the Bald and Golden Eagle Protection Act that 
authorizes issuance of programmatic eagle take permits to 
unintentionally take golden eagles, bald eagles, or both, at sites such 
as wind facilities. However, the permits will be issued only if FWS 
determines that any take is compatible with the preservation standard 
for eagles set in the Act by Congress.
    FWS established an approach to ensure that permitted take meets the 
preservation standard in our National Environmental Policy Act (NEPA) 
analysis for the Eagle Take Rule. Further, FWS has developed Eagle 
Conservation Plan Guidance that provides recommendations for wind 
developers on how to reduce impacts to eagles by using robust survey 
techniques to select project sites, establishing appropriate monitoring 
of eagle use areas, employing adaptive management measures, and if 
necessary, offsetting impacts to eagles through compensatory 
mitigation. FWS believes that using the Guidance and working with the 
Service will reduce likely eagle take by wind energy projects to levels 
compatible with the preservation standard for eagles set in the Act by 
Congress.
    Additionally, FWS is developing training on how to evaluate wind 
projects in light of FWS guidance and regulations. The training will 
initially be targeted at Service staff, but the FWS plans to expand the 
training and make it available to industry in the near future. The 
draft training outline was provided to private stakeholders for comment 
in an effort to ensure it will meet industry's needs.
    Question. Will wind farm projects be expected to apply for a permit 
to kill bald eagles?
    Answer. Take of a bald eagle or a golden eagle without a permit is 
a violation of the Act. FWS's Guidance relative to Eagle Take Permits 
applies to both species. The Guidance encourages a wind project 
developer at a site at which take of bald eagles is predicted to seek 
an Eagle Take Permit.
    Question. Will wind farm projects be required to submit mitigation 
plans to make up for the killing of bald eagles?
    Answer. Any wind energy facility that receives a permit from FWS 
will be required to work through the mitigation hierarchy as defined 
under the FWS's Mitigation Policy. Avoidance and minimization are the 
essential components of the Mitigation Policy, while compensatory 
mitigation may be appropriate if avoidance and minimization cannot 
reduce take to acceptable levels. In order to qualify for a permit, the 
new regulations require applicants to demonstrate that they have 
avoided and minimized take of eagles to the maximum degree achievable. 
In many areas of the country, FWS has determined that some take of bald 
eagles can be authorized without risk of violating the preservation 
standard set by the Congress. In these locations, additional 
compensatory mitigation for take is not mandatory, but in other 
locations compensatory mitigation may be required to qualify for an 
eagle take permit.
    Question. What about other species that might be endangered or 
threatened?
    Answer. Section 9 of the Endangered Species Act prohibits the take 
(which includes killing) of endangered wildlife and that prohibition is 
generally extended by regulation to threatened wildlife. Wind farm 
projects that are expected to take listed wildlife species would 
therefore need to receive an authorization to take listed species. 
Information regarding these procedures may be found in Appendix 5 
``Procedures for Endangered Species Evaluations and Consultations'' in 
the 2003 ``Service Interim Guidance on Avoiding and Minimizing Wildlife 
Impacts from Wind Turbines.''
    Additional information regarding Consultations and Habitat 
Conservation Plans may be accessed at http://www.fws.gov/endangered/
what-we-do/consultations-overview.html and http://www.fws.gov/
endangered/what-we-do/hcp-overview.html respectively.

               U.S. FISH AND WILDLIFE SERVICE--BACKGROUND

    Question. Tennessee is home to two very important mitigation fish 
hatcheries, the Erwin National Fish Hatchery in Erwin, Tennessee and 
the Dale Hollow National Fish Hatchery in Celina, Tennessee. The Erwin 
hatchery provides eggs for hatcheries all across the country, and the 
Dale Hollow hatchery produces 60 percent of all the trout stocked in 
Tennessee.
    The Department's fiscal year 2013 budget request proposes to cut 
$3.2 million from the mitigation hatcheries, and Ed Carter, director of 
the Tennessee Wildlife Resources Agency, has said that if these 
hatcheries close the impact on Tennessee will be devastating.
    Will the Department work with the Corps of Engineers (COE) and 
other Federal agencies to continue to fund mitigation hatcheries and 
ensure that these critical hatcheries will not be closed until a 
funding solution is in place?
    Has the Department considered the economic benefits of maintaining 
the fish hatcheries?
    Answer. FWS's mission-driven priority is to protect and restore 
native fish species and habitat. At a time when budgets are tight and 
available resources limited, we need to focus our resources on these 
high-priority outcomes. The President's fiscal year 2013 budget 
proposal would move nonreimbursed mitigation activities toward a user-
pay system, similar to the President's fiscal year 2012 budget 
proposal. This approach puts all of the mitigation hatcheries on the 
same footing, and represents a more efficient use of Federal funds. 
Federal water development agencies are the appropriate entities for 
mitigating the adverse effects of the projects they operate and the 
impact of those projects on recreational fisheries. The Department is 
aware of the significant economic benefits of fish hatcheries and will 
continue to work with COE, the Tennessee Valley Authority and other 
Federal agencies to receive full reimbursement for mitigation 
activities. We understand that the fish supplied by these hatcheries 
provide important economic opportunities to States and recreational 
community, and we support the continuation of mitigation work. Our goal 
is to keep our mitigation fish hatcheries open, and to continue to 
provide fish as we have in the past in the most efficient and effective 
way possible. However, the Service's policy is to move toward a user-
pay system.

       U.S. GEOLOGICAL SURVEY--DISASTER PREPAREDNESS--BACKGROUND

    Question. Tennessee experienced record flooding in Nashville and 
middle Tennessee in May 2010 and in Memphis and west Tennessee in 2011. 
The U.S. Geological Survey (USGS) played a critical role in these 
flooding events, and it is welcome news that the Department is 
requesting increased funding for USGS to prepare for future disasters.
    USGS has doubled the number of monitoring stations in the Nashville 
area, and is working closely with local government and other Federal 
agencies to ensure the right information gets to emergency managers as 
quickly as possible. Other communities in Tennessee, including 
Chattanooga and Memphis, hope to work with USGS to improve their flood 
management as well.
    Question. Could you tell us how the Department plans to use the 
additional funds?
    Answer. The fiscal year 2013 proposed budget for the National 
Streamflow Information Program (NSIP) provides funds to be invested in 
activities that will help protect life and property from hydrologic 
hazards, including flooding. These activities include developing and 
producing streamgages that can be rapidly, but temporarily, deployed to 
locations that are currently or forecast to be in flood or drought 
conditions to provide streamflow information over a broader area. This 
information would be used by forecasters, flood-management agencies, 
and first responders, who must make decisions regarding flood-fighting 
and evacuation, and would provide a better understanding of hydrologic 
extremes. The fiscal year 2013 proposed budget also provides for 
activities related to producing flood inundation maps. These maps show 
the extent and depth of flood waters for streams at USGS streamgages 
that serve as National Weather Service flood-forecast locations. The 
maps will assist home owners, business owners, and first responders to 
anticipate and respond to flooding. Since the recent flooding in the 
Nashville area, the USGS has been involved in a cooperatively funded 
pilot project that developed more than 1,000 flood inundation maps for 
that community.
    Question. Will funds be available for additional monitoring 
stations?
    Answer. The proposed NSIP budget for 2013 provides funds for 
ecosystem restoration activities in the upper Mississippi and Columbia 
River basins that likely will include providing streamflow information 
for use in the design and implementation of techniques and processes to 
restore ecosystems to more natural conditions.
    In addition to these activities the 2013 request includes funding 
for the operation and maintenance of about 100 streamgages, which are 
part of the Federal backbone needed for flood forecasting. Many 
streamgages are currently funded through the Cooperative Water Program 
(CWP). Reductions in the budget of the CWP could lead to a net loss of 
270 to 300 streamgages nationwide. Proposed funding increases in the 
budget for NSIP will help to bring more stable funding to those 100 
streamgages.
    Question. What steps will the Department be taking to address 
earthquake hazards along the New Madrid fault, which impacts Memphis 
and west Tennessee?
    Answer. USGS supports a seismographic network in the New Madrid 
seismic zone in cooperation with the University of Memphis and Saint 
Louis University. The location, depth, time, and felt area of all 
earthquakes in the region above approximately magnitude 1.7 are 
automatically posted to a public USGS Web site in near real time. The 
USGS National Seismic Hazard Maps depict the regional elevated hazard 
in the region. More detailed earthquake hazard maps are currently 
available for the urban areas of Memphis, Tennessee, and Evansville, 
Indiana and a map of the St. Louis metropolitan area is nearing 
completion. These maps show the amplification of seismic shaking caused 
by local geologic deposits. Data from a network of geodetic stations 
supported by the USGS shows that there is small but significant slow 
ground deformation in the region capable of producing damaging 
earthquakes.

                 OIL AND GAS LEASE REVENUES--BACKGROUND

    Question. In 2011, the Department generated $11.3 billion from 
energy production on Federal lands--a $2 billion increase more than 
2010. Since 2008 oil production from the Outer Continental Shelf has 
increased by 30 percent. Despite this progress, gas prices are on the 
rise and domestic production is not keeping up.
    What steps are being taken to expand oil and gas leases on public 
land?
    What impact will the Department's proposal to impose new inspection 
fees and raise other collection fees have on oil and gas production?
    Answer. Facilitating the efficient, responsible development of 
domestic oil and gas resources is part of the administration's broad 
energy strategy that will protect consumers and help reduce our 
dependence on foreign oil. The Bureau of Land Management (BLM) is 
working on a variety of fronts to ensure that development is done 
efficiently and responsibly including implementing leasing reforms; 
increasing leasing opportunities in the National Petroleum Reserve in 
Alaska (NPR-A); adopting new processes to process drilling permits more 
quickly; and improving inspection, enforcement, and production 
accountability. BLM can only speculate as to why the operators have not 
produced more on Federal Lands. Oil and gas drilling and development 
are market-driven activities, and the demand for leases is a function 
of market conditions. Market drivers include prevailing and anticipated 
oil and gas prices, bidder assessments of the quality of the resource 
base in a given area, the availability/proximity of necessary 
infrastructure, and the proximity of the lease to local, regional, and 
national markets and export hubs. The shale formations that currently 
have high industry interest for development, such as North Dakota's 
Bakken shale, Texas's Eagle Ford shale, and the Marcellus and Utica 
shales of the Eastern United States, are primarily in areas with a high 
proportion of non-Federal land. These areas have seen increased 
development recently due to a favorable mix of the factors noted above. 
As drilling priorities shift due to changes in technology or markets, 
an operator may choose different areas for development. Further, BLM 
lands are primarily gas-prone. Recent national rig counts (by Baker 
Hughes) indicate that rigs drilling for gas are at an ``all-time low'' 
(by percentage) and the gas is selling at ``a record discount to 
crude.'' (Wall Street Journal, May 4, 2012).
    Approximately 38 million acres of Federal land are leased for oil 
and gas development. Not all leases have equal production potential, 
and not all leases have optimal transmission capacity where the oil or 
gas is being extracted. Approximately 12 million acres are producing 
oil and gas, and active exploration is occurring on an additional 4 
million acres. We are encouraged by increasing production on Federal 
leases. BLM, specifically, has approved approximately 7,000 
applications for permit to drill that are not being used by industry.
    The proposed new inspection and enforcement fee is consistent with 
the principle that users of the public lands should pay for the cost of 
both authorizing and oversight activities. These fees are similar to 
fees now charged for offshore inspections, and to numerous cost-
recovery fees charged for other uses of Federal lands and resources.

                    WHITE NOSE SYNDROME--BACKGROUND

    Question. In May 2011, FWS unveiled a national plan to address the 
growing threat posed by white-nose syndrome (WNS), which has killed 
more than 5 million bats since it was discovered in 2006. Since then, 
the fungus has spread throughout the bat population and is now reported 
in 18 States and Canada, including Tennessee. In 2010, Austin Peay 
State University's Center of Excellence for Field Biology was tasked by 
the U.S. Forest Service (USFS) to monitor WNS at Land Between the 
Lakes, and the Center is currently engaged in a number of research 
efforts to combat this disease.
    The Department has invested millions to support monitoring, 
research, and the development of protocols to reduce transmission. 
However, most of this funding has been targeted for northeastern States 
where the WNS was first discovered, but funding is not making it to the 
States and universities in the South, where WNS is rapidly expanding.
    Question. What is the Department doing to help wildlife researchers 
in States like Tennessee to reduce the spread of WNS?
    Answer. WNS is a disease associated with massive bat mortality in 
the Northeastern and Mid-Atlantic United States. Affected hibernating 
bats often have white fungal growth on their muzzles, ears, and/or wing 
membranes as the result of infection by a newly described species of 
fungus (Geomyces destructans), which causes skin erosions and ulcers 
and can invade underlying connective tissue. There is no clear 
indication of any natural resistance to WNS in the affected bat 
populations.
    Since first observed at four bat hibernacula (hibernation areas) in 
New York in winter 2006-2007, WNS has been detected in 16 States and 
four Canadian Provinces. The most recent surveys of hibernacula near 
the epicenter of the outbreak show that since 2007, mortality is 
approaching 100 percent at some sites. Six cave-hibernating bat 
species, including four federally listed species, are directly affected 
or at risk from WNS. The fungus causing WNS is responsible for the 
death of more than 6 million bats.
    During the winter of 2011-2012, USGS conducted video-monitoring of 
bats in caves and mines in New York and Tennessee to test whether 
fungal skin infection triggers unsustainable energy-consuming behaviors 
during hibernation. USGS is working with USFS to conduct detailed 
characterizations of fungi associated with bat hibernation sites to 
better understand the microbial ecology of WNS.
    For fiscal year 2012, USGS has allocated $692,882 for WNS research 
studies. Modeling software is being developed by USGS that will help 
forecast the consequences of alternative actions for the persistence 
and recovery of bats. The USGS fiscal year 2013 budget includes a $1 
million increase that would be used to enhance surveillance and 
diagnostic capability to detect the continued spread of WNS; bolster 
research on environmental factors controlling persistence of the fungus 
in the environment; develop management tools, particularly the 
development of a vaccine; and conduct research on mechanisms by which 
WNS causes mortality in bats, focused on immunology and pathogenesis.
    In fiscal year 2012, the Congress directed FWS to spend $4 million 
from endangered species recovery funding to combat WNS. FWS has 
proposed to reprogram $625,000 of this funding to other critical 
endangered species recovery actions, and to utilize funding from the 
State and Tribal Wildlife grant program and from the National Wildlife 
Refuge program for WNS. Under this proposal FWS will dedicate a minimum 
of $4,855,000 for WNS efforts in 2012. The fiscal year 2013 FWS budget 
includes $1.9 million (not including any competitive grants that may be 
awarded) for work on WNS, including $995,470 to continue funding WNS 
coordinator positions, and $901,530 to fund critical WNS research.
    WNS continues to spread and is projected to appear in the highly 
dense and diverse bat populations in additional Southern and Midwestern 
States in the very near future. Predictions for spread to western 
States and the affect of WNS on bats there is less certain.

         NATIONAL PARK SERVICE--MAINTENANCE BACKLOG--BACKGROUND

    Question. The National Park Service (NPS) budget request for fiscal 
year 2013 is $2.6 billion, $1 million less than the fiscal year 2012 
enacted level. Within this amount, the Department seeks to increase 
park operations funding by $13.5 million, but proposes to reduce line 
item construction funding by $25.3 million and funding for National 
Heritage Areas program by $7.8 million.
    Question. National parks are already underfunded by $600 million 
each year. What progress is being made to address this issue?
    Answer. NPS does not quantify shortfalls in park operations. 
Funding for the main operating account of the NPS has stayed fairly 
level in nominal dollars since 2010, but there have been unavoidable 
cost increases in recent years due to inflation, rise in nonpersonnel 
fixed costs, and the added responsibility for five new parks. NPS is 
focusing funding on programs that are most central to the NPS mission, 
implementing management efficiencies, and undertaking administrative 
cost savings to optimize the use of appropriated dollars.
    Question. What is being done to address the deferred maintenance 
backlog and how long can we continue to ignore the problems facing our 
national parks?
    Answer. The current backlog of deferred maintenance (DM) associated 
with NPS constructed asset components considered critical to their 
function, such as roofs, foundations, road surfaces, etc., is 
approximately $4.1 billion. The fiscal year 2013 budget request 
maintains funding for operational DM at fiscal year 2012 levels. The 
request includes $71 million for the highest-priority DM repair and 
rehabilitation projects and $96.4 million to prevent additions to the 
DM backlog through cyclic maintenance projects. The line-item 
construction proposal funds the highest-priority construction projects 
to address critical life safety, resource protection, and emergency 
needs and does not add any new assets to the NPS asset portfolio. These 
projects address long-standing DM needs.
     federal interagency council on outdoor recreation--background
    Question. According to Tennessee's Commissioner of Tourism, Susan 
Whitaker, tourism has a $13 billion impact on Tennessee. Tourism 
supports a lot of jobs in Tennessee, and since the Great Smoky 
Mountains National Park is our Nation's most visited national park, the 
new Federal Interagency Council on Outdoor Recreation is welcome news.
    It is very encouraging to see the Department of the Interior 
working with the Departments of Commerce and Agriculture to boost 
tourism and outdoor recreation, but one of the biggest challenges our 
international visitors face is getting a visa. If it takes months to 
get a visa to come to the United States and only 1 week to get a visa 
to go somewhere else, people will go somewhere else.
    Is the Department working with the State Department to decrease the 
amount of time international visitors have to wait before they can come 
visit our national parks?
    Answer. In the same Executive order that established the Task Force 
on Travel and Competitiveness (which is co-chaired by the Secretary of 
the Interior and the Secretary of Commerce), the President directed the 
Department of State in conjunction with other agencies and White House 
offices to take actions to enhance and expedite travel to and arrival 
in the United States by foreign nationals, consistent with national 
security requirements.
    The Visa Waiver Program (VWP) is the flagship of our national 
tourism strategy. More than 60 percent of all travelers to the United 
States come under the VWP, generating more than $60 billion in annual 
tourism revenue and representing about 60 percent of all tourism-
related expenditures in the United States from overseas travelers. 
While VWP remains the largest travel facilitation program, the Obama 
administration is also committed to easing travel for the approximately 
35 percent of international travelers who currently require visas and 
border crossing cards to enter the United States. Building on the 
progress made over the past several years and in response to the 
President's Executive order, the Obama administration is facilitating 
legitimate travel to America while maintaining security by:
      Tracking the Increasing Arrivals.--The Department of Homeland 
        Security continues to monitor the number of arriving travelers. 
        Comparing the first 6 months of fiscal year 2012 to fiscal year 
        2011, arrivals of travelers using VWP have increased by 8 
        percent and arrivals of travelers from China and Brazil have 
        increased by 33 percent and 18 percent, respectively. Total 
        nonimmigrant admissions, travelers not including U.S. citizens 
        and returning residents, have increased by 4.5 percent.
      Shortening Visa Interview Wait Times.--Around the world, wait 
        times for visa interviews are generally short, and have dropped 
        dramatically in some of the busiest travel markets where demand 
        for visas has increased. Now, travelers wait just 2 days for an 
        appointment at United States consulates in China, 2 weeks or 
        less in Brasilia, Recife, and Rio de Janeiro, and 35 days or 
        less in Sao Paulo. In anticipation of the summer travel season, 
        the Department of State is adding staff and streamlining its 
        operations to continue to reduce wait times.
      Streamlining the Visa Process.--Tens of thousands of travelers 
        want to visit the United States, and a new pilot program is now 
        underway to streamline processing will help facilitate the 
        demand by freeing up more interview slots for first-time 
        applicants. Consular officers may waive in-person interviews 
        for certain low-risk, qualified individuals, such as those 
        renewing their visas within 48 months of the expiration of 
        their previous visas. Consular officers may also waive 
        interviews for Brazilian applicants younger than the age of 16 
        and age 66 and older, but retain the authority to interview any 
        applicant in any category if security or other concerns are 
        present.
      Building Capacity in China and Brazil To Meet Demand.--The 
        Department of State is doubling the number of diplomats 
        performing consular work in China and Brazil over the next year 
        and is investing approximately $40 million in 2012 on existing 
        facilities in Brazil and $18 million in China--adding interview 
        windows, expanding consular office space, and improving waiting 
        areas. On April 9, President Obama announced that the United 
        States will establish consulates in Belo Horizonte and Porto 
        Alegre, Brazil, while major expansion projects are underway in 
        China.
      Increasing Consular Staffing and Implementing Innovative Hiring 
        Programs.--To address immediate growth in demand, the 
        Department of State is sending consular officers from all over 
        the world to Brazil and China to adjudicate visa applications. 
        The Department of State is doubling the number of diplomats 
        performing consular work in China and Brazil over the next 
        year, to ensure that the United States can continue to offer 
        timely visa services to qualified applicants. Similarly, the 
        first group of newly hired consular adjudicators recently 
        arrived at United States consulates in Brazil and China. These 
        adjudicators were hired under a landmark program targeting 
        recruits who already speak Portuguese or Mandarin.
    Additionally, Interior agencies have made it easier for more 
partners to become third-party vendors of the ``America the Beautiful'' 
$80 pass which provides visitor access, including international 
visitors, to hundreds of public lands destinations nationwide. They are 
actively reaching out and encouraging partners to both sell the pass 
online, at trade shows, and in other tourism venues as well as to 
develop promotions for buying and using the pass. The goal is to 
increase sales to both Americans and international visitors, who will 
then have an incentive to visit more destinations and lesser known 
locations, and to extend their stays.
    Question. How has COE worked with the Department to support the 
outdoor recreation initiatives promoted by the interagency council?
    Answer. Through the America's Great Outdoors Initiative, seven 
agencies were identified for inclusion in the Federal Interagency 
Council on Outdoor Recreation including:
  --COE;
  --National Oceanic and Atmospheric Administration (Commerce);
  --USFS (Agriculture);
  --NPS;
  --FWS;
  --Bureau of Reclamation; and
  --BLM (Interior) to coordinate Federal land and water recreation 
        management efforts.
    The Federal Interagency Council on Outdoor Recreation (FICOR) has 
worked closely with existing Federal Advisory Committee Act bodies that 
support recreational activities, including the Wildlife and Hunting 
Heritage Conservation Council, the 21st Century Conservation Service 
Corps Committee, the Sport Fishing and Boating Partnership Council, the 
First Lady's Let's Move! Initiative, and the President's Council on 
Fitness, Sports, and Nutrition to promote better integration and 
coordination among the Federal agencies in support of providing outdoor 
recreation opportunities for Americans. FICOR has identified two high-
priority actions, including support for the National Travel and Tourism 
Strategy to promote domestic and international tourism on Federal lands 
and waters, and enhancements to the Federal Interagency Recreation Web 
site--recreation.gov.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. States have complained that the length of the Coastal 
Impact Assistance Program (CIAP) grant approval process is too long and 
cumbersome. For years I have relayed the frustration Mississippi 
coastal communities have experienced with this program. Last year, the 
administration transferred management to the Fish and Wildlife Service 
(FWS) stating that this would lead to a more efficient process and 
expeditious delivery of funds. Can you please provide details on the 
progress being made in addressing these concerns?
    Answer. To address these concerns, FWS began meeting with all of 
the affected States starting in May 2011, to discuss the issues and 
develop a transition plan to minimize the impact on States and Coastal 
Political Subdivision (CPS) operations. As a result of these 
discussions, on October 1, 2011, FWS began to encourage submission of 
CIAP applications and the obligation of funds. We centralized the grant 
administration into the Washington office and hired and trained a 
professional grants management team to review and award grants. 
Additionally, we have added a technical guidance function in each of 
the States to provide a State liaison to work closely with the 
recipients of CIAP funds. Five of the six States presently have a State 
liaison, with the sixth in the process of being hired. The State 
liaisons in the four gulf States are co-located with State staffs. In 
California and Alaska, the liaisons are located in local FWS offices in 
Sacramento and Anchorage, respectively, to encourage communication and 
expeditious handling of technical questions on planning and proposed 
project issues. The Washington office staff is responsible for the 
technical review, including programmatic and financial aspects that are 
integral to the grant award process. The State liaisons are working 
with the recipients in the pre-award phase to guide the planning 
process, develop project proposals and to help improve the quality of 
initial grant application submissions to alleviate the time consuming 
process of supplemental information requests during review.
    In addition, we have held a national webinar and two national 
teleconferences with CIAP applicants. We have completed a CIAP training 
session in Alaska and are in the process of scheduling training 
workshops for States and CPSs for better CIAP grants management. We 
expect to hold these workshops April through August 2012 in the 
eligible States.

     Question. It is my understanding that the Department of the 
Interior has changed the definition of ``obligated funds'' under CIAP. 
Why?
    Answer. The Department has not changed the definition of obligated 
funds.
    Question. The administration has been quick to highlight increased 
levels of domestic oil and gas production. How much of this is 
attributed to production increases on State and private lands as 
opposed to Federal lands?
    Answer. The Department of the Interior does not administer oil and 
gas from State and private lands. However, as reported by the U.S. 
Energy Information Administration in its March 2012 report ``Sales of 
Fossil Fuels Produced from Federal and Indian Lands, Fiscal Year 2003 
Through Fiscal Year 2011'',production of oil from onshore Federal lands 
in fiscal year 2011 was 112 million barrels, an increase more than the 
108 million barrels produced in fiscal year 2010. Natural gas 
production from Federal lands in fiscal year 2011 was 2,955 billion 
cubic feet, nearly level with the 3,068 billion cubic feet produced in 
fiscal year 2010. Average oil production from Federal lands from fiscal 
year 2005 through fiscal year 2008 was 103 million barrels. Average oil 
production increased from fiscal year 2009 through fiscal year 2011 to 
108 million barrels. Average gas production from Federal lands from 
fiscal year 2005 through fiscal year 2008 was 2,892 billion cubic feet. 
Average gas production, too, increased from fiscal year 2009 through 
fiscal year 2011 to 3,064 billion cubic feet.
    Question. The President has called for an ``all-of-the-above'' 
approach to addressing our Nation's energy challenges, and while I have 
always supported energy diversification, it seems to me that this 
budget and the proposed offshore oil and gas leasing plan for 2012 to 
2017 does not reflect that. Can you speak to what the Department is 
doing to explore and develop new energy resources, in the Gulf of 
Mexico specifically, that could lower gas prices and strengthen our 
energy security?
    Answer. When President Obama took office, the United States 
imported 11 million barrels of oil a day. The President has put forward 
a plan to cut that by one-third by 2025. The administration is taking a 
series of steps to execute the Blueprint for a Secure Energy Future, a 
broad effort to protect consumers by producing more oil and gas at home 
and reducing our dependence on conventional energy resources by using 
cleaner, alternative fuels and improving our energy efficiency. The 
Blueprint is a plan that calls for an ``all-of-the-above'' approach. 
The administration is moving ahead with a comprehensive energy plan for 
the country that is enhancing our energy security, creating jobs, and 
improving protections for the environment. In 2011, American oil 
production reached its highest level since 2003, and total U.S. natural 
gas production reached an all-time high.
    The Department of the Interior plays an important role in advancing 
domestic production. Last November, I announced a proposed Outer 
Continental Shelf (OCS) Oil and Gas Leasing Program for 2012-2017 that 
would make areas containing more than 75 percent of undiscovered 
technically recoverable oil and gas resources estimated in Federal 
offshore areas available for exploration and development. The proposed 
program focuses on six offshore areas where there are currently active 
leases and/or exploration, and where there is known or anticipated 
hydrocarbon potential. Three of the six areas are in the Gulf of 
Mexico, which is and will remain one of the cornerstones of America's 
energy portfolio and is central to our country's energy security. The 
gulf, in particular the deepwater areas, already has several world 
class producing basins and there have been a number of significant new 
discoveries in the last year. We estimate that the Central Gulf of 
Mexico holds more than 30 billion barrels of oil and 133.9 trillion 
cubic feet of natural gas yet to be discovered. This is nearly double 
the estimated technically recoverable resource potential of the Chukchi 
Sea. The Western Gulf of Mexico is just behind the Chukchi with more 
than 12 billion barrels of technically recoverable oil and nearly 70 
trillion cubic feet of technically recoverable natural gas.
    We have been providing incentives to spur efficient oil and gas 
development where possible using administrative action. Offshore, 
existing authorities make it possible to shorten the base term of 
leases, where appropriate, and reward diligent development efforts with 
lease extensions, providing industry with an incentive to develop its 
existing leases. The proposed 2012-2017 lease sales in the Gulf of 
Mexico consider offering all the unleased available acreage, including 
the small portion of the Eastern Gulf of Mexico planning area that is 
not under congressional moratorium pursuant to the Gulf of Mexico 
Energy Security Act of 2006.
    Moving ahead with the ``all-of-the-above'' strategy will reduce 
dependence on foreign oil, thereby enhancing energy security and 
helping us as we transition to a cleaner energy future. However, it 
will not have a direct impact on the price of gasoline, which is 
overwhelmingly dictated by the global price of crude oil. There are 
other actions that the administration has taken that can have longer-
term impacts on the demand for gasoline, which is why the President set 
an ambitious goal that by 2015 we would have 1 million electric 
vehicles on the road, becoming the world's leader in advance vehicle 
technologies. To help reach this goal, the President is proposing bold 
steps to improve the efficiency of all modes of transportation and to 
develop alternative fuels. The administration continues to push forward 
on fuel economy standards for cars and trucks. The President has 
proposed to speed the adoption of electric vehicles with new, more 
effective tax credits for consumers and support for communities that 
create an environment for widespread adoption of these advanced 
vehicles in the near term. These actions are already helping to lower 
transportation costs by reducing dependence on oil, provide more 
transportation choices to the American people, and revitalize the U.S. 
manufacturing sector.
    Question. I am curious to know if the Historic Preservation Fund 
contains any public-private partnership opportunities to fund bricks 
and mortar projects, previously carried out by grants from Save 
America's Treasures program?
    Answer. Development (bricks and mortar) projects are an eligible 
activity under the National Historic Preservation Act (NHPA). State and 
Tribal Historic Preservation Offices may choose to use their annual 
Historic Preservation Fund (HPF) grants to fund development activities 
at National Register listed properties. Additionally, the NHPA requires 
that States direct 10 percent of their annual HPF allotment to 
Certified Local Governments (CLGs). Each State sets the parameters of 
the types of projects CLGs can complete with this funding, and may 
choose to allow CLGs to fund development projects.
    Most States and tribes, however, currently use the majority of 
their HPF grant funds to carry out nondiscretionary activities mandated 
by the NHPA, including consultation with Federal agencies on the impact 
of Federal undertakings (section 106 compliance), survey and inventory 
of historic properties, listing properties in the National Register, 
and administering CLGs. After this work has been completed, little 
funding generally remains to complete development projects. Similarly, 
few States currently choose to include development projects as an 
eligible project type for CLGs subgrants, because the amount each State 
distributes to CLGs is small. The average CLG subgrant in fiscal year 
2011 was $2,600. The projects CLGs complete generally include survey of 
historic properties, National Register listings, and educational 
resources.

                          SUBCOMMITTEE RECESS

    Senator Reed. With that, again, thank you, and the hearing 
is concluded.
    [Whereupon, at 11:42 a.m., Wednesday, February 29, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

</pre></body></html>
